<html>
<title> - IRAQ AT A CROSSROADS: OPTIONS FOR U.S. POLICY</title>
<body><pre>[Senate Hearing 113-656]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-656
 
                         IRAQ AT A CROSSROADS: 
                        OPTIONS FOR U.S. POLICY

=======================================================================

                                HEARING

                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                    U.S. GOVERNMENT PUBLISHING OFFICE      
94-805 PDF              WASHINGTON : 2015                    
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e98e9986a98a9c9a9d818c8599c78a8684c7">[email&#160;protected]</a>  



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Barbero, Michael D., Lieutenant General, U.S. Army [Retired], 
  Washington, DC.................................................    51
    Prepared statement...........................................    53
Corker, Hon. Bob, U.S. Senator from Tennessee....................     2
Jeffrey, Hon. James F., Philip Solondz Distinguished Visiting 
  Fellow, the Washington Institute for Near East Policy, 
  Washington, DC.................................................    47
    Prepared statement...........................................    49
McGurk, Brett, Deputy Assistant Secretary Of State for Iraq and 
  Iran, U.S. Department of State, Washington, DC.................     4
    Prepared statement...........................................     7
    Response to question submitted by Senator Tim Kaine..........    72
    Responses to questions submitted by Senator Jeff Flake.......    72
    Responses to questions submitted by Senator John Barrasso....    76
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     1
Pollack, Kenneth M., senior fellow, Saban Center for Middle East 
  Policy, Brookings Institute, Washington, DC....................    56
    Prepared statement...........................................    58
Slotkin, Elissa, performing the duties of the Principal Deputy 
  Under Secretary of Defense for Policy, and Principal Deputy 
  Assistant Secretary of Defense for International Security 
  Affairs, U.S. Department Of Defense, Washington, DC............    14
    Prepared statement...........................................    15
    Responses to questions submitted by Senator Jeff Flake.......    75
    Responses to questions submitted by Senator John Barrasso....    78

                                 (iii)

  

                        IRAQ AT A CROSSROADS: 
                        OPTIONS FOR U.S. POLICY

                              ----------                              


                        THURSDAY, JULY 24, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Boxer, Cardin, Shaheen, Coons, 
Durbin, Murphy, Kaine, Markey, Corker, Risch, Rubio, Johnson, 
Flake, McCain, and Barrasso.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing will come to 
order. Today we focus on Iraq and U.S. policy options, but to 
fully examine the crisis in Iraq we must acknowledge the 
broader context of developments across the region. Earlier this 
year I held a hearing on the spillover from the Syria conflict 
to examine the implications of continued violence in Syria and 
how it would impact the stability and security of neighboring 
countries. Now we are seeing the very dangerous results of that 
spillover with the advancement of ISIS, the increase in 
sectarian violence, underscored by the dissolution of any real 
border between Iraq and Syria, and the designation by ISIS of a 
caliphate across Syria and Iraq that is threatening to create a 
security vacuum in the heart of the Middle East.
    While today's hearing will not focus specifically on the 
regional threat posed by ISIS or on United States-Syria policy, 
I want to take this opportunity to restate my long-held 
position that we must enhance our support to the moderate 
Syrian opposition, the only ones willing to challenge ISIS and 
other al-Qaeda affiliates in Syria. It seems to me at the end 
of the day supporting these moderate forces must be one pillar 
of a broader U.S. policy in the 
region.
    No one should be surprised that Iraq is the victim of this 
spillover, but we should be extremely concerned by the rapid 
expansion of ISIS and alarmed by Iran's clear involvement in 
Iraq. And we should be dismayed by the convenient alignment of 
Iranian, Russian, and Syrian interests in response to recent 
developments, 
especially in Iraq. At its core, this alignment is about self-
preservation of rogue actors that seek to maintain power by 
destabilizing others and keeping weak governments susceptible 
to malign 
influence.
    In my view, Iraq does not have to proceed down this path 
and it is up to Iraq's leaders to chart a different course for 
their 
country.
    I am deeply disappointed that, after years of United States 
investment in time and resources, the loss of thousands of 
American lives, and the commitment of billions of dollars to 
support Iraq's political development and the creation of a 
responsible, capable Iraqi Security Force, that they deserted 
the communities they were responsible for protecting, abandoned 
United States military equipment, and fled from ISIS fighters.
    At the same time, ISIS's expansion across Iraq and its 
reception by Iraq's Sunni communities and tribes would not have 
been possible except for the accumulation of years of 
destructive sectarian, corrupt policies by the central 
government in Baghdad. Iraq has the potential to be an 
economically prosperous, diverse, and politically 
representative model for others in the region, but Iraqi 
leaders have focused on their own sectarian and ethnic 
interests for too long, at the expense of building an Iraq for 
all Iraqis.
    The time is now for Iraq's elected leaders to form a 
national unity government that is truly representative. I 
applaud the recent progress in nominating a Speaker and two 
Deputy Speakers for Iraq's Parliament and today's promising 
news that a President has been named. I encourage Iraq's 
leaders to continue this critical work and finalize the 
government with leaders committed to leading an Iraq for all 
Iraqis.
    While Iraq's leaders continue negotiations to form the next 
government, the Department of Defense has completed the 
assessment of Iraqi Security Forces. I look forward to hearing 
from our administration witness on the findings and 
recommendations provided by U.S. advisers and plans going 
forward to counter the threat from ISIS and Congress' role in 
this effort.
    Let me take a moment to highlight the particularly 
dangerous situation of minority communities in Iraq and 
particularly Iraqi Christians. I recently joined Senator 
Stabenow in a meeting with Archbishop Bashar Warda from the 
Chaldean Diocese of Erbil. His description of the terror that 
ISIS has inflicted in Iraqi Christian communities is truly 
horrifying, and I hope that our witnesses today will share with 
us steps the administration is taking to address the urgent and 
unique situation of Iraqi Christians.
    I hope to hear from our administration witnesses today 
whether or not they believe Iraqi leaders are capable, or able, 
I should say, to form a more representative government, what is 
required to turn the tide against ISIS, and if there is a new 
national unity government in Baghdad what should we do to 
demonstrate support.
    With that, Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman. I want to thank 
our witnesses for being here.
    Iraq seems to be disintegrating as the terrorist 
organization ISIS now controls Mosul, Iraq's second-largest 
city, Fallujah, and much of Ramadi, parts of Baiji, Tikrit. 
Though significantly outnumbered, ISIS managed to overwhelm 
entire divisions of the Iraqi Army, many of whom removed their 
uniforms and ran. ISIS also has claimed credit for a recent 
string of bombings in Baghdad, is responsible for systemic 
persecution of Christians, thousands of whom are being forced 
to flee their homes under penalty of death if they do not 
convert and pay a tax.
    The U.N. reports that last month was the deadliest in Iraq 
since 2008, with 2,400 Iraqis killed, two-thirds of which were 
civilians.
    For those of us who were here during the debate over the 
hard-won gains of the surge, this is hardly an outcome that 
would have been imagined back then. Though our intelligence 
picture in Iraq is woefully inadequate, the situation should 
not surprise us, for two reasons. The crisis is connected to 
the disaster in Syria, which our country has largely ignored. 
Sunni militants have long enjoyed freedom of movement across 
the porous border in Anbar province and had been in control of 
Fallujah and key parts of Ramadi for months prior to the 
takeover of Mosul.
    Since 2009, Maliki has systematically shredded and 
politicized the entire structure of the Iraqi Security Forces, 
replacing competent commanders with incompetent, yet loyal, 
commanders and creating a more sectarian institution that 
scares the average Iraqi as much as ISIS.
    Despite the connection to Syria, it is important to note 
that this is not just an invasion from foreign fighters. ISIS 
simply cannot hold this much territory in Iraq while 
maintaining operations in Syria without help on the ground. 
Whether we can look--rather, we can look at this as a civil and 
sectarian war being exacerbated and exploited by a growing 
terrorist threat. This is yet another signal of how badly Prime 
Minister Maliki has alienated the Sunni population.
    Even if Maliki leaves, without political reconciliation 
among Iraq's key communities no amount of military support can 
make a difference. But on the other hand, if we do not help the 
Iraqi Government survive and hold territory now, there is a 
possibility we will not be discussing political reconciliation 
in a few months because the country could break apart.
    Today in this hearing I hope we can confront this dilemma 
head on. I hope we can start to identify the right mix of 
security assistance and political steps that will help get the 
country back on the right track. I am open to working with the 
administration to determine what we can do as a nation to help 
shore up the defenses 
of the Iraqis and encourage political reconciliation among 
Iraqi 
leaders.
    I want to thank you for being here today. I look forward to 
this hearing and I look forward to us weighing in on what we 
believe are the most appropriate steps forward. Thank you very 
much.
    The Chairman. Thank you, Senator Corker.
    Let me introduce our first panel. With us today is Deputy 
Assistant Secretary of State for Iraq and Iran, Brett McGurk, 
who has just returned from a 6-week trip to Iraq, where he was 
assisting the Embassy team; and Ms. Elissa Slotkin, performing 
the duties of the Principal Deputy Under Secretary of Defense 
for Policy, whose experience on Iraq ranges from the 
intelligence community to the National Security Council to the 
State Department, and now to the Defense Department.
    Let me remind both of you that your full statements will be 
included in the record without objection. I would ask you to 
summarize in about 5 minutes or so, so that the members of the 
committee can engage with you in a dialogue. With that, we will 
start with you, Mr. Secretary.

STATEMENT OF BRETT McGURK, DEPUTY ASSISTANT SECRETARY OF STATE 
  FOR IRAQ AND IRAN, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. McGurk. Thank you. Good morning. Chairman Menendez, 
Ranking Member Corker, members of this committee, I thank you 
for inviting us to discuss the situation in Iraq, with a focus 
on U.S. response since the Islamic State of Iraq and the Levant 
attacked Mosul nearly 7 weeks ago.
    Let me first review the bidding on why this matters. ISIL 
is al-Qaeda. It may have changed its name, it may have broken 
with senior al-Qaeda leadership such as Ayman al-Zawahiri, but 
it is al-Qaeda in its doctrine, ambition, and increasingly in 
its threat to U.S. interests. Should there be any question 
about the intentions of this group, simply read what its 
leader, Abu Bakr al-Baghdadi, says. And it is important to pay 
attention to what he says because we cannot risk 
underestimating the goals, capacity, and reach of this 
organization.
    Baghdadi in May 2011 eulogized the death of Osama bin Laden 
and promised a violent response. ISIL training camps in Syria 
are named after Osama bin Laden. In his audio statements 
Baghdadi regularly issues veiled threats against the United 
States, promising a direct confrontation. And, in his feud with 
al-Zawahiri. Baghdadi is clearly seeking to lead the global 
jihad.
    Additionally, ISIL is no longer simply a terrorist 
organization. It is now a full-blown army, seeking to establish 
a self-governing state through the Tigris and Euphrates Valleys 
in what is now Syria and Iraq. It now controls much of eastern 
Syria. In January in Iraq it moved into Anbar province, taking 
control of Fallujah, and on June 10 it moved on Mosul.
    I arrived in Erbil, 80 kilometers east of Mosul, on June 7 
and I will begin there. In meetings with local officials from 
Mosul and with Kurdish officials on June 7, we received early 
indications that ISIL was moving in force from Syria into Iraq 
and staging forces in western Mosul. We immediately asked and 
received permission from Kurdish leaders to deploy Peshmerga 
forces on the eastern side of the city, but the Government of 
Baghdad did not share the same sense of urgency and refused the 
deployments.
    Iraqi military commanders promised to send nine brigades of 
force to Mosul in response to our warnings. We stressed, 
however, that the forces might not arrive in time.
    On June 9, the situation remained extremely tense and we 
continued to urge the immediate deployment of additional 
security forces to protect against an ISIL attack from west to 
east. In the early hours of June 10, ISIL launched a complex 
suicide bomb attack across a strategic bridge and poured forces 
into the eastern part of the city. Iraqi resistance totally 
collapsed, which led to a panic and a snowballing effect 
southward through the Tigris Valley and to the cities of 
Tikrit, Samarra, and Bilad.
    The result was catastrophic. Five divisions nearly 
dissolved and the approaches to Baghdad were immediately under 
threat. I flew to Baghdad first thing that morning with a focus 
on ensuring our people were safe, working with Ambassador 
Beecroft and our team, and working with the Iraqis to ensure 
the northern approaches to Baghdad were bolstered.
    My written testimony sets forth in detail the critical 
elements of our crisis response. We first made certain that our 
people would be safe, including contractors working on bases 
outside of Baghdad, who were evacuated with the help of the 
Iraqi Air Force. At the Embassy and at the airport, we 
rebalanced staff to manage the crisis and brought in additional 
Department of Defense resources to ensure the security of our 
facilities.
    In parallel, at the President's direction, we worked to 
urgently improve our intelligence pictures throughout western 
and northcentral Iraq, surging surveillance flights, 
establishing joint operations centers, and deploying Special 
Operations Forces to assist Iraqi units around the capital. 
These intelligence and security initiatives were undertaken in 
parallel with regional diplomacy led by Secretary Kerry to 
better focus attention on the serious threat.
    We finally sought to stabilize the Iraqi political process, 
recognizing that this attack took place at the most vulnerable 
moment, following national elections that were held on April 30 
in which 14 million Iraqis voted, but prior to the formation of 
a new government. This process remains extremely challenging, 
but now has some traction. A new Speaker of Parliament was 
chosen last week. He is a moderate Sunni Arab named Salim 
Jabouri, elected with the overwhelming support from all major 
components in the new Iraqi Parliament.
    Today, just about 2 hours ago, the new Iraqi Parliament 
elected Fuad Masum, a distinguished Kurdish statesman, to serve 
as the new President of Iraq. He, too, was elected 
overwhelmingly, with support from all major components in the 
newly elected Parliament. Iraqis are now proceeding along their 
constitutional timeline to choose a Prime Minister, which must 
happen within 15 days.
    As the President has said, it is not the place of the 
United States to choose Iraq's leaders. It is clear, though, 
that only leaders who can govern with an inclusive agenda are 
going to be able to pull the country together and guide the 
Iraqi people through this crisis.
    The current situation today in Iraq remains extremely, 
extremely, serious. ISIL remains in control of Mosul and it is 
targeting all Iraqis--Sunni, Shia, Christian, Kurds, Turkoman, 
Yazidi, Shaveks--who disagree with its twisted vision of a 
seventh century caliphate. It has also joined in an unholy 
alliance with militant wings of the former Baath Party, known 
as the Naqshbandi Network, and with some former insurgent 
groups, such as the Islamic Army of Iraq.
    Going forward, the Iraqis, with our support, must seek to 
split these latter groups from ISIL and to isolate ISIL and the 
hard-core militant groups from the population. The platforms we 
have established through the immediate crisis response are now 
providing additional information to inform the President and 
our national security team as we develop options to protect our 
interests in Iraq. Any further decisions in this regard will be 
made in full consultation with this committee and with the 
Congress.
    Any efforts we take, moreover, must be in conjunction with 
Iraqi efforts to isolate ISIL from the population. This is 
because, while we have a serious counterterrorism challenge in 
Iraq, Iraq has a serious counterinsurgency challenge, and the 
two are inextricably linked.
    Based on my last 7 weeks on the ground in Iraq, there is 
now a clear recognition by Iraqis from all communities that 
substantial reforms must be undertaken. This will require the 
formation of a new government, together with restructuring of 
the security services. An emerging consensus in Iraq, which we 
can fully support, is a functioning federalism consistent with 
Iraq's Constitution, based on the new realities on the ground, 
and focused on the following five principles.
    First, local citizens must be in the lead in securing local 
areas.
    Second, these local citizens defending their communities 
must be provided state benefits and state resources, perhaps 
modeled along the lines of a National Guard-type force 
structure.
    Third, the Iraq Army must be restructured. Commanders who 
failed in Mosul have since been fired and they have been 
replaced with new commanders, who we are working very closely 
with. The federal army should also focus on federal functions, 
such as protecting borders, and rarely deploy inside cities, 
while providing overwatch support when necessary.
    Fourth principle: There must be close cooperation between 
local, regional, and national security services to gradually 
reduce operational space for ISIL, particularly in Nineveh 
province.
    And, finally, the Federal Government, through its new 
Parliament and a new Cabinet, must work diligently on a package 
of reforms that can address legitimate grievances from all 
communities and ensure adequate resources to these restructured 
security services.
    These five principles can begin to address many of the core 
grievances in the Sunni majority areas of Iraq while also, 
importantly, denying space for ISIL to operate and thereby 
protect the Shia majority and other vulnerable groups from ISIL 
attack. Restoring stability and degrading ISIL will require a 
smart, integrated central, regional, and provincial approach 
led by a new Iraq Government, with an appropriate level of 
United States support and assistance.
    Iraqi leaders from all communities have asked for 
assistance 
in implementing this program and General Austin, our Commander 
of CENTCOM, is on the ground today to further assess the 
situation and discuss concrete ways in which our assistance 
might be effective.
    This model of a functioning federalism is achievable and it 
is essential if we hope to deny space for ISIL within the 
borders of Iraq.
    I look forward once again to discussing more details in the 
answers to your questions, and I thank you again for the 
opportunity to testify this morning.
    [The prepared statement of Mr. McGurk follows:]

                   Prepared Statement of Brett McGurk

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for inviting me to discuss the U.S. response to 
the crisis in Iraq. I just returned from Iraq after spending the past 7 
weeks in Baghdad and Erbil helping to manage our crisis response with 
Ambassador Beecroft and our diplomatic and military team on the ground, 
which is serving with courage and dedication. We were assisted by the 
tireless efforts of Secretary Kerry, including a visit to Iraq at a 
critical moment, and the entire national security team, including the 
daily attention of the President and Vice President.
    My testimony today will provide a firsthand account of the U.S. 
response In Iraq to date, and the foundations we are building to 
protect U.S. interests over the months ahead.
                          i. the fall of mosul
    I arrived in Erbil, the capital of the Kurdistan Region, on June 7, 
3 days before Mosul fell to militants led by the Islamic State of Iraq 
and the Levant (ISIL). We had been concerned about Mosul for the past 
year, as it had become the primary financial hub for ISIL, generating 
nearly $12 million per month in revenues through extortion and 
smuggling rackets. From all of our contacts in Mosul, including Iraqi 
security and local officials, the city by day would appear normal, but 
at night, ISIL controlled the streets.
    One of my first meetings in Erbil on the morning of June 8th was 
with the Governor of Ninewa province, Atheel Nujaifi. His news was 
alarming. Over the past 72 hours, he told me, hundreds of ISIL gun 
trucks, carrying fighters and heavy weapons, had crossed the Iraq-Syria 
border near the town of Rabiya, then passed north of Tal Afar, before 
staging on the outskirts of west Mosul. The Iraqi Army agreed to 
provide assistance to Mosul, but Iraqi commanders did not seem to 
appreciate the urgency of the situation, and stated that reinforcements 
might not arrive for a week.
    We checked this information with sources in western Ninewa near the 
Syrian border crossings, and confirmed that ISIL appeared to be coming 
across in force. We also met immediately with Karim Sinjari, the 
Minister of Interior of the Kurdistan Regional Government (KRG), who 
confirmed with real-time information that neighborhoods in western 
Mosul were under immediate threat, as well as reports from the border 
regions about a steady stream of ISIL reinforcements crossing into Iraq 
from Syria. During this meeting, Minister Sinjari spoke to President 
Masoud Barzani and received authorization to deploy Kurdish Peshmerga 
units into eastern Mosul to help reinforce Iraqi Forces and deter any 
ISIL advance east across the Tigris. He said the Peshmerga were ready 
to help, but under the constitution, first required authority from the 
Government of Iraq.
    We sent an immediate and urgent message to Baghdad, including to 
the Acting Minister of Defense, and directly to Prime Minister Maliki 
through his chief of staff. They responded that the situation was under 
control, and that nine Iraqi Army brigades would soon be relocated to 
Mosul. We questioned that information, and encouraged Baghdad to 
request assistance from Peshmerga forces immediately, as the Peshmerga 
was able to reinforce the city rapidly, and there was precedent for 
their helping to protect Mosul, including many years ago against ISIL's 
earlier incarnation, Al Qaeda in Iraq (AQI). The Minister of Defense 
ultimately agreed, but the Prime Minister asked for a confirmation from 
Erbil that any deployed Peshmerga units would withdraw after army units 
arrived.
    On June 9, the situation remained static, and the Government in 
Iraq expressed confidence that Mosul was not under a serious threat. 
Throughout the day, however, Mosul's western-most neighborhoods began 
to fall to ISIL. Its fighters began attacking checkpoints and killing 
resisters, seeking to establish psychological dominance over Iraqi 
security units in the city. Together with the United Nations team in 
Baghdad, we worked to help establish a mechanism whereby Peshmerga 
units would be authorized to reinforce the eastern half of the city 
pending the arrival of Iraqi units from the south, and then withdraw 
after the situation stabilized. Baghdad asked to further review the 
proposal.
    In the early morning hours of June 10, ISIL detonated a suicide 
truck bomb at a checkpoint across a strategic bridge and began to flow 
forces into the eastern side of the city. The next few hours would 
prove fateful. Iraqi units abandoned their posts, and ISIL swept 
through the city, seizing control of the provincial council building, 
the airport, and then, ultimately, Iraqi military bases. Nearly 
500,000--out of a total population of 2 million Iraqis--fled, seeking 
refuge in Kurdish-controlled areas. Around 3 a.m., we received 
distressed messages from Iraqi officials in Baghdad, requesting the 
Kurdish Peshmerga to move into Mosul as soon as possible. The Iraqi 
request came too late.
    The fall of Iraq's second-largest city to ISIL was combined with a 
social media campaign indicating that ISIL columns would soon be 
heading down the Tigris River Valley to Baghdad with no mercy for 
anyone who resisted. The result was a devastating collapse of the Iraqi 
Security Forces from Mosul to Tikrit. Nearly five Iraqi Army and 
Federal Police divisions (out of 18 total) would disintegrate over the 
next 48 hours. This snowballing effect immediately threatened Baghdad, 
with serious concern that Iraqi Forces guarding its northern approaches 
might also collapse.
    Over the next 3 days, in meetings with our Embassy team and 
videoconferences with President Obama and the National Security 
Council, we immediately prepared and executed our crisis response. We 
also worked closely with Iraqi officials to organize the defenses of 
Baghdad and restore some of the confidence that had been battered.
                           ii. u.s. response
    Our response to the immediate crisis proceeded along three parallel 
tracks. First, and most importantly, we worked to ensure the security 
of our own personnel and facilities. Second, in parallel, we both 
relocated and surged U.S. diplomatic, intelligence, and military 
resources to develop strategic options for the President with real-time 
and accurate information. Third, we worked with Iraqi officials to 
strengthen their defenses of strategic locations, and set the political 
process on track, with a focus on forming a new government following 
national elections.
    The key elements of this response plan included the following eight 
steps, which, taken as a whole, encompassed security, intelligence, 
political, and diplomatic measures:
(1) Ensuring the Safety of U.S. Personnel and U.S. Citizens
    Our first priority was ensuring the safety of U.S. personnel. This 
required relocating some personnel and adding additional security 
capabilities at the Embassy compound and the airport. Additionally, 
there were a number of American contractors at Balad Air Base working 
on Foreign Military Sales (FMS) cases. Reports from near Balad, which 
later proved false, suggested the base faced an imminent ISIL attack. 
After the contractors encountered delays securing their own charter 
aircraft, the Iraqi Air Force helped evacuate nearly 500 U.S. citizens 
and third-country nationals on June 14 aboard Iraqi C-130 aircraft. All 
contractors left safely, and we are grateful to the Iraqi Government 
and its pilots, most of whom we trained, for their assistance during 
this crisis period, particularly given their own competing demands.\1\
    At the same time, we took extraordinary measures to ensure the 
safety of our Baghdad-based personnel. The entire National Security 
Council team, from the President on down, focused intensively to deploy 
Department of Defense security assets from elsewhere in the region 
while the Country Team worked intensively with Washington to relocate 
some personnel to safer areas. Within 72 hours we brought significant 
defensive capacity into our facilities and rebalanced staff to help 
manage the crisis. These early moves proved essential to ensuring that 
U.S. diplomats could continue to do their jobs and protect U.S. 
interests.
    Today, even as the immediate crisis has passed, we are constantly 
reviewing our footprint to ensure the safety and security of our 
personnel and facilities.
(2) Improving Intelligence Picture on ISIL
    Another immediate need was to get a better intelligence picture. 
From Erbil, even before Mosul fell, I was in touch with General Austin 
who recognized the urgency of the situation and prepared to deploy 
additional intelligence assets. In the earliest days, however, when 
asked about the situation, we had to acknowledge that we were operating 
in a fog. Rumors of ISIL convoys approaching Baghdad could not be 
discounted and there were tense moments as we sought to separate rumor 
and propaganda from fact without immediate eyes on the ground. Today, 
this fog has lifted--quite dramatically--thanks to immediate decisions 
taken by the President.
    In response to these early developments, we dedicated a substantial 
amount of intelligence, surveillance, and reconnaissance assets to fly 
over Iraq. These missions have enhanced our intelligence picture and 
provided critical information to Iraqi Forces defending strategic 
locations, while at the same time helping to establish a foundation 
from which the President can assess the merit of additional measures.
(3) Assessing the Capabilities of the Iraqi Security Forces
    In the early hours of the crisis, we worked quickly to reverse the 
collapsing morale of Iraqi Security Forces, reconstitute key units, and 
ensure the units deployed around Baghdad could adequately defend the 
capital. Our sight picture was imprecise, and the prerequisite to 
concrete action was acquiring a firsthand, eyes-on accounting of the 
situation. In my meetings with Iraqi officials, they said they would 
welcome U.S. Special Operations Forces to assess Iraqi force 
capabilities.
    The President authorized the deployment of six Special Operations 
Forces ``assessment teams'' to augment efforts that were previously 
underway through our Office of Security Cooperation. These teams have 
recently completed an initial, 2-week assessment of Iraqi units in and 
around the greater Baghdad area, examining each unit's capabilities and 
potential for a closer U.S. partnership. This mission has already 
provided greater visibility into the situation on the ground, and will 
help the national security team calibrate additional and tailored 
measures.
    The Department of Defense is currently reviewing this comprehensive 
assessment, which, as the President has said, is designed help 
determine ``how we can best train, advise, and support Iraqi Security 
Forces going forward.''
(4) Establishing Joint Operations Centers in Baghdad and Erbil
    To harness an improving intelligence picture, we have stood up two 
combined Joint Operations Centers (JOCs) in Baghdad and Erbil. These 
JOCs help ensure a constant 24/7 flow of real-time intelligence 
information from across Iraq. We are now able to coordinate closely 
with Iraqi Security Forces, the Ministry of Defense, and the Baghdad 
Operations Center (BOC).
    The Baghdad JOC is fully functional and has dramatically improved 
our ability to understand and assess the situation on the ground. I 
visited the JOC shortly before departing Baghdad last week, and it is 
an impressive operation, which began from scratch only 6 weeks ago. 
Most of our military personnel operating the facility have extensive 
experience and relationships inside Iraq. They report that their Iraqi 
counterparts have fully embraced our assistance and are asking for 
more, hoping that the United States will serve as their essential 
partner in the fight against ISIL.
    The Government of Iraq has also made some welcome decisions in 
recent 
weeks to improve this bilateral coordination, including appointment of 
new commanders, many with longstanding ties and relationships with 
their U.S. military 
counterparts.
(5) Positioning U.S. Military Assets in the Region
    In the immediate wake of the crisis, the Department of Defense 
reinforced assets in the region to prepare for multiple contingencies, 
including the possibility of targeted and precise military action 
against targets associated with ISIL. On June 16, Secretary Hagel 
ordered the USS Mesa Verde, carrying a complement of MV-22 
Osprey tilt-rotor aircraft, into the gulf. Its presence added to that 
of other U.S. naval ships in the Gulf--including the aircraft carrier 
USS George H.W. Bush, a cruiser, and three destroyers. These assets 
will provide our senior leaders with additional options in the event 
military action is deemed necessary to protect U.S. interests as the 
situation develops. They also complement the substantial defensive 
capabilities now on the ground to ensure the safety and security of our 
personnel and facilities.
(6) Getting the Political Process on Track
    ISIL attacked Mosul at a time of extreme political volatility. On 
April 30, 2 months before the crisis, Iraq conducted credible national 
elections, in which 62 percent of Iraq's eligible voters participated. 
This high turnout included Ninewa, where Mosul is the capital, with 
nearly 1.1 million voters turning out (54.4 percent), despite explicit 
ISIL threats to kill anyone who participates in the political process.
    When ISIL moved in force into Mosul on June 10, the votes had been 
counted but not yet certified. The 4-year Parliament's term had ended, 
and a new Parliament, with its 328 Members chosen in the election, had 
yet to convene. The attack, thus, took place during a political vacuum, 
and purposefully so. ISIL clearly took a play from its earlier 
incarnation, AQI, which led the devastating Samarra mosque attack 
shortly after December 2005 elections, triggering years of sectarian 
conflict. Their long-stated aim has always been to spark a collapse of 
the political process.\2\
    We worked immediately to ensure ISIL could not succeed in 
destroying the Iraqi political process. First, we urged Iraq's 
Government to finalize the election results, which would set in place a 
series of timelines for forming a new government. This required judges 
who had fled Baghdad to return. They did so, and ratified the election, 
on June 16. The next day, Iraqi religious and political leaders from 
all major communities declared ISIL ``an enemy of all Iraqis'' and 
requested international assistance to combat the threat. Second, we 
worked with the U.N. to press Iraqi leaders to convene the Parliament 
on time, no later than July 1, which it did. Third, we pressed all 
newly elected political blocs to choose their leaders for key posts, 
pursuant to the constitutional timeline for forming a new government.
    This process now has some traction. On July 15, the Parliament 
confirmed a new Speaker, which is the first position to be named 
pursuant to the constitutional steps required to form a new government. 
The moderate Sunni leader, Salim al-Jabouri, received votes from all 
major political blocs and was confirmed overwhelmingly, together with 
two deputies. The next step is confirming a President, which may happen 
as early as this coming week. Once there is a President, there will be 
a 15-day deadline to charge a Prime Minister nominee to form a 
government.
    It is not the job of the United States to choose Iraq's leaders. We 
neither want to, nor have the power to do so. Iraq has a parliamentary 
system, and the next Prime Minister of Iraq must secure a 165-seat 
majority to form a new government. We do have an obligation, however, 
pursuant to our Strategic Framework Agreement, to ``support and 
strengthen Iraq's democracy.'' Thus, from the moment this crisis began, 
we have actively prodded the process forward, serving as a neutral 
broker, and encouraging all Iraqi leaders to form a new government with 
leaders who reflect a broad national consensus between component 
communities.
    The administration has been engaged on this issue from the outset, 
including the visit from Secretary Kerry to Baghdad on June 23, and to 
Erbil on June 24. The Secretary and the Vice President have also made 
regular phone calls to Iraqi leaders and to our regional partners to 
discuss the emerging situation and to help broker compromises where 
necessary to advance the political process and keep the system on 
track.
    As President Obama has made clear, the Iraqi people deserve a 
government that represents the legitimate interests of all Iraqis. We 
are cautiously hopeful that Iraq's newly elected leaders are on their 
way to forming such a government, and as they do, they will find a 
committed partner in the United States.
(7) Building Regional Coalescence Against ISIL
    At its root, ISIL is not strictly an Iraq problem. It is a regional 
and international problem. The Government of Iraq has requested 
international assistance, and it has stated clearly that it cannot 
manage this problem on its own, particularly with an open border and 
ISIL safe havens and staging areas in Syria. Accordingly, we have been 
regularly engaged with Iraq's neighbors and our key partners. The U.N. 
Security Council, European Union, Arab League, and NATO have strongly 
condemned ISIL's actions and expressed strong support for the people of 
Iraq.
    Secretary Kerry's extensive trip to the region, capped by a 
quadrilateral meeting in Paris with the Foreign Ministers of Saudi 
Arabia, Jordan, and UAE, and then a visit to Riyadh for a meeting with 
King Abdullah, led to a new commonality of effort against ISIL. Shortly 
after Secretary Kerry visited Riyadh, Saudi Arabia pledged $500 million 
to U.N. relief agencies managing the humanitarian response in Iraq. In 
parallel, we are working with all of our regional partners to close 
down foreign fighter networks that continue to send thousands of 
terrorists into Syria, many of whom make their way to Iraq, with up to 
50 per-month becoming suicide bombers.
    We are also mindful of Iran's influence in Iraq and have seen Iran 
and Russia work to fill a security vacuum in the early weeks of the 
crisis. These activities are part of our daily conversations with Iraqi 
political and military officials, and we are confident that most Iraqi 
leaders want to retain strategic independence, while also grappling 
desperately with the serious threats to the Iraqi capital and the Iraqi 
people.
(8) Coordinating Humanitarian Relief Efforts and Protecting Religious 
        Minorities
    Finally, ISIL's advances have exacerbated a humanitarian crisis. 
The U.N. estimates that more than 1.2 million Iraqis have been 
displaced in fighting since ISIL moved into major cities in Anbar 
earlier this year. More than 300,000 Iraqis have fled to the Iraqi 
Kurdistan region since the fall of Mosul on June 10. We have praised 
the efforts of the Kurdistan Regional Government (KRG) in dealing with 
the situation, and call on the KRG to continue these efforts, as well 
as the Government of Iraq to assist the KRG with additional resources.
    As noted, numerous countries have come forward and donated to the 
U.N.'s appeal for humanitarian assistance. In addition to Saudi Arabia, 
other contributors include Kuwait, Japan, New Zealand, and a number of 
others. The United States to date has contributed $13.8 million in 
humanitarian assistance in response to this crisis, and we are working 
closely with the U.N. team in Iraq to coordinate the response.
    We are also particularly concerned about the state of the Christian 
community in Iraq, including in Mosul where this ancient community is 
being expelled by ISIL on threat of execution. There are now reports of 
the community's full scale departure, which saddens us deeply. We have 
also seen reporting of ISIL blinding and killing 13 Yezidi men when 
they refused to convert to Islam and the kidnapping of two Chaldean 
nuns and three teenage orphans in Mosul. We denounce these brutal 
actions vigorously. These actions by ISIL in Mosul--killing Christians, 
burning churches, killing moderate Sunnis, destroying Islamic tombs--
prove to the world the barbarity of their objectives and why they must 
be stopped before their roots deepen.
    Over the past 2 weeks alone, I met with the Christian leadership in 
Iraq, including Chaldean Patriarch Louis Raphael Sako in Baghdad, and 
Archbishop Bashar Warda in Erbil. I am always impressed by the deep 
faith and resilience of these leaders. In Baghdad, Patriarch Sako, 
shortly before my visit, presided over a mass with nearly 500 
worshipers from across the capital. Both leaders also expressed 
detailed concerns about the plight of Christians in northern Iraq, and 
we are working with them and KRG leaders to ensure new Christian 
enclaves are protected and secured.
    Finally, we are deeply troubled by ISIL's treatment of women as we 
receive a steady stream of reporting regarding women being deprived of 
their basic rights and subjected to gross violations of their freedom.
                         iii. current situation
    It is now 7 weeks since this crisis began. Mosul remains in the 
hands of ISIL. Its leader, Abu Bakr al-Baghdadi, gave a sermon on July 
4, at one of Mosul's oldest mosques, an act made possible after ISIL 
executed its moderate Imam and 13 other leading clerics in the city. 
The Iraq-Syria border, hundreds of miles between the Kurdish region and 
Jordan, is controlled on both sides by ISIL. Weapons and fighters now 
flow freely between Iraq and Syria, resupplying ISIL units fighting on 
both fronts. To say this situation is extremely serious would be an 
understatement. The situation is dire, and it presents a direct threat 
to all the Iraqi people, the region, and to U.S. interests.
    Our immediate response, however, helped provide a barrier against 
further deterioration, and may offer a new foundation on which to begin 
fighting back. Since the first week of the crisis, the Iraqis--working 
closely with us--managed to absorb the shock, restore some morale, and 
began to push back, albeit with halting and uneven steps.
    On the security front, an immediate focus was restoring control of 
portions of Highway One, which runs parallel to the Tigris River from 
Baghdad to Mosul. Iraqi Forces during the third week of the crisis 
managed to clear the highway from Baghdad to Samarra, ensuring a steady 
resupply for the historic shrine city. During the fourth week of the 
crisis, they cleared most of the highway from Samarra to Tikrit, 
although sophisticated IED emplacements, ISIL snipers, and repeated 
suicide attacks have halted progress.\3\
    These operations remain extremely challenging, and we have differed 
with the Iraqis on some of their tactical objectives, such as moving 
into the city of Tikrit, which did not seem militarily essential given 
the need to focus on supply routes. They have, however, gradually 
allowed the Iraqis to move out of a defensive crouch and pressure the 
ISIL networks north of Baghdad, which had been poised to advance 
further to the south toward the capital. We are also urging the Iraqis 
to immediately focus security efforts to the west, where tribes 
continue to hold out against ISIL near Haditha, blunting what had been 
a rapid ISIL advance following the fall of Al Qaim, on the Syria 
border, on June 21.
    The tribal situation in western and north-central Iraq remains 
fluid. Many tribes are now actively fighting ISIL--but lack the 
resources to do so effectively. According to our regular contacts in 
these areas ISIL is able to overmatch any lightly armed tribal force. 
The complete withdrawal of the Iraqi Army from these areas, together 
with the lack of coverage by Iraqi aviation in the border regions, 
provides ISIL free rein to move manpower and heavy weapons to areas 
where tribes resist.
    The result has been many long-standing enemies of ISIL and its 
earlier incarnation AQI--such as Albu Mahal tribe in western Anbar; 
Shammar in western Ninewa; Obeidi south of Kirkuk; and Jabbouri in 
central Salah ad-Din--risk making accommodations to ISIL due primarily 
to the reality of battlefield dynamics. These tribes may have issues 
with the central government, but that alone is not why ISIL infiltrated 
their areas. In Al Qaim, for example, the Albu Mahal resisted ISIL for 
months, before the town ultimately fell after waves of attacks from 
across the Syrian border weakened Iraqi defense forces.
    A tangible example of this dynamic is the Sunni town of Zowiya, 
near Tikrit in north-central Iraq. The residents there, a mix of 
Jabbouri and other tribes, resisted ISIL and would not accept their 
presence in the town. The result, as reported in the media and 
confirmed by our own contacts, was an ISIL military assault to kill all 
the residents of the village, starting with an hour-long artillery 
barrage. ISIL fighters then swept into the village, forcing surviving 
residents to flee, and sending the message to surrounding areas that 
any tribal resistance to their movement would be futile--and crushed.
    As a result, absent some military pressure on ISIL, we are unlikely 
to see a broad-based tribal uprising against the movement, as happened 
between 2007 and 2008. This tribal uprising was enabled by U.S. 
military forces, which applied consistent and relentless pressure on 
then-AQI leadership networks, staging areas, and supply routes. While 
the Iraqis will never match this level of pressure, we must help enable 
their forces to better deny safe haven to ISIL within Iraqi territory. 
The Iraqis must also focus on training and equipping locally grown 
units to secure local areas. As the President said in his June 19 
statement on the situation in Iraq, ``the best and most effective 
response to a threat like ISIL will ultimately involve partnerships 
where local forces, like Iraqis, take the lead.''
    The Iraqis recognize this principle, as well, and they have 
undertaken a reassessment of how their security forces are structured 
and might be reconstituted. Based on our most recent meetings with 
Iraqi security commanders, this effort will proceed in three phases. 
First, the Iraqis have begun to recall soldiers from dissolved units 
for retraining at two sites north of Baghdad. They report that nearly 
10,000 have answered this call. Second, they are recruiting from 
existing units and from new volunteers for elite counterterrorism 
forces, similar to those we train through our Office of Security 
Cooperation. Third, they are looking to dramatically restructure their 
security services, with units recruited locally to secure local areas, 
while the national army provides overwatch support.
    Such a program may take many months to demonstrate results, and 
years to provide a lasting foundation for sustainable security. It will 
also be linked to the process of forming a new government, requiring a 
full national commitment and national resource base to ensure effective 
execution. It remains in our interest, together with such a national 
commitment from a new government, to provide appropriate assistance and 
help this process unfold in a manner that can eliminate space for ISIL 
over the long term.
           iv. emerging way forward--a functioning federalism
    The crisis response described above, together with Iraqi efforts 
over the past month, contain the elements of a longer term strategy to 
deny space for ISIL. Any such strategy, to be effective, must be 
deliberate, long term, and multifaceted. In my discussions with Iraqi 
leaders from all communities over the past 6 weeks, there is an 
emerging political-military approach that might begin to address the 
root causes of the current crisis.
    First, it is important to focus at the outset on why this matters. 
The situation we confront is not simply about stabilizing Iraq, though 
that alone is an important interest. Rather, it is about ensuring that 
a movement with ambitions and capabilities greater than the al-Qaeda 
that we knew over the past decade does not grow permanent roots in the 
heart of the Middle East. Flush with thousands of foreign fighters and 
suicide bombers, ISIL in Syria and Iraq increasingly represents a 
serious threat to U.S. interests.
    Indeed, ISIL's leader, Abu Bakr al-Baghdadi, seeks to follow in the 
footsteps of Osama bin Laden as the leader of a global jihad, but with 
further reach--from his own terrorist state in the heart of the Middle 
East. After Osama bin Laden was killed in May 2011, Baghdadi eulogized 
his death and promised ``violent retaliation.'' His audio messages 
routinely contain thinly veiled threats against the United States, and 
he has promised in a ``message to the Americans'' that ``we will be in 
direct confrontation.'' The ISIL suicide bombers--still averaging 30 to 
50 per month--are increasingly Western passport holders. Days ago, ISIL 
boasted that an Australian and a German blew themselves up in Baghdad, 
and it is a matter of time before these suicide bombers are directed 
elsewhere.
    To combat this threat, we must proceed along three tracks. First, 
ISIL must be starved of resources, manpower, and foreign fighters. This 
requires working with our partners around the globe and especially with 
Turkey to seal the Syrian border from ISIL recruits. Second, the safe 
havens and training camps in Syria must be isolated and disrupted, 
preferably by the moderate opposition, enabled by U.S. training. Third, 
Iraqis must be enabled to control their sovereign space and 
reconstitute their western border with Syria, through capacity 
development, tribal engagement, and targeted military pressure.
    This third element is essential, and achievable. It will require 
commitments from Iraq and support from the United States. Our 
perspectives may not always be the same, but our efforts must be 
mutually reinforcing. This is because, while ISIL 
presents a serious counterterrorism challenge to the United States, the 
Government of Iraq also faces a serious counterinsurgency challenge, 
and the two are inextricably linked. Our combined focus must be on 
isolating ISIL from the broader population and empowering tribes and 
other local actors to effectively combat it. This will require a 
combination of political and security measures, based on the principle 
of a ``functioning federalism'' as defined in the Iraqi Constitution--
but never fully and effectively implemented.
    In our view, a functioning federalism would empower local 
populations to secure their own areas with the full resources of the 
state in terms of benefits, salaries, and equipment. The national army, 
under this concept, would focus on securing international borders and 
providing overwatch support where necessary to combat hardened 
terrorist networks. Other critical reforms, such as an amnesty for 
those detained without trial, amendments to the criminal procedure 
laws, and addressing other legitimate grievances from the Iraqi people 
including those related to de-Ba'athification, will also be necessary 
elements to strengthen and empower local actors to stand and fight 
ISIL.\4\
    While these concepts remain embryonic, and ultimately will require 
a new government to flesh out and develop, the five core principles can 
be summarized as follows:

          1. Local citizens must be in the lead in securing local 
        areas;
          2. Local citizens defending their communities must be 
        provided state benefits and resources (modeled along the lines 
        of a National Guard type force 
        structure);
          3. The Iraqi Army will rarely deploy inside cities, but will 
        remain outside 
        in an overwatch posture and to carry out federal functions 
        (such as protecting 
        borders);
          4. There must be close cooperation between local, regional 
        (KRG), and 
        national security services to gradually reduce operational 
        space for ISIL;
          5. The Federal Government must work diligently on a package 
        of reforms that can address legitimate grievances and deny any 
        pretext for ISIL activities.

    These five principles can begin to address many of the core 
grievances in the Sunni-majority areas of Iraq, while also, 
importantly, denying space for ISIL to operate and thereby protect the 
Shia majority and other groups from ISIL attacks. Cooperation will be 
essential. The Government of Iraq from the center cannot restore 
stability in many areas that ISIL now controls, nor can local actors do 
so--without support and national-level resources--given ISIL's 
demonstrated capacity. Restoring stability and degrading ISIL will 
require a smart, integrated (central-regional-provincial) approach, led 
by a new Iraqi Government with an appropriate level of U.S. support and 
assistance.
Conclusion
    The situation in Iraq remains extremely serious. While our 
immediate crisis response may have blunted the initial security crisis, 
ISIL represents a growing threat to U.S. interests in the region, local 
populations, and the homeland. Countering this threat will require 
close coordination between the administration and the Congress, and 
between the U.S. and our regional partners. I look forward to working 
closely with this committee to ensure that we are doing all we can to 
address this vital national security challenge.

----------------
Notes

    \1\ This cooperation is one of many examples of why it remains a 
vital interest for the United States to maintain our relationships with 
the Iraqi Security Forces, whether through our foreign military sales 
programs or training and advisory missions. The Iraqi Security Forces 
today face an existential threat, yet the quality of units varies 
widely from the highly proficient and professional to the incompetent 
and corrupt. The Iraqis recognize the serious work they must do to 
further professionalize the force, and they have asked for our 
assistance. It is in our interest to provide such assistance where we 
assess it can be effective, both to help confront the immediate crisis 
more effectively, and to build the long-term partnerships that are 
essential to maintaining strategic influence.
    \2\ The AQI attack on Samarra came at precisely the same moment in 
the political process as the 2014 ISIL move into Mosul: 2 months after 
national elections, after the expiration of full-term institutions, and 
before the selection of new leadership. The pace of signature AQI (now 
ISIL) attacks--measured by suicide and vehicle bombs--were also nearly 
identical in the months before the 2006 and 2010 elections, running at 
nearly 80 per month. In the 30 days prior to the April 2014 elections, 
ISIL launched over 50 suicide attacks inside Iraq with nearly all of 
the suicide bombers, according to our assessments and ISIL's own 
statements, foreign fighters who enter Iraq from Syria.
    \3\ During this period of crisis, Iraqi forces have increasingly 
relied on volunteers from southern Iraq to hold stretches of the 
highway cleared by security forces. Many of these volunteers have 
affiliations with Shia militia groups, and in the earliest weeks of the 
crisis, they operated in the open for the first time in years. Since 
then, Grand Ayatollah Sistani has stated clearly that any volunteers 
should only join established state security services, and emphasized 
that militias or individual gunmen should not be accepted on the 
streets. The United States will continue to encourage Iraqi leaders to 
establish legal and practical mechanisms to incorporate volunteers, 
including tribal fighters, into the state security structures, where 
they can be trained to protect the population consistent with the rule 
of law.
    \4\ There are three fighting groups in the Sunni areas of Iraq. To 
be effective, any political-military initiative must focus on each of 
them. First, and most prominently, is ISIL. While there is no political 
solution to ISIL, political initiatives can help isolate ISIL from 
other associated groups. The second group is Jaysh al-Tariqa al-
Naqshabandi (JRTN). JRTN is a militant wing of the former Ba'ath Party, 
now led by Saddam's former Vice President, Izzat al-Douri. While the 
most militant core of JRTN will remain nonresponsive to political 
initiatives, such initiatives can help minimize that core and degrade 
the network. The third group includes national insurgent movements, 
such as the Islamic Army, with some associated tribes. These groups 
mostly want local security control, and rarely launch offensive 
operations outside of their local areas. For them, there is a political 
solution, and through some of the reforms discussed above, these groups 
can probably be harnessed to protect local areas from ISIL infiltration 
over time.

    The Chairman. Ms. Slotkin.

   STATEMENT OF ELISSA SLOTKIN, PERFORMING THE DUTIES OF THE 
  PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE FOR POLICY, AND 
      PRINCIPAL DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR 
  INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    Ms. Slotkin. Thank you. Chairman Menendez, Ranking Member 
Corker, and distinguished members of the committee, I 
appreciate the opportunity to discuss the administration's 
response to the current security situation. My remarks will 
focus on what the Department of Defense is particularly doing.
    I just want to foot-stomp some of the things that Brett 
just said. The United States does have a vital national 
security interest in ensuring that Iraq or any other country 
does not become a safe haven for terrorists who could threaten 
the United States homeland, our United States citizens, or our 
interests abroad.
    As the President has said, ISIL's advance across Iraqi 
territory in recent weeks, and particularly its ability to 
establish safe haven in the region, poses a threat to United 
States interests and the Middle East. I do not restrict my 
views and my comments today just to Iraq, the geographic 
borders of Iraq. I do believe we have a real regional problem 
on our hands.
    As Brett has said, the situation on the ground is complex 
and fluid. We are therefore taking a responsible, deliberate, 
and flexible approach to the crisis. But I do want to be clear: 
There is no exclusively military solution to the threat posed 
by ISIL. The Iraqis must do the heavy lifting. In the meantime, 
the Department of Defense remains postured should the President 
decide to use military force as part of a broader strategy.
    Our immediate goals, as announced on June 19, are to: one, 
protect the people and property, our people and property in 
Iraq; two, to gain a better understanding of how we might 
train, advise, and support the Iraqi Security Forces should we 
decide to do that; and number three, to expand our 
understanding, particularly via intelligence, of ISIL. All 
three are critical to any future U.S. strategy vis-a-vis Iraq.
    To that end, we have done four things in the Department of 
Defense. We have added forces to protect our people. The safety 
of our citizens obviously is our highest priority. The 
Department has met the requests of the Department of State. As 
described in the 
war powers notification we have transmitted, the Department of 
Defense has sent what is called a Fleet Antiterrorism Security 
Team, what we call a FAST Team, a crisis response element, and 
additional military assets and personnel to reinforce security 
both at our diplomatic facilities in Baghdad and at the Baghdad 
International Airport.
    The Secretary of Defense has also ordered the amphibious 
transport ship USS Mesa Verde into the Arabian Gulf. Its 
presence in the gulf is added to other naval ships, including 
the U.S. aircraft carrier USS George H.W. Bush, and provides 
the President additional options to protect American citizens 
and interests in Iraq should he choose to use them.
    Number two, we have vastly increased our intelligence, 
surveillance, and reconnaissance, ISR, assets. At the request 
of the Government of Iraq, we have surged ISR over Iraq since 
the fall of Mosul and increased our information-sharing 
activities. These ISR sorties, which are up to 50-plus per day, 
give us a much better understanding of ISIL operations and 
disposition and allow us to help the ISF counter ISIL. We are 
now capable of around-the-clock coverage of Iraq and have been 
focusing our efforts on ISIL-controlled territory as well as 
Baghdad. We have also sent in U.S. assessment teams and stood 
up joint operations centers.
    On June 19 the President announced these additional 
measures, including the deployment of just about 300 additional 
U.S. military advisers to evaluate how we might best train, 
advise, and support the ISF. These small teams of Special 
Forces are working to evaluate the ISF in and around Baghdad in 
particular. The teams are armed for self-defense, but they do 
not have an offensive mission. And then the two joint 
operations centers, one in Baghdad, one in Erbil in northern 
Iraq. They have both been established to help support our 
efforts on the ground.
    A quick word about the assessments. I know that is of 
interest. Secretary Hagel and Chairman Dempsey received the 
draft assessment of the ISF last week from Central Command. 
Department leaders are undertaking a deliberate and rigorous 
review of the assessment, which will inform recommendations to 
the President. Meanwhile, additional assessment work continues. 
As you heard, General Austin is on the ground today with 
respect to the developing situation on the ground.
    In closing, I just want to reiterate that we have a vital 
security interest in ensuring that Iraq or any other country 
not become a safe haven for terrorists. We do need a regional 
approach, and I look forward to answering your questions.
    [The prepared statement of Ms. Slotkin follows:]

                  Prepared Statement of Elissa Slotkin

    Chairman Menendez, Ranking Member Corker, and distinguished members 
of the committee, thank you for the opportunity to discuss the 
administration's response to the current security situation in Iraq. My 
remarks today will focus on two areas: (1) An overview of our national 
security interests in Iraq, and (2) a review of President Obama's 
current policy toward Iraq.
                    u.s. national security interests
    The U.S. has a vital national interest in ensuring that Iraq, or 
any other country, does not become a destabilized safe haven for 
terrorists who could threaten our homeland or U.S. interests and 
citizens abroad. As the President has said, ISIL's advance across Iraqi 
territory in recent weeks, and particularly its ability to 
continue to establish a safe haven in the region, poses a threat to 
both U.S. interests and the Middle East. In considering the ISIL 
threat, we don't restrict our view of the threat to specific geographic 
boundaries.
                      current u.s. efforts in iraq
    Despite this complex and fluid situation, we are taking a 
responsible, deliberate, and flexible approach to this crisis. I want 
to be clear that there is no exclusively military solution to the 
threats posed by ISIL in Iraq. However, DOD remains postured should the 
President decide to use military force as part of a broader strategy. 
Our immediate goals, as announced on June 19, are to (1) protect our 
people and property in Iraq; (2) gain a better understanding of how we 
might best train, advise, and support the Iraqi Security Forces (ISF) 
capabilities should we decide to support the ISF going forward; and (3) 
expand our understanding--particularly via intelligence--of ISIL. All 
three are critical to any future U.S. strategy vis-a-vis Iraq. To that 
end we have done the following four things.
Added Forces to Protect our People
    First, we have added forces to protect U.S. personnel in Iraq. The 
safety of U.S. citizens and personnel in Baghdad and throughout Iraq is 
our highest priority. The Department of Defense is meeting all requests 
from the Department of State for security support to U.S. Embassy 
Baghdad. As described in the War Powers notifications we transmitted to 
Congress on June 16 and 26, DOD has sent a Fleet Antiterrorism Security 
Team (FAST), a Crisis Response Element (CRE), and additional military 
assets and personnel to reinforce security at our diplomatic facilities 
in Baghdad and the Baghdad International Airport.
    Secretary of Defense Chuck Hagel also ordered the amphibious 
transport ship USS Mesa Verde into the Arabian Gulf. Its presence in 
the gulf adds to that of other U.S. naval ships--including the aircraft 
carrier USS George HW Bush--and provides the President additional 
options to protect American citizens and interests in Iraq, should he 
choose to use them.
Intelligence, Surveillance, and Reconnaissance (ISR)
    Second, as part of this effort, we have surged intelligence, 
surveillance, and reconnaissance (ISR) capabilities in Iraq. At the 
request of the Government of Iraq, we surged ISR over Iraq after the 
fall of Mosul and also increased information-sharing initiatives. These 
ISR sorties provide us a better understanding of ISIL operations and 
disposition and allow us to help the ISF counter ISIL. We are now 
capable of around-the-clock coverage over Iraq and have been focusing 
our efforts on ISIL-controlled territory as well as Baghdad.
U.S. Assessment Teams and Joint Operations Centers (JOCs)
    Third, we continue to assess the capabilities of the Iraqi Security 
Forces (ISF). On June 19, the President announced additional measures--
including the deployment of up to 300 additional U.S. military advisors 
to evaluate how we might best train, advise, and support the ISF. These 
small teams of special forces are working to evaluate the Iraqi 
Security Forces in and around Baghdad. They are armed for self-
defense--but do not have an offensive mission.
    And fourth, following the President's direction, two Joint 
Operation Centers (JOCs), one in Baghdad and one in northern Iraq, have 
been established to help support our efforts on the ground.
    The initial assessment mission is not unlike many others that DOD 
performs around the world. We currently maintain special operators in 
more than 70 countries, in Africa, the Americas, and Asia. Furthermore, 
since the U.S. troop 
drawdown in December 2011, a small presence of military personnel has 
been located at the Embassy in Baghdad, consistent with the 2008 
Strategic Framework Agreement.
    Secretary Hagel and Chairman Dempsey received the draft assessment 
of the ISF last week from Central Command. Department leaders are 
undertaking a deliberate and rigorous review of the assessment, which 
will inform recommendations to the President. Meanwhile, additional 
assessment work continues with respect to the developing situation on 
the ground.
    In closing, I want to reiterate that there is no exclusively 
military solution to the threats posed by ISIL. However, we do have a 
vital security interest in ensuring that Iraq, nor any other country, 
becomes a safe haven for terrorists who could threaten our homeland or 
U.S. interests and citizens abroad.
    The Chairman. Thank you.
    Yesterday, during yesterday's hearing with the House 
Foreign Affairs Committee, you both argued that the policy of 
the United States should be for a unified Iraq with a strong 
Baghdad-based Federal Government. But many look and say that 
what is happening on the ground is accelerating toward a 
breakup of Iraq because too many of Iraq's communities no 
longer trust the Maliki government, and the question is whether 
there is anything we can do to prevent it.
    Mr. McGurk. Thank you, Mr. Chairman. I think we testified 
clearly and in my written statement, as well, that the model is 
a functioning federalism under the Iraqi Constitution. So 
nobody is trying to fit a square peg into a round hole that 
simply will not work. There is a model within the constitution 
for this functioning federalism, in which you recognize a very 
substantial devolution of authorities, the principles of local 
security control. That is something that I found in my last 7 
weeks: there is an emerging consensus around.
    Through the process of forming a new government, I think 
the details will be fleshed out. I know General Austin is 
discussing some of these concepts as we speak, particularly 
when it comes to restructuring the security forces.
    So I do not think anyone is trying to create a strong 
central government that is going to retain control all over the 
country. In fact, I think everybody recognizes now that from 
the center out you are not going to be able to retain control 
in all parts of the country, but also, most importantly, locals 
and tribes on their own will not be able to deny space for 
ISIL, because of ISIL's very significant military capability. 
So you need a principle of local security control, but with a 
national resource base, and that is all within the federalist 
model of the constitution.
    The Chairman. The question is, though, can you even get to 
a federalist model the way things are evolving in Iraq?
    Mr. McGurk. I think you can, because of----
    The Chairman. What needs to happen?
    Mr. McGurk. Well, first we have to get a new government 
formed, and that is very important because the new government 
will obviously be the body that directs where the resources go.
    The Chairman. What do we envision the timeframe of that 
being? It is past due, right?
    Mr. McGurk. Under the constitutional framework and the time 
lines, as soon as there is a new President, which just 
happened, there is now a 15-day timeline to charge a Prime 
Minister to form a government. So, we will know within 15 days 
the Prime Minister nominee. Whoever that is, he then has 30 
days to name a Cabinet and present the Cabinet to Parliament 
for a vote.
    Those timelines, however, can be substantially accelerated. 
For example, under the constitution, once there is a Speaker, 
there are 30 days to name a President. They did that in, I 
think, about 8 days. We are working very hard to accelerate 
those timelines.
    The Chairman. Now, if it ends up being Prime Minister 
Maliki, how do you think that you keep this government 
together, this nation together?
    Mr. McGurk. As I mentioned in my statement, as the 
President has said, it is not our job to pick the leaders, but 
the leaders do have to have a very inclusive agenda and pull 
the country together.
    The Chairman. I am not asking you to pick, nor do I suggest 
we should. The question is that if that is the result by their 
own choice it seems to me that it is very difficult, based upon 
what has happened so far, based upon Sunni responses to ISIS, 
at least in the context of their grievances with the present 
national government, that--is not the likely outcome that we 
may see a divided Iraq?
    Mr. McGurk. The Prime Minister will be chosen from the Shia 
political blocs, and Grand Ayatollah Sistani, interestingly, 
over the last month has been very active, and he has laid down 
some guideposts for how to form the next government: first, it 
has to correct the mistakes of the past, meaning it cannot look 
anything like the current government; second, you need new 
leaders that reflect a national consensus. We have had that now 
with the Speaker and the President, and so the Prime Minister 
will also have to reflect that emerging national consensus. It 
remains to be seen whether the existing Prime Minister could 
build such a consensus, but that remains very much in question.
    The Chairman. You commented in the House hearing yesterday 
that options being developed for the President are more 
concrete and specific as a result of the U.S. military advisers 
on the ground and increased intelligence collection. What 
guidance have you received in terms of timing for these 
decisions and how will the political and security conditions on 
the ground influence the President's decisions?
    Ms. Slotkin. Well, as I said, the assessments came in last 
week. They are dense, they are significant. So we are still 
working through those. After we have done that, the Secretary 
and the Chairman will make informed recommendations to the 
President.
    The Chairman. Are you going to be able to tell us anything 
more than I read in the New York Times, which is more than I 
knew before you came here?
    Ms. Slotkin. I understand. I would caution against using a 
leaked half-report in the New York Times as your basis for 
understanding it.
    The Chairman. Well, the absence of having information leads 
me to only publicly reported resources. So when do you intend 
to come to us, in whatever setting, to advise the Congress? You 
know, this committee has jurisdiction over arms sales, and my 
reticence to arms sales to Iraq has in some respects been 
proven true when, in fact, we have had much of our equipment 
abandoned and now in the hands of ISIS.
    So unless you are going to give us a sense of where the 
security forces are at moving forward, this Chair is not going 
to be willing to approve more arms sales so they can be 
abandoned to go to the hands of those who we are seriously 
concerned about in terms of our own national security 
interests.
    Ms. Slotkin. Sir, I understand and our intent is to come 
and brief Congress at the time when we have piled through it 
ourselves. We have kept the Congress very informed. I know I 
have been up at least twice a week for our committees. We are 
committed to remaining in close contact with you and there is 
no attempt to hide it from you.
    Mr. McGurk. I would just add, Mr. Chairman, that I think we 
are in a race against time, there is no question.
    The Chairman. Well, that is my point.
    Mr. McGurk. And one thing that we have found, first of all, 
by surging Special Forces teams, by surging intelligence 
assets, as you mentioned, we do know an awful lot more than we 
knew even 6 weeks ago.
    Security forces around Baghdad and particularly north of 
Baghdad--I described this in some of my written testimony--are 
trying to do some things to fight back. They have taken nearly 
a thousand casualties in the last month. These units, 
particularly units that we have relationships with, are 
fighting, they are capable. And those are the types of units 
that we are looking at ways to further assist.
    But again, this is all being discussed by the national 
security team.
    The Chairman. Well, you have influences here. My 
understanding is Assad has been part of bombing ISIS in Iraq. 
Of course, you have Iran here. How is that going to complicate 
or instruct what you might be willing to do?
    Mr. McGurk. It is part of the overall assessment, and I can 
only speak from my own firsthand experience in the initial days 
of this crisis as ISIL, it looked like, was moving down the 
Tigris Valley; our information was very sketchy, there was a 
bit of a panic throughout the Iraqi Security Forces, and we had 
to bolster them and try to create a circuit breaker so that 
that advance halted.
    There was a security vacuum, that there is no question that 
our strategic competitors sought to step in and fill. Iraq 
lacks any capacity to do deep strikes in their border regions. 
Countries show up at their door and say, hey, we can help you 
with that. The Iraqis have pushed back in some regards, but in 
some respects they have accepted support.
    The Chairman. They have accepted Assad bombing, have they 
not?
    Mr. McGurk. No, no. We have no indication that there is any 
coordination with the Assad regime when it comes to security 
cooperation. But they are very concerned about the collapse of 
their border, particularly the collapse of Al-Qaim, which was a 
strategic border town which fell about 3 weeks ago.
    The Chairman. They have accepted Iranian support?
    Mr. McGurk. They have accepted low-level Iranian support; 
there is no question, yes.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Just along those lines, how do you assess U.S. influence 
right now? I know there are a number of other regional 
interests that are playing a role. I know that those of us who 
have visited recently know that before this all occurred U.S. 
influence was at an all-time low and really almost not present. 
I know that has changed some, but where would you assess our 
influence to be in Iraq right now?
    Mr. McGurk. Senator, since this crisis, particularly in 
Mosul, we have been embraced, particularly our military 
personnel who have come in. I was at the joint operations 
center, which we have set up now. I was there on Thursday 
speaking with all of our military personnel there, all of whom 
have years of experience in relationships in Iraq. We have been 
embraced by their military, particularly the Special Forces 
assessment team.
    The Iraqis have given us full access to their air space for 
our intelligence flights we want to do. They have given us the 
legal requirements we need to be there. So we have been 
embraced, and I think there is an opportunity because they 
certainly want our assistance. They want our equipment, they 
want our training. Our FMS package is about $15 billion total. 
They have paid about $11 billion of that. They put $193 million 
in the Federal Reserve into that account just last week.
    So the Iraqis are very eager, under our strategic framework 
agreement, for U.S. assistance to be the backbone of their 
response. But, of course, there are things that they need to do 
as well and that is the conversation we are having with them.
    Senator Corker. Are there competing interests? I mean, as 
you are deepening the relationship again and helping in the way 
that we are, are there conflicts or competing interests that 
you are dealing with there on the ground?
    Mr. McGurk. Yes, and in fact some of the tactics that the 
Iraqis pursue we totally do not agree with. In fact, I think by 
moving in aggressively as we have over the last 6 weeks, we 
will increasingly increase our influence over some of those 
tactics.
    We have advised the Iraqis, for example, not go to into 
urban areas--lessons that we learned. The Iraqis made a 
decision to go into Tikrit. We did not really support that 
decision. We have advised the Iraqis since January not to go 
into Fallujah. They have not gone into Fallujah. But there is a 
military conversation, which is a little bit outside of my 
expertise and that is why General Austin is on the ground as we 
speak, talking to their new military commanders.
    Just a point on our influence: I have had a number of 
conversations with the Prime Minister on down since January and 
have said: Your generals, Mr. Prime Minister, are not telling 
you the truth about the situation. That clearly was true, 
particularly in Mosul. Those commanders are now gone and they 
have appointed a series of new commanders, who we happen to 
work very closely with, and we hope that that type of 
relationship can continue.
    Senator Corker. I think that kind of involvement that we 
had and then we lost, where we were able to have the shuttle 
diplomacy and have the kind of activity that is now taking 
place, has helped create the situation that is on the ground, 
no doubt. On the other hand, Prime Minister Maliki has not been 
the kind of Prime Minister to create any kind of sense that a 
central government can resolve the ethnic and civil issues that 
exist there.
    Do you really believe, bottom of your heart, there is 
somebody in Iraq of the Shia sect that can do that as Prime 
Minister if we move through this process?
    Mr. McGurk. Senator, we have had extreme frustrations with 
the Iraqi Government, particularly over the last year, and that 
is one reason we have focused most decisively on making sure 
elections happen, they happen on time, and they were credible. 
And they did happen. They happened on April 30. They have 
created a new Parliament and through that Parliament new 
leaders will emerge.
    There are a handful of very capable leaders who may emerge 
as the next Prime Minister of Iraq, but we are going to have to 
see. This will unfold fairly rapidly over the coming days.
    Senator Corker. Ms. Slotkin, I know there was a little 
discussion between you and the chairman relative to the 
assessment that is taking place. Can you just broadly tell us 
of anything that you have learned over the last 3 weeks that 
you did not know prior to the assessment?
    Ms. Slotkin. Sure. I think the thing when we put the 
assessors on the ground that was the biggest open question, 
given the march ISIL had had across and into Mosul and down, 
was what was the status of Baghdad? Would the ISF be able to 
successfully defend Baghdad? That was our critical first 
question, especially given the size of our mission there.
    I think one of the early things that we saw as we got on 
the ground was that there was a stiffening of the Iraqi 
Security Forces in and around Baghdad to protect the capital, 
which we thought was critically important. So we certainly were 
not aware until we got on the ground.
    I do think some of the early indications are, frankly, 
mixed. There are some very capable units that have high morale 
and that are willing and capable of fighting, and there are 
other units where morale is lower, where there may not be as 
much capability and willingness to actually fight. It is 
sorting out the details of that that we are working on right 
now.
    Senator Corker. If you were to surmise after you do this 
assessment, what do you think the range of options will be that 
will be presented to the President relative to our activities 
militarily in Iraq?
    Ms. Slotkin. I think, without crowding any decision space, 
all the military options we could possibly consider have to fit 
into a much wider regional strategy that is not a lead by the 
military.
    Senator Corker. Tell me what that means? I know you have 
said that in your opening comments.
    Ms. Slotkin. Sure.
    Senator Corker. I think most people in this committee have 
been concerned. We had very, very strong support for efforts in 
Syria. Are you referring to Syria and Iraq? Is that basically 
the 
region?
    Ms. Slotkin. It is Syria and Iraq, given ISIL's march. But 
then in particular it is making sure that we do not see a 
further spread. I mean, I know everyone was concerned----
    Senator Corker. Jordan.
    Ms. Slotkin. Exactly. Jordan has been particularly a focus 
for us, given the border area right there with Iraq. But this 
is part of the administration's attempt to try and create this 
counterterrorism partnership fund to shore up particularly the 
neighbors of Iraq and Syria, to make sure that they have a 
flexible way to respond to the threats, to make sure we do not 
see that spread, and then to ask for funding for training the 
vetted Syrian moderate opposition so we have some sort of 
attempt from the inside of Syria to secure up those areas as 
well.
    So it is impossible to just look at the ISIL threat at Iraq 
only because, as I said yesterday, it is kind of like air in a 
balloon; you squeeze on one end, it just goes somewhere else. 
We need a comprehensive approach outside in and inside out.
    Senator Corker. It is interesting you say that. I think 
people on this committee have been saying for like a year and a 
half that when the time was right, when we could have taken 
steps in Syria that could have prevented this, they were not 
taken. So now it is interesting that the administration is 
looking at a regional approach. Is that solely because now 
there is this counterterrorism issue, that the situation has 
gotten so bad--it did not have to, but it has gotten so bad now 
that it is a threat to the homeland and that is the reason you 
are looking at a regional approach?
    What do you think it is that has taken so long, with so 
many people crying out on both sides of the aisle to, please do 
something relative to the moderate opposition in Syria, knowing 
that there is no border there, knowing that it was 
destabilizing Iraq? Is it this counterterrorism issue solely 
that has now caused the administration to look at it 
regionally?
    Ms. Slotkin. I think the administration has been looking at 
this regionally for a while.
    Senator Corker. But it has been looking at it.
    Ms. Slotkin. Well, I actually do not think that is fair. I 
think that we have invested heavily in some serious border 
security work with Jordan. We have done programs with Lebanon, 
we have done programs with Turkey. This is not beginning from 
anew here.
    But I do think that the thing that surprised us, frankly, 
was the collapse of the Iraqi Security Forces in and around 
Mosul and four divisions essentially melting away. If you would 
have asked me that a year ago, I would have not assessed that. 
I think that the spread of ISIL, given the number of foreign 
passport holders that we know have traveled back and forth to 
Syria, Western passport holders, it does focus the mind.
    Senator Corker. If I could just ask one last question, or 
make a statement. We had a really, really strong vote here and 
a great debate on supporting the moderate opposition, and I was 
glad to get the call that the White House is now looking at I 
guess $500 million in actual Defense Department support for 
these moderates.
    I have to say--and the first time I have said it out loud--
I have now gotten to the point where I question--I hate to say 
it--how effective that is going to be at this point. I think 
there was a point in time when it could have been really 
effective. I now question whether now at this point, with all 
that has happened, knowing that ISIS has taken such a large 
part of the territory in Syria, I now question the 
effectiveness. And yet the administration really feels like 
that small amount at this late date still has the possibility 
to do real good in Syria.
    Ms. Slotkin. Sir, I think you cannot fight something with 
nothing. So I think that it is important to start.
    Senator Corker. Well, we have been doing that for a long 
time. So it is interesting. So I agree with you and I think 
everybody here does. I guess the question is, can you fight 
something with almost nothing at this point, when it has 
festered into this type of 
situation?
    The Chairman. And then we will have to move to Senator 
Boxer.
    Ms. Slotkin. I do think it is important. We have put 
together a program that is scaleable. You can start small and 
move up significantly in the numbers and scale of the program, 
and we think it is critical that we start.
    The Chairman. Senator Boxer.
    Senator Boxer. Thank you.
    I look at things just a little bit differently than a lot 
of folks here. I think the Iraqis had a chance of a lifetime 
and America's blood and treasure gave them that chance of a 
lifetime, a chance at unity, a chance at peace, and with their 
natural resources a chance at a growing economy. And clearly 
those of us, a minority of 23, who predicted this if we went to 
war, we did not prevail and that is life. You do not prevail, 
so you move on.
    And then later when then-Senator Biden, who was the 
chairman of this committee, proposed more autonomy for the 
Sunnis and for the Kurds--and by the way--more than 70 Senators 
voted for that. The then-Bush administration laughed at it, 
kind of like people laugh right now. That is a lot of laughing. 
And that was turned away.
    So the situation in Iraq I think is dire now, and I am not 
about to reinvest more lives and treasure. The United States 
has sacrificed too much. The war cost us $2 trillion. People 
predicted it would be over in weeks, months. More than 4,400 
Americans were killed, their families never the same, 32,000 
wounded during the course of the war. And we all know, and I 
praise Senators Sanders and McCain for battling to get help for 
those who are suffering from physical and mental injuries.
    So I am pleased that President Obama said unequivocally 
``American Forces will not be returning to combat in Iraq,'' 
and I want to record to show that I will never vote to send 
more combat forces in. You know, you get so many chances in a 
lifetime.
    I want to ask you about the Kurds, both of you. I do not 
know which one. Either of you could answer. The Kurds in 
northern Iraq have long been a strong ally of the United 
States, and they have played an important role in countering 
the rapid advance of ISIS. When I went to Iraq a very long time 
ago, the bullets were flying. The Kurds, I found them to get 
what this was all about.
    There is so much prejudice against the Kurds. The Kurdish 
militia offered to support Iraqi Security Forces when ISIS 
began its 
offensive in Mosul. Kurdish forces have kept much of northern 
Iraq out of terrorist hands. Iraqi Kurdistan has become a 
destination for hundreds of thousands of Iraqis fleeing from 
ISIS-controlled territory.
    I have to say, as I watch Mr. Maliki, I do not think he 
appreciates it. As the Iraqis continue to work to determine 
their future, I am asking you, what role can the Kurds continue 
to play, and should the United States acknowledge that the 
Kurds should have a significant amount of autonomy in a future 
Iraq? I think they have earned it, and I wondered what the 
administration's position is vis-a-vis the Kurds and more 
autonomy for the Kurds.
    Mr. McGurk. Thank you, Senator. We are in a very active 
conversation with all the Kurdish leaders about their future. 
There are some realities that they are grappling with, the 
geostrategic realities and geographic realities, also their 
economic realities. They need about $14 billion to sustain 
themselves operationally. Their share of the budget this year, 
which is pending in Baghdad, is about $17 billion. We think 
there is a deal there within the constitutional framework that 
is in the best interests of the Kurds and also our interests 
both in northern Iraq and Iraq as a whole.
    However, since this crisis began--and we recognize we are 
dealing with new realities on the ground that we have to 
recognize and deal with. We have established a joint operations 
center in Erbil to work with the Kurdish forces and with the 
Peshmerga to make sure, because they have about 1,000 
kilometers now with ISIS on a good chunk of their border and 
they are going to need some help.
    But that will work most effectively if it is done in 
cooperation and coordination with Baghdad, of course with us 
providing a mediating role where necessary. So we are in a very 
active conversation with them. They have a good deal of 
autonomy now and I am sure that they will ask for more through 
the government formation process, and that will all be done 
under the constitution.
    President Barzani has been on the phone a number of times 
with our Vice President Biden to talk about these issues. 
Barzani has made it clear to us he wants to act through the 
constitutional framework for resolving some of the disputed 
boundaries in which the Peshmerga have moved by necessity over 
the last 6 weeks.
    So the short answer to your question, we are in a very 
active conversation with the Kurds about this, and I am happy 
to follow up with you as it unfolds over the coming months.
    Senator Boxer. And the United States will support more 
autonomy for the Kurds then, I assume?
    Mr. McGurk. Well, through the government formation process 
there will be an active debate. I will just say we very much 
support the Kurds on particular critical issues. Baghdad about 
4 or 5 months ago cut funding for salaries of workers in the 
Kurdish region. We have made very clear that is completely, 
totally, unacceptable and that has to be reversed.
    The Kurds have also done some things in some cases in which 
we have said that might exacerbate tensions in a way that would 
not be particularly constructive. That is why we are in a very 
active conversation. But, we support autonomy within the 
constitutional framework, certainly.
    Senator Boxer. I am just saying, I do not know what the 
future is of that constitutional framework, but we all hope it 
works.
    The last question is: Are you confident we have adequate 
personnel on the ground to truly protect our Embassy and the 
Americans in Baghdad?
    Mr. McGurk. Senator, yes. We have moved in substantial 
assets both to the airport and also into the Embassy. I was 
just there as late as Thursday and we are confident that our 
defensive perimeters and everything, that our people will be 
safe. Our Assistant Secretary for Diplomatic Security just 
visited Baghdad last week 
to do his own assessment and we have also had teams on the 
ground from CENTCOM. This is an ongoing assessment. And our 
intelligence assets have the entire, everything, all around the 

perimeter of the city of Baghdad, the airport, and our Embassy 
very well covered. So we are confident.
    Senator Boxer. Can you tell us how many people we have at 
the Embassy, or is that something that you do not want to 
discuss in open session?
    Mr. McGurk. We have a total in Baghdad of about 2,500 now.
    Senator Boxer. Thank you.
    Thank you.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. McGurk, let us quickly go back to the Kurds. I have 
been made aware of the fact that the Baghdad Government is 
basically in arrears on the Kurds' budget by about $6 billion. 
Is that pretty accurate?
    Mr. McGurk. There are a lot of ways to do the accounting 
and the math. Baghdad claims the Kurds owe them money, the 
Kurds claim that Baghdad owes them money, and in that space is 
where a deal lies. I think that is going to be part of the 
conversation in forming a new government.
    Senator Johnson. If it is true that Baghdad owes them as 
much as $6 billion, would the United States support the Kurds' 
ability to export oil and obtain that revenue so they can keep 
themselves going?
    Mr. McGurk. We want to get as much oil onto international 
markets as possible from all parts of Iraq, and that is 
something that we very strongly support. We worked very hard 
over the last 6 months to get a deal on the table by which the 
Kurds would have exported as much oil as they possibly could 
through some of the existing arrangements, with the revenue-
sharing allocations that exist. And that deal almost succeeded, 
but it ran up against the election timeframe, and once you had 
an election it was very difficult to close the deal.
    But I think we will be able to get that back on the table. 
But we want as much oil from Iraq north to south onto 
international markets as soon as possible.
    Senator Johnson. Now, I appreciate the fact that we are 
going through assessments and we are studying the problem. You 
have to recognize reality before you really develop a strategy. 
But, I really do want to just compare where we are now versus 
where we were prior to the 2007 surge.
    Mr. McGurk, you have been involved in this for quite some 
time. What was the level of the Iraqi Forces back in 2007? I 
really want some relatively quick answers here because I want 
to get some data points.
    Mr. McGurk. How do you measure the level?
    Senator Johnson. How many people were in the Iraqi Security 
Forces back in 2007?
    Mr. McGurk. I do not have the figure, but it was not a 
highly effective force in early 2007.
    Senator Johnson. America, we had about 132,000 at the start 
of the surge and we surged to about 168,000, correct?
    Mr. McGurk. That is right.
    Senator Johnson. What were we up against in terms of enemy 
fighters back in 2007?
    Mr. McGurk. We assess that the main enemy then was al-Qaeda 
in Iraq, which is ISIL. It is the same organization.
    Senator Johnson. And about how many people were we up 
against?
    Mr. McGurk. These figures are always very difficult.
    Senator Johnson. I understand.
    Mr. McGurk. We had assessments of 6 to 8,000 at the time, 
but probably more.
    Senator Johnson. So what do we think current ISIL forces 
are?
    Mr. McGurk. Currently, the assessments we have seen--but 
again they are very difficult to measure--15,000 or so, in Iraq 
far less.
    Senator Johnson. But basically double of what we had in 
2007?
    Mr. McGurk. ISIL today, according to our assessments, is 
far more capable in manpower resources and fighting 
effectiveness than the AQI that we fought, yes.
    Senator Johnson. That is my point. U.S. troop levels right 
now in Iraq are how many?
    Mr. McGurk. Total now about----
    Ms. Slotkin. We have inserted 775 or so and we have about 
100 that were associated with our Office of Security 
Cooperation.
    Senator Johnson. So less than a thousand?
    Ms. Slotkin. Less than a thousand.
    Senator Johnson. Less than a thousand now. Back in 2007, 
prior to a pretty difficult battle, in terms of the surge, we 
had 168,000 at the height of that. And ISIL now is double the 
size that it was back in 2007 and they have some of our 
weapons; their capabilities are much higher.
    Mr. McGurk. That is right.
    Senator Johnson. What was the size of the Iraqi military 
force in June 2014, prior to ISIL's move into Iraq? What was 
our estimate there?
    Mr. McGurk. I do not have that figure, but I can get it for 
you.
    Senator Johnson. Are we talking hundreds of thousands?
    Mr. McGurk. Hundreds of thousands, but we try to look at 
capable and effective forces, and one of the purposes of the 
assessment was to determine which units are effective, which 
are ineffective. There are some units, quite frankly, that are 
totally ineffective and there are some units that are highly 
capable and effective.
    Senator Johnson. Ms. Slotkin, do you have that information?
    Ms. Slotkin. I think it is just shy of 200,000.
    Senator Johnson. Two hundred thousand prior to the 
intrusion, the invasion?
    Ms. Slotkin. I believe so.
    Senator Johnson. How many now do you think there are? You 
said that they lost four divisions. How many would that 
represent that have just melted into the background?
    Ms. Slotkin. Again, I do not have the exact number, but it 
is probably closer to 160-ish.
    Senator Johnson. Do you have any sense of what percentage 
of that force would have any effectiveness in terms of 
fighting?
    Mr. McGurk. In terms of the dissolved units, it was about 
30,000. The Iraqis have since recalled about 10,000 and, 
according to our OSCI assessments, there are about 10,000 who 
have come back and are going through about a 3-week training 
course now.
    Senator Johnson. The effectiveness of the Iraqi Security 
Forces versus U.S. fighting forces? Not even comparable, right?
    Mr. McGurk. You cannot even compare them, no.
    Senator Johnson. We have got a real problem on our hands.
    We talked a little bit about the threat to our homeland 
that ISIL in Syria and Iraq represent. Can you describe what 
the threat to the homeland is because of the situation? Can you 
make the American people aware of why this matters?
    Mr. McGurk. What really concerns our counterterrorism 
experts and also concerns us is this rise in very dedicated 
global jihadist fighters coming from all over the world, many 
with Western passports. In Baghdad, just this week there was a 
suicide bomber. There was a German, there was an Australian. 
ISIL is able to funnel about 30 to 50 suicide bombers a month 
into Iraq. These are, we assess, almost all foreign fighters.
    It would be very easy for ISIL to decide to funnel that 
cadre of dedicated suicide bombers, global jihadis, into other 
capitals around the region, or Europe or, worse, here. So that 
is a very significant, significant concern. They have training 
bases in Syria and they are recruiting on social media and the 
Internet, and it is something that we have never seen before.
    Senator Johnson. A year ago the President declared the war 
on terror was over. Do you believe the war on terror is over?
    Mr. McGurk. I think we have a very significant fight on our 
hands with ISIL, which we have to manage.
    Senator Johnson. I have no further questions.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Let me thank both of you for your appearance here today and 
for your service to our country. I certainly agree that the 
United States has a vital interest in containing ISIS' growth 
and its threat to our homeland and to our allies. I also agree 
that we have a direct interest in dealing with a Government in 
Iraq that represents all the ethnic communities fairly with an 
effective government that gives confidence to moderates that 
their voices can be heard within the Iraqi Government.
    But it was interesting. I was listening to Senator Johnson 
go through some of the comparisons on the strength of the 
terrorist networks. He was drawing a comparison over the last 7 
years. But if you go back to before the U.S. troop invasion in 
2001, at least my understanding was there was virtually no al-
Qaeda, no terrorist network that was a direct threat to our 
homeland, in Iraq. So it does raise a lot of the questions that 
Senator Boxer raised initially, that our use of military force 
back in 2001 was ill-advised.
    We do not want to repeat the mistakes that we have made in 
the past. That is the reason I bring it up. But I started with 
the fact that we have a vital interest in dealing with the 
current circumstances that are on the ground in Iraq.
    I know this hearing is focused on Iraq, but I want to move 
a little bit to Syria and what impact ISIS is having on the 
opposition 
effectiveness in Syria and whether we are finding that any of 
the support for the opposition is strengthening ISIS' capacity 
within Iraq. The network between the moderate Gulf States and 
the opposition in Syria, are we confident that that equipment 
is not finding its way to the terrorist networks now operating 
in Iraq?
    Ms. Slotkin. Obviously, the connection between ISIL--
between the threat in Iraq and Syria is pretty significant. I 
do not personally know of any reports of opposition support 
then being funneled to ISIL. I think they are in a pretty 
bitter fight against both the regime and the terrorists, who 
have taken over territory particularly in eastern and northern 
Syria. So I do not have any reports of that equipment and that 
support that has been provided getting into their hands, but it 
is always a risk.
    Senator Cardin. What precautions have we taken with 
moderate Arab States and with our own support for the 
opposition in Syria to make sure that we are not finding 
American support or moderate Arab State support ending up 
encouraging terrorist activities now moving into Iraq?
    Ms. Slotkin. This is something obviously we talk to our 
gulf partners about quite a bit, certainly over the period of 
the past couple of years, and we just urge them to make sure, 
similar to the way we do end use monitoring, that they have 
some way of telling who they are providing things to, in what 
capacity, et cetera, et cetera. We urge them to follow up the 
way we would want them to follow up.
    Senator Cardin. Mr. McGurk, how is the impasse in Syria, 
the failure to be able to have a workable plan in Syria, 
impacting stability in Iraq?
    Mr. McGurk. It is a very good question, Senator. The 
Iraqis, since the beginning of the Syria crisis--and this is 
really all Iraqis--have had a different conception of the Syria 
crisis than we have had. They have been very concerned that, 
based upon their own experience, that were you to see the fall 
of the Assad regime, that it would unleash just chaos on their 
borders. And they take what is happening within that frame.
    There is a Kurdish dimension to the Syria crisis. There is 
a central government in Iraq dimension to the Syria crisis. 
There is a tribal dimension to the Syria crisis. And it has 
just accelerated the centrifugal forces that are tearing at the 
fabric of Iraq. So it is very hard to even state the impact 
that the Syria crisis has had in Iraq, in particular the rise 
of the suicide bombings and car bombings, all of which we 
assess are ISIL. They come month after month and they are 
targeted--and this is ISIL's doctrine and ideology; you can go 
back to the writings of Zarqawi in 2004--to tear at the fabric 
of Iraq, to attack Shia civilians in their marketplaces, their 
playgrounds, their mosques, repeatedly, to attack Sunni tribal 
leaders who disagree with them. And that is why, in February, 
almost 86 percent of the suicide bombings that ISIL brought 
into Iraq were all focused on the Euphrates Valley and Anbar 
province, attacking Sunnis who disagreed with their ideology, 
and then to attack the Kurds in the disputed boundary 
territories in the north. That is what ISIL is trying to do.
    We got that suicide bomber number down to about 5 to 10 a 
month in 2011-2012 and last year and this year it went up to 30 
to 50 a month, and it has a devastating effect on the entire 
psychology of the country.
    Senator Cardin. Do we have any numbers on how many Iraqis 
have been displaced, either within Iraq or outside in other 
countries since June?
    Mr. McGurk. Immediately, in Mosul there are about 500,000 
IDP's, and since this crisis really started earlier this year, 
the IDP number is over a million.
    Senator Cardin. Are they in Iraq or are they in Iran or are 
they in other countries?
    Mr. McGurk. Most of them are in Iraq and most of them have 
fled to the Kurdish region in the north. We have worked very 
closely with our regional partners and with our U.N. partners 
in Iraq to manage this crisis. Secretary Kerry, after he was in 
Baghdad, went to Paris to meet the Foreign Ministers of UAE, 
Saudi Arabia, and Jordan, and then went to Riyadh to see King 
Abdullah, and the Saudis right after that meeting very 
generously contributed $500 million to the U.N. agencies 
working in Iraq, which was a much-needed contribution.
    We have contributed since the crisis began in Mosul, about 
$18 million, and we are working very closely, particularly with 
our Kurdish partners, to manage the crisis.
    Senator Cardin. I take it that very few of these people 
have returned because it is not safe at this moment?
    Mr. McGurk. Yes, that is right.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Kaine [presiding]. Thank you, Senator Cardin.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    How long have we known that ISIL was a threat to the extent 
that they are now? How long has the State Department assessed 
it as a threat?
    Mr. McGurk. We have known this organization since 2003. It 
is Zarqawi, Al Qaeda in Iraq. We have known it. We have watched 
it.
    Senator Flake. I know we have known it, but at what point 
did we think that there was a threat that they would take over 
Mosul?
    Mr. McGurk. Well, in Mosul they have had this modus vivendi 
in which they run racketeering schemes and they self-generate 
funding for about $12 million a month in Mosul. We have known 
that has been going on. Their open assault into Mosul, we did 
not have indications of that until a few days beforehand.
    Senator Flake. Just a few days before that. When did we 
give warning to the Iraqi Government that this was a threat, or 
did they--has their intelligence network been sufficient to 
know this before it was a problem?
    Mr. McGurk. It is a very good question, Senator. In fact, 
we have been giving warnings and expressing concern to the 
Iraqi Government about the security environment, not just in 
Mosul but in northern Ninewah, going back about the last year. 
And it was a part of the conversation that I know our Vice 
President had with Prime Minister Maliki, when Maliki was here 
in November.
    We have been very concerned about it and are trying to work 
with the Kurds and with the Iraqi Security Forces in those 
areas to have some coordination, because ISIL comes through 
that border crossing south of a town called Rabia, and they 
have filled that space gradually over the last year.
    Senator Flake. Without our military there actually 
conducting ground operations, our efforts have been in the 
diplomatic field, one, to try to convince the Iraqis to be more 
inclusive and to not give rise to this kind of activity or 
space for that kind of activity to happen, but, two, to warn 
them and help them combat this.
    It seems to me we have been spectacularly unsuccessful in 
the diplomatic arena in that regard. Do you have any response 
to that? Or how hard are we working there? What intelligence do 
we have? Are we passing it on? Is the Iraqi Government simply 
unresponsive? What has been the issue here?
    Mr. McGurk. In terms of intelligence cooperation, sharing 
with Iraqi Forces and cooperation with Iraqi Forces, right now, 
as we speak, it is at a level we have not seen since our troops 
left in 2011. So there are some opportunities there for us.
    Since we really started focusing on the al-Qaeda-ISIL 
threat in Iraq, really going back to last summer, you can see 
some statements that the State Department issued about 
Baghdadi, the fact that he is the leader of Al Qaeda in Iraq, 
he is now in Syria, and ISIL is an increasing threat to Iraq. 
We have developed platforms with the Iraqis to try to develop a 
better intelligence picture. But a lot of it was slow going.
    On the political side, we were very focused when the crisis 
began in Anbar to make clear, very clear, that any tribal 
fighters rising up to fight this group will get full benefits 
and resources of the state. The Iraqis also agreed to train 
about 1,000 native Fallujans. They gave them 3 months of 
training and then they actually mobilized and there was an 
operation in northern Fallujah and, quite frankly, those 
fighters lost, and they lost because the ISIL networks, 
particularly in Fallujah, with snipers, with IED's, with their 
military sophistication, are able to overmatch any tribal force 
that comes to confront it. That is the situation right now.
    It was also the situation in northern Ninewah, because we 
do have tribal contacts up there with the Shamar Tribe, which 
is the main tribe up there. And over time, given the 
infiltrations from Syria, given the amount of force that ISIL 
can bring to bear, it was very difficult for locals to stand up 
to them.
    Senator Flake. You say cooperation with the Iraqi 
Government was slow in coming. Where does the fault lie with 
that? Were we slow to recognize the threat of ISIS or was the 
Iraqi Government simply slow to heed the warnings that we were 
giving or the cooperation that we offered?
    Mr. McGurk. I think we started moving fairly aggressively 
in the summer. The Iraqis wanted to do things on their own. 
They did not really formally request direct U.S. military 
assistance until May, although there was a conversation about 
the possibility of such assistance earlier than May. But the 
formal request came in May.
    The Iraqis are very proud of their sovereignty. We have a 
strategic framework agreement with them, which allows us to do 
an awful lot. But the notion of flying surveillance drones over 
Iraqi skies, quite frankly, was something that was 
controversial at first. So we had to develop the mechanisms and 
the procedures for doing these things, and we have those now 
well in place.
    Senator Flake. Our role in Congress, one of our main roles, 
obviously is to provide funding for these conflicts, for 
intelligence, for diplomatic efforts. Aside from thousands of 
lives lost, we have spent about $800 billion at last count in 
Iraq, just in Iraq. What can we tell our constituents that we 
have gotten out of that? Where are we now that we would not be 
had we not spent $800 billion?
    Ms. Slotkin. I think, as Senator Boxer said, we gave them 
an opportunity and we hope that this is not the end of the 
story in Iraq. We believe that there is still an opportunity 
for the Iraqis to form a government and do something about this 
problem, and we are urging them to get on with it.
    I think that we still believe in a way forward in Iraq. 
They just have to take the opportunity.
    Senator Flake. Is it possible at all in the State 
Department's view to move ahead with Maliki in charge? Will 
there be sufficient trust, any trust, in the Sunni population 
that he will be inclusive enough, his government? Or does our 
strategy rely on somebody else coming in?
    Mr. McGurk. Again, it is going to be very difficult for him 
to form a government, and so they are facing that question now, 
now that the President has been elected, to face the question 
of the Prime Minister. Any Prime Minister, in order to form a 
government, is going to have to pull the country together. So 
whoever the leader is is someone that is going to have to 
demonstrate that, just to get the votes he needs to remain or 
to be sworn into office.
    So that is something that is going to evolve fairly rapidly 
over the coming days. Again, there is a 15-day timeline to 
nominate 
a Prime Minister, and then whoever the nominee is still has to 
then form a Cabinet and present it to the Parliament to form a 
government.
    The Speaker of the Parliament, again, was elected 
overwhelmingly with support from all major groups, as was the 
President, and we would anticipate the Prime Minister. As we 
have said, as the President has said, it has to be somebody 
that has a very inclusive agenda and that can bring all the 
component groups together. Otherwise he will not be able to 
govern.
    Senator Flake. Thank you, Mr. Chairman.
    Senator Kaine. Thank you, Senator Flake.
    Senator Coons.
    Senator Coons. Thank you. I want to thank Senator Menendez 
for chairing this hearing, and Senator Kaine and Senator Corker 
for your leadership on this committee as well, and thank our 
witnesses for your testimony today. I will follow on Senator 
Flake's questioning in a moment.
    I share the administration's ultimate goal as you have just 
been testifying to of encouraging the creation of an inclusive 
Iraqi Government that is supported by all of Iraq's different 
sectarian groups, that has some hope of a secure and stable 
Iraq going forward, given how much has been sacrificed over how 
many years.
    But I will also renew a theme you have heard from several 
Senators, that I do not support a return of active U.S. combat 
troop presence in Iraq. I am concerned about the security of 
our Embassy and our personnel and I am very concerned about the 
region and about some of our vital regional allies. So first I 
think we do need to deal with defeating ISIS and the regional 
threat here in the regional context, as you testified. And I 
think it is imperative that we have to find a way to move 
forward that has some reasonable chance of resolving the 
ongoing crisis in both Iraq and Syria to the best interests of 
the United States, of Israel, of Jordan, of Turkey, of all of 
our regional allies.
    First, on the point you were just discussing, what do you 
see as the prospects, the path forward for a political solution 
here in these next 15 days? Have you met with anyone who 
strikes you as a promising potential Prime Minister, who really 
could bridge these divides? Given reports of high-level 
delegations of Iranian military officials and diplomats meeting 
in Baghdad and in Najaf, I am concerned that there are fewer 
and fewer realistic chances of a broad-based, inclusive 
government being formed, given active interference and 
engagement from Iran.
    Mr. McGurk. I can speak a little bit to the process. This 
was Iraq's third national election they held on April 30. It 
was one of the best elections they have held in terms of the 
turnout. In 2006 it took about 7 months to form a government 
and was an extremely difficult process, and what they did was 
they built this very bloated government with every seat filled 
and then voted it into office. 
In 2010 it wound up being the same thing. It took 9 months, and 
again they built a very bloated structure and then swore it 
into 
office.
    This year, this time, they are proceeding quite 
differently. They are moving through their constitutional 
timeline: Speaker, President, now Prime Minister. It is moving 
much faster than ever 
before. Nine months in 2010. We are less than 3 months out from 

the April elections and we are now on the step for the prime 
ministership.
    I would be hesitant to put timelines on it because it is a 
very complicated process. The 328 members in the Iraqi 
Parliament represent the entire spectrum of political thought 
in Iraq, and so it is very difficult to get full unity on any 
one person or any one issue. So there will be a very strong 
debate. It is not beanbag, 
the political process there. Now they are starting to focus on 
the 
most critical question of who is going to lead the coiunty as 
the chief executive.
    Senator Coons. Your riveting description of the fall of 
Mosul suggests that a lack of urgency, a lack of reality, about 
the situation on the ground was outcome determinative, led to a 
failure to act in a timely way and to ISIS sweeping across much 
of the center of the country. Do you think there is a sense of 
urgency, a sense of reality, both as to the defense posture 
that ISF now faces and to the political challenges that they 
face?
    Mr. McGurk. Yes. There is a culture in Iraq that sometimes 
folks do not want to give their leaders bad news, and sometimes 
we are the ones who have to deliver the bad news and say ``you 
face a very urgent situation.'' Mosul was a good example of 
that. The generals up there were not saying that it was 
particularly urgent. So we are often the ones that have to do 
that.
    Now, given the information we have, given the relationships 
we have on the ground, military relationships, we are able to 
give them a very clear picture of the situation they face. The 
relative tactical success they have had in clearing some of the 
highways north of Baghdad--and relative because it remains very 
difficult, but the highway--it is Highway 1 that goes all the 
way, up north through the Tigris Valley from Baghdad to 
Samarra. They did clear that. That was partially on their own, 
but partially because we helped them with some information. 
Then, the next stretch, from Samarra to Tikrit, the same thing. 
As I mentioned, we did not advise them to go into Tikrit City 
itself because that is a very difficult military environment to 
operate in.
    But, again, that is why General Austin is on the ground, to 
discuss with their new commanders, who we have very good 
relationships with, and with the Iraqi political leaders, how 
we can better approach this going forward in a more cooperative 
way.
    Senator Coons. Ms. Slotkin, there has been widespread 
reports of Sunnis sort of bristling under ISIS rule. They are 
extreme, they conduct not just terror attacks and suicide 
bombings and targeted assassinations, but they also are 
imposing a particularly harsh form of sharia. What prospects 
are there for outreach, for reengagement with elements of the 
Sunni community that might assist the Iraqi Security Forces, 
might play some role in rising up against ISIS in a replay of 
what happened previously?
    Ms. Slotkin. I think we have seen this story before in our 
own experience in Iraq, that many of these groups who may give 
tacit support to terrorist organizations in their 
neighborhoods, as soon as there is some prospect of turning 
against them and they know they have some support from their 
central government to do it, then they will turn on them. They 
do not like living under sometimes the sharia law that has been 
imposed on them.
    So I think the prospects are still there. But I think 
ultimately it will come down to whether they feel like they 
have a partner in the central government of Iraq, there is 
something to break away for. And that is up to the Iraqi 
Government. The new government will have to attract the Sunnis 
away from ISIS and ISIL and toward them. The security forces 
have to be a part of that, but at the end of the day it is 
about a political compromise that they strike in Baghdad and 
lure those Sunnis away.
    Senator Coons. I am particularly concerned about our vital 
ally in the region Jordan, about their both military and 
economic and strategic stability, given the flood of refugees 
that they have already been taking in as a result of the Syrian 
crisis, and about the open, increasingly porous borders. What 
concrete steps are we taking to reinforce and to ensure the 
stability and vibrancy of Jordan, and how does the announced 
intent to deliver support to the vetted moderate Syrian 
resistance strengthen that?
    Ms. Slotkin. I think the most important thing is that the 
Jordanian military is a very capable military force. So we are 
very focused on the threat right on their border, but so are 
they. They have reinforced their troops on their border with 
Iraq, and we have a very close relationship, military to 
military relationship, with the Jordanians and talk with them 
on a daily basis.
    Again, because of the Syria crisis the United States 
already had a robust presence in the country. We have F-16's 
there, we have a Patriot battery there. We have a $300 million 
FMF program. We do education with them. It is a strong 
relationship, one of the strongest in the region. So I feel 
confident that we are doing everything we can in response to 
any request that they have to help them with their situation on 
the border.
    I think the idea of supporting moderate, vetted opposition 
in Syria is only more positive. The United States needs capable 
partners and platforms in the region to deal with this very 
fluid threat. The Jordanians are a big part of that and so will 
the Syrian moderate opposition.
    Senator Coons. Thank you.
    Thank you, Mr. Chairman.
    Senator Kaine. Thank you, Senator Coons.
    Senator Risch defers his questioning for now to Senator 
Rubio.
    Senator Rubio. Thank you. I appreciate that.
    Let me begin with my--I think our priority for everyone 
here is the safety and security of our personnel, including 
Department of Defense personnel and certainly the State 
Department personnel at the embassy, given recent events. So 
there has been increased reporting that the ISF is increasingly 
linked or intermingled with Shia militia forces, that some of 
these Shia militia forces are actually now wearing ISF 
uniforms, but it is becoming increasingly 
difficult to distinguish between a Shia militia fighter and an 
ISF 
personnel.
    We have seen open source reporting that the Shia militia 
could pose a threat to our personnel, including potentially our 
military trainers and others. Can you briefly describe, number 
one, how we assess the threat of these militia and what are we 
doing to mitigate the risks that they could pose to our 
personnel, given the fact that they are now basically embedded 
and intermingled with the Iraqi Security Force personnel that 
we are working side by side potentially with?
    Ms. Slotkin. Sure. This is exactly what we were trying to 
assess by going over there and looking unit by unit in and 
around Baghdad at things like command and control, morale, and 
in particular infiltration of Shia militias. Grand Ayatollah 
Sistani put out a very public call for volunteers to join the 
military, so one thing we watched very closely was as all these 
new folks came in where would their allegiances be? Would they 
respond to the commanders of their unit or someone else?
    I think that is what we have been trying to figure out, and 
I think the picture, honestly, is mixed. In some areas we have 
good morale, strong adherence to command and control through 
the military channels, and in other places it is more of an 
open question. Those are the kinds of units that we do not want 
to be working with and why we are taking this very sort of 
deliberate approach.
    Senator Rubio. Well, but there is the real risk, is there 
not, that Shia militia that are there could just as easily be 
the ones firing on our Embassy and on our personnel as ISIL 
personnel could be, unless they are somehow otherwise 
constrained?
    Mr. McGurk. Senator, the Shia militias are something we 
watch very closely. There has been a cease-fire. The Shia 
militias have had a cease-fire in place since 2009 against 
their own government forces, a cease-fire. We have not had any 
attacks from Shia militias since 2011. But it is something that 
we watch extremely closely.
    The assessment assessed every unit around Baghdad and, 
without getting into the details, some units are infiltrated 
and dangerous. Some of them, however, are very capable, very 
effective, and have close relationships with us.
    Senator Rubio. I wanted to get to a broader question, and 
you touched upon it in your statement and you do even more so 
in the written statement that you have submitted. But here is 
the question that we get from people, and that is people are 
outraged by what is happening, especially the reports coming 
out about the different things that ISIL is doing. By no means 
is this a group that is popular and I think Americans 
understand this is a terrible, radical group of violent 
individuals.
    That being said, public opinion polls and just from the 
phone calls we get in our offices, the attitude of much of the 
American public is it is a mess, but it is their problem, let 
them figure it out. I have personally said that this is not 
even about Iraq at this point; it is about the long-term 
security of the United States, and that the threat that ISIL 
poses to the United States, especially if they are able to 
establish a safe haven of operations similar to what al-Qaeda 
did, in fact, even worse than what al-Qaeda was able to do in 
Afghanistan.
    But I was hoping that from the administration's point of 
view and from the State Department and the Department of 
Defense's point of view you could perhaps use this as an 
opportunity to explain to my constituents in Florida why this 
matters to America, why something happening halfway around the 
world, in a country that people, quite frankly, think 
increasingly perhaps we should not have gotten involved in? Why 
does this matter? Why should people care about what is 
happening in Iraq, given the problems we have here at home?
    Mr. McGurk. Thank you, Senator. Let me say a couple of 
things. I, of course, address the ISIL threat in my written and 
opening statement, and that is a very serious counterterrorism 
threat, and that is number one.
    But these are vital, vita,l United States interests in 
Iraq. Number one: the counterterrorism, the al-Qaeda threat. 
Number two: just the supply of energy resources to global 
markets. Iraq through 2035 will account for 45 percent of all 
of the growth in oil energy exports. If Iraq were to collapse 
in a major civil war and sectarian war, the effects to our own 
economy here at home would be quite serious.
    Every single faultline crossing through the Middle East--
Arab-Persian, moderate, extremist, Shia-Sunni, Arab-Kurd--
everything meets in Iraq. So were ISIL to get into, for 
example, the mosque city of Samarra, which it wanted to do, and 
to unleash a cauldron of sectarian violence, it would spread 
throughout the Middle East, with devastating effects for our 
economy here at home.
    So vital interests, from al-Qaeda to energy resources and 
our own economy, are at stake.
    Senator Rubio. Thank you.
    Did you want to add something?
    Ms. Slotkin. I would just foot-stomp the ISIL threat. They 
are self-funded. They have control of significant territory. 
They are tested in battle. They are a serious threat. And while 
we do not assess right now that they are doing distinct 
homeland plotting, they have certainly said rhetorically--they 
are open about it--that they are coming for the United States.
    In my experience as a Defense official, I do not want that 
to fester. I want to do something about that.
    Senator Rubio. I thank you for that. I think you have done 
a good job of outlining the reason why we should care and why 
this matters. This is not simply about Iraq. This is about the 
United States.
    Could you then briefly--if I brought some people in here 
from Florida or they are watching or I were to share this 
video, could you explain to them what our plan is? What are we 
doing? What are the two or three things that we are doing to 
address this threat, which as you have described is a very 
significant one to our country? What is the plan?
    Mr. McGurk. Let me focus on ISIL. We need to do three 
things. We need to strangle their entire network. That means 
their foreign fighter flow in particular. We just had a meeting 
all day yesterday with the Turks to focus on that. We have to 
strangle their foreign fighter flow network into Syria.
    Number two, we have to begin to deny space and safe haven 
and sanctuary, which they have in Syria, which gets into why we 
are training, planning on, hoping to train the moderate 
opposition with a train and equip program.
    Number three, we have to help the Iraqis take control of 
their sovereign space. To do that, as I explained in my 
testimony, a functioning federal system in which we do recruit 
locally, with local tribal structures, but with the resources 
of the central government, because there was a conversation 
about recruiting tribes, which is what we want to do. But we 
have to recognize that unless the local people and local tribes 
have the resources of the central government or national-based 
resources, they are not going to be able to defeat this 
organization.
    Senator Rubio. What are we specifically doing and going to 
be doing to crush their networks and prevent them from having 
safe havens? Operationally, what are we going to do to 
accomplish those goals that you have outlined as part of our 
plan?
    Mr. McGurk. Well, I can speak to the Iraq portion of this, 
and this is why, since this crisis began in early June, we 
immediately surged in a significant surge of intelligence 
assets into Iraq, to get a better picture of the situation. We 
put special forces on the ground to get eyes on. We are now at 
the point where we have collected all the information and we 
have a fairly concrete, precise, picture and we are coming up 
with options for doing just that. So this will be an ongoing 
conversation with this committee and the Congress over the days 
and weeks ahead.
    The Chairman [presiding]. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all for being here. I want to follow up a little 
bit on the line of questioning that Senator Rubio was following 
and your response, because you mentioned in your testimony, Mr. 
McGurk, that we need to work with our partners in the region, 
especially Turkey, to seal the border to Syria from foreign 
fighters and ISL recruits. So can you talk a little bit more--I 
know you are limited to some extent--about how this is 
proceeding and what other partners we might engage to address 
this concern?
    Mr. McGurk. Thank you, Senator. We have some experience in 
doing this in the late 2006, 2007 timeframe, where it was the 
same foreign fighter network. At the time they were all flying 
into Damascus, going to Aleppo, and following a rat line into 
Iraq. We squeezed it. We did an anaconda strategy to squeeze 
the entire network from the source capitals, where they were 
getting on airplanes, to get them off the airplanes.
    We are now doing a similar effort, and Ambassador Bradtke 
is Senior Adviser at the State Department under the CT Bureau, 
focused on the foreign fighter network. It is two parts: Turkey 
has a very long border. It is very hard to control. Turkey is 
doing some things to strengthen its own border and focus on 
this problem; also, the source capitals in which young 
military-age males are getting on airplanes and going to 
certain airports in Turkey.
    So we are working very carefully through our entire 
interagency and the folks that are really expert in this, with 
the source capitals in which people are getting on airplanes 
and coming into Syria, and with the Turks. It is Europe, it is 
North Africa, and it is the gulf region.
    Senator Shaheen. Can you talk about how long we have been 
doing that and whether we are seeing any results as a result of 
that effort?
    Mr. McGurk. Senator, we have been doing it for some time 
now. I can follow up with you after speaking with the experts 
dealing with this and have a written response.
    Senator Shaheen. I would appreciate that, and probably 
sharing it with the committee would be very helpful as well.
    You also talk about the tremendous effort on the part of 
the Kurdistan government to accommodate the internally 
displaced people fleeing from other parts of Iraq. I wonder if 
you could talk about the extent to which the Government in 
Baghdad recognizes the strain this is causing and has been 
willing to work with the Kurds at all to help address this.
    Mr. McGurk. One promising sign, Senator, in what is a very 
dark landscape--I want to be very clear. This humanitarian 
situation is extremely serious and it is heartbreaking, 
particularly when it comes to the Christian minorities and 
other vulnerable groups. I met with the Christian leadership in 
Erbil and Baghdad, throughout my last trip, about how we can do 
a better job helping these people, who are under a very serious 
threat.
    The Iraqi Government could do more to help the Kurdish 
Regional Government, particularly with state resources and 
state funding. The Iraqi Parliament, which is just meeting 
because it just convened for the first time, it is a brand-new 
Parliament. It has a brand-new Speaker. The first session 
really was yesterday, and one of the first things they did, 
first they all united in condemnation of what is happening to 
Christians in northern Nineveh province. And they also formed a 
very broad committee from all the major groups to figure out 
how to direct state resources--and, 
remember, Iraq has significant resources. There is a budget 
pending in the Parliament for $140 billion, and that is 
something that the government has to tap into to help these 
people.
    So they just formed a committee yesterday to figure out 
some things to do, and we are obviously actively engaged with 
them to try to influence that process.
    Senator Shaheen. So does the selection of a Kurdish 
President help with this effort?
    Mr. McGurk. Certainly. We look forward to working with the 
new President, with President Fuad Masum, on these issues. 
Again, he won an overwhelming victory on the vote today on the 
floor of the Iraqi Parliament. So it is a good step forward. 
But we work with all the Kurdish leadership in Erbil and 
Sulaymaniyah, and also in Baghdad.
    Senator Shaheen. But I would assume that, given his 
election, that he might have some influence in the Parliament 
that could be very helpful. Has he made statements about the 
need to help address what has happened to Christians?
    Mr. McGurk. Well, he was just elected as I was coming over 
here in the car. So I have not seen the statements that he has 
made yet. But we will be immediately working with him and, 
again, all the leaders to get the resources up to the north 
that the Kurds need to deal with the humanitarian crisis.
    Senator Shaheen. Finally, again I think this is for you, 
Mr. McGurk, but, Ms. Slotkin, if you would like to weigh in, 
please do. One of the things that has not gotten a whole lot of 
attention, but has--you mention it in your testimony and 
certainly we have seen it in other places where extremist Islam 
has been in charge--the plight of Iraqi women and girls has 
borne the brunt of a lot of the violence as they have advanced 
through Iraq.
    Can you talk about what we can do and what is being done to 
help address this?
    Mr. McGurk. Well, first, Senator, the fact that you are 
asking the question is number one, because we have to put 
international focus and attention on this very serious problem. 
In Mosul the situation with ISIL goes from bad to worst. They 
have first gone after the Christians, then they have gone after 
Kurds. They are now going after women and, particularly, young 
women.
    This is a serious international problem. The Government of 
Iraq, the Foreign Minister of Iraq, wrote a letter to the 
Secretary General of the United Nations asking for 
international assistance against this threat to their people. 
So it is something that we need the entire efforts of the 
entire world to focus on, because, frankly, the Iraqis cannot 
deal with it on their own.
    So, first we have to give it international attention. Then 
we have to find a way to really address it. But in my 
testimony, particularly in Mosul, where ISIL is setting up 
really its capital of its caliphate--that is what it is trying 
to do--we have to find a way to work effectively with local 
tribal forces to be able to make sure that they can stand 
effectively against ISIL, which right now, frankly, they 
cannot, and the Kurdish Peshmerga forces, because Mosul is in a 
pocket in the Kurdish region, and eventually federal forces, to 
be able to slowly squeeze and take back these areas.
    This is going to be a long-term effort, but, especially for 
the sake of the people living in these areas, we have to give 
it everything we have.
    Senator Shaheen. Finally, I am almost out of time, but this 
may have been asked and I apologize if you have already 
answered it. But there was a report in the New York Times on 
July 13 that suggested that only about half of Iraq's 
operational units are capable enough for us to advise them. Can 
either of you speak to whether--without revealing classified 
information--whether we are concerned about this, the substance 
of this report being accurate?
    Ms. Slotkin. Sure. It was mentioned briefly and I just 
cautioned against relying solely on a leak in the New York 
Times. That was a critical thing that we were looking at in 
these assessments. They are still in draft. I think what is 
accurate is that the picture is mixed. I do not know if it is 
exactly half, but I think that we are finding units where that 
is a real problem and units where it is not a problem.
    And we are trying to understand how to process that. What 
does it mean if certain units we can work with and they are 
ambitious and they want to do things to take back their 
territory and others are not the right units for us to be 
working with. What should our policy be in that case? That is 
complicated and that is why we are taking our time to think 
about it.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Ms. Slotkin, we learn more from the New York Times and from 
the Wall Street Journal than we do from any briefing that we 
have ever had with you. I do not agree with you very often, but 
I certainly do agree with your statement you cannot fight 
something with nothing, because that is what we have been 
doing, nothing.
    This situation in Iraq was predicted by us and predictable, 
and now we find ourselves in a situation where, Mr. McGurk, the 
Director of Intelligence, the Director of the FBI, the 
Secretary of Homeland Security, and the Attorney General have 
all stated publicly that the Islamic State of Iraq and Syria, 
or ISIS or ISIL, whichever one you want to call it, pose a 
direct threat to the United States. Do you agree?
    Mr. McGurk. Yes.
    Senator McCain. You do agree. Well, would you agree that 
Iraq and Syria are now effectively one conflict, that we cannot 
address ISIS in Iraq without also addressing it in Syria, and 
vice versa, particularly with reports that we see, published 
reports of equipment that was captured in Iraq now showing up 
in Syria?
    Mr. McGurk. I think it is one theater. It is the Tigris and 
Euphrates Valley theater, yes.
    Senator McCain. So you do believe that this caliphate, the 
richest and largest base of terrorism that I know of, is both 
Iraq and Syria, this enclave?
    Mr. McGurk. That is exactly what it is trying to do. It is 
trying to establish that.
    Senator McCain. Have they achieved it pretty well so far?
    Mr. McGurk. Since June, the Iraq-Syria border has more or 
less collapsed.
    Senator McCain. So that means really then, if we are going 
to take action in Iraq we should also take action in Syria; 
would you agree?
    Mr. McGurk. Again, these are all options that are being 
looked at, Senator.
    Senator McCain. I am just wondering if you would agree with 
that. I am not asking whether you are examining options or not.
    Mr. McGurk. I think, Senator, as I mentioned, in order to 
really get at this network and learning from the past with Al 
Qaeda in Iraq, we have to squeeze the entire network. That is 
the foreign fighter flow, that is denying safe haven in Syria, 
and helping the Iraqis control their sovereign territory.
    Senator McCain. So if we did initiate an air-to-ground 
campaign without including Syria, they would have a sanctuary 
in Syria. Would you agree with that?
    Mr. McGurk. One of the reasons--and again, I would defer to 
my colleague Elissa--but we are focused on training the 
moderate opposition, to have a force that is able to deny safe 
haven and deny space to the ISL networks in Syria.
    Senator McCain. Well, probably so. But the Secretary of 
Defense and the Chairman of the Joint Chiefs of Staff have both 
stated publicly that the Iraqi Security Forces are not capable 
of regaining the territory they have lost to ISIS on their own 
without external assistance. Do you agree with the Secretary of 
Defense and the Chairman of the Joint Chiefs?
    Mr. McGurk. The Iraqi Security Forces have moved a little 
bit out of--we had the snowballing effect----
    Senator McCain. I am again asking if you agree or disagree 
with the Secretary of Defense and the Chairman of the Joint 
Chiefs, who both stated publicly that the Iraq Security Forces 
are not capable of regaining the territory they have lost to 
ISIS on their own without external assistance. Do you agree or 
disagree?
    Mr. McGurk. They cannot conduct combined arms-type 
operations, which is what it would take, without some enabling 
support.
    Senator McCain. So since we all rule out boots on the 
ground, that might mean use of air power as a way of assisting 
them. Would you agree with that?
    Mr. McGurk. Senator, all of these options and potential 
options for the President are being looked at and, as Elissa 
said, we are not going to crowd the decision space.
    Senator McCain. How long have we been ``looking at'' them 
now, Mr. McGurk?
    Mr. McGurk. Well----
    Ms. Slotkin. Sir, the assessments came in last week.
    Senator McCain. So the assessments came in last week. How 
long have we been assessing?
    Ms. Slotkin. I think we assessed for two solid weeks.
    Senator McCain. Oh, I think it has been longer than that 
since the collapse of the Iraqi military, Ms. Slotkin.
    Ms. Slotkin. I think the President made his announcement on 
June 19 and then he instructed that assessors go to Baghdad. 
They flew there and began their assessments immediately.
    Senator McCain. I see. And so far we have launched no air 
strikes in any part of Iraq, right?
    Ms. Slotkin. That is correct.
    Senator McCain. And you stated before that we did not have 
sufficient information to know which targets to hit, is that 
correct?
    Ms. Slotkin. I think we have radically improved our 
intelligence picture.
    Senator McCain. But at the time in your view we did not 
have sufficient information capability in order to launch air 
strikes?
    Ms. Slotkin. I think that, given our extremely deliberate 
process about launching any air strike, we would--
    Senator McCain. You know, it is interesting. I asked do you 
think at that time we did not have sufficient information to 
launch air strikes against ISIS.
    Ms. Slotkin. I think, given the standards the United States 
has for dropping ordnance, no, we did not have the intelligence 
we would ever want at that time.
    Senator McCain. I find that interesting because none of the 
military that I have talked to that served there and even those 
who flew there--they are absolutely convinced, as I am, that 
when you have convoys moving across the desert in open terrain 
you can identify them and strike them. We know that they were 
operating out of bases in Syria, out in the open in the desert. 
So those of us who have some military experience in the 
efficacy of air power, we heartily disagree. And that is not 
just me. It comes from military leaders who served there.
    Mr. McGurk, published media reports indicate that the 
Islamic State has an estimated 10,000 foreign fighters, 7,000 
in Syria and 3,000 in Iraq. Does that sound right?
    Mr. McGurk. These estimates are very difficult to discern, 
but that is an estimate that we routinely see, yes.
    Senator McCain. And of those foreign fighters, many of them 
are from European countries, right?
    Mr. McGurk. Yes.
    Senator McCain. Who when returning to their countries do 
not require a visa to come to this country, which is why, as I 
say, the Director of National Intelligence, the Director of the 
FBI, and 
the Secretary of Homeland Security and the Attorney General 
have all stated that this poses a direct threat to the United 
States of 
America.
    In light of that, do you think we are--so far, that we have 
had a proportionate response to that threat?
    Mr. McGurk. I just want to say on the direct threat, if 
that is a direct quote from them, I obviously defer to them on 
the quote. One thing that we have done, I want to--in your 
questioning of Ms. Slotkin. When this crisis started the Iraqis 
had zero Hellfire missiles in their arsenal. We have delivered 
to them, since this crisis began in June, hundreds of Hellfire 
missiles. And with our new intelligence, with the joint 
operations center, the Iraqis have deployed those missiles with 
precision and accuracy. It has made a difference, and I would 
be happy to follow up to----
    Senator McCain. Excuse me. What difference has it made?
    Mr. McGurk. Well, it blunted some of----
    Senator McCain. Certainly not in the areas of Iraq that the 
ISIS has been able to gain control over.
    Mr. McGurk. It began to blunt some of the momentum. 
Seriously, we certainly have a lot more----
    Senator McCain. You did not really believe that they could 
take Baghdad, did you? No one in their right mind would.
    Mr. McGurk. In the initial days of this crisis, there was a 
very deep concern that Iraqi Security Forces could, in the 
approaches to Baghdad, substantially weaken and that was a real 
concern of ours.
    Senator McCain. Well, there might have been on your part, 
but it certainly was not on those of us who understand Iraq and 
population and Shia and Sunni.
    Well, Mr. Chairman, I have overstayed my time. I thank you, 
but I really agree with you, Ms. Slotkin, when you said you 
cannot fight something with nothing. You are exactly right.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Odds and ends because most of my questions have been asked 
already by my colleagues. But give me the status on the safety 
of the American Embassy in Baghdad and our consuls in Iraq?
    Mr. McGurk. Senator, thank you. It is our foremost 
priority. It is something we watch every day very closely. That 
is why we have rebalanced our security apparatus at the 
Embassy. We have brought in substantial Department of Defense 
capabilities into the Embassy and into the airport. Our 
Assistant Secretary for Diplomatic Security was there last 
week, and we feel very confident about the protection of our 
people. But it is something that we watch literally every 
second of every day.
    Our knowledge and our understanding of the defense of 
Baghdad, in particular, is night and day different from where 
it was just 6 weeks ago.
    Senator Kaine. Because of the deployment of the advisers, 
as you were discussing?
    Mr. McGurk. Yes.
    Senator Kaine. Let me ask about this, the Iranian influence 
in Iraq. Beyond political influence, how about Iranian 
expenditures in Iraq, whether it is to back up the military or 
provide training and assistance? What is Iran doing in Iraq 
right now that is costing them money?
    Mr. McGurk. I do not have a figure on the expenditures. All 
I can say is that the Iraqis again, they want the United States 
to be the backbone of their military force, and that is why 
they have looked to the FMS program to be that backbone. Where 
we have developed relationships with Iraqi military officers, 
even in times of extreme crisis, it has proven essential. An 
example in my testimony is that when we had to get about 500 
contractors out of Bilad, it was the Iraqi Air Force, even 
despite the extreme crisis they were dealing with, that flew 
their own C-130s with their own pilots to get our people out. 
That is the kind of relationship that we need to continue to 
invest in.
    Senator Kaine. I just want to, because I am going in a 
particular direction with this. You do not have an expenditure 
figure on what Iran is spending in Iraq, but are they likely 
spending significant resources or is the influence just more 
kind of more on the political and relationship side?
    Mr. McGurk. They are expending resources. They were 
particularly concerned about the defense of Samarra, where the 
Golden Dome Al-Askari Mosque is. And in the early weeks of the 
crisis, they did invest resources to try to protect that area 
of Samarra.
    Senator Kaine. The reason I am asking this question is 
separately we are having this intense discussion about the 
Iranian nuclear negotiation and what is the effect of the 
sanctions on Iran and to what extent any sanctions relief is 
giving them breathing room. And we are being told from many 
quarters that the Iranian economy is still suffering very 
greatly. They seem to be pretty deeply in, in terms of 
expenditures in Syria and they seem to be pretty deeply in in 
terms of expenditures in Iraq, and that makes me think either 
they are incredibly stretched or maybe their economy and 
resources are a little bit stronger than some of the reports to 
us suggest. And that is relevant in terms of the negotiations 
that are underway with respect to the nuclear program. I will 
follow that up with others.
    This is a question that you might not be able to answer on 
the record, and if so I will submit it--or in public--I will 
submit it for the record. What are the efforts under way by the 
United States to disrupt ISIL financing?
    Ms. Slotkin. Sir, I think we should take it off the record 
if you do not mind, just in a classified session. I would be 
happy to provide that to you.
    Senator Kaine. We have had testimony in these hearings 
before about some kinds of financing that I think can be talked 
about publicly. They do extortion, they do kidnapping. They go 
to merchants and say: Pay us X. That has been discussed 
publicly. But there has also been reports about others who are 
funding ISIL operations, often others--maybe not the 
government, but people who are connected with governments that 
are allies of ours. And I would like to know in a classified 
setting--and we will submit a written question--what are we 
doing to disrupt ISIL financing?
    The persecution of the Christian minority in Iraq, like the 
persecution of any religious minority, is of significance. 
Could you talk about your recent discussions on the persecution 
of Christians when you were in Baghdad, Mr. McGurk?
    Mr. McGurk. Thank you, Senator. I went to the home of the 
Chaldean patriarch, Archbishop Sako in Mansour in Baghdad, to 
discuss this directly with him, and then also in Erbil with 
Bishop Warda. It is an extremely serious situation. What is so 
inspiring when you visit them is that Archbishop Sako, shortly 
before I saw him, had just had a service with about 500 
worshippers from across the city of Baghdad in his church. This 
past Sunday he had a service in which Muslims and Christians 
came together in his church to say: ``We are all Christians, we 
all stand for the Christians, we are all Iraqis, these are all 
our people, to stand against ISIL.''
    Bishop Warda in Erbil is focused on the refugees that have 
left Mosul and he has asked us for some specific help with the 
Kurdish Regional Government to ensure they have the protection 
they need, and that is something that we followed up with 
President Barzani immediately after that meeting, to ensure 
that they do have that protection. And it is something we are 
working on every day.
    But it is a very serious situation, and it reveals what is 
happening to the Christians in Mosul, it reveals what ISIL is 
all about and why it is such a threat to the region and to us.
    Senator Kaine. Again, we should feel deeply--since the 
United States stands so strongly for religious liberty, we 
should feel deeply about the persecution of any religious 
minority. Mass has been said in Mosul for more than 1,800 
years, but for the first time that has been broken. Weekly mass 
is not being celebrated there. That is a pretty significant 
thing.
    I have been critical of us, the Senate, for slowness in 
ambassadorial approvals, but I will just put one on the 
administration. You also have got to get us names. And I will 
just say this for the record: The Ambassador at Large for 
International Religious Freedom post has been vacant since 
October 2013. The White House has not sent us a name, at a time 
in the world, whether it might be Christians or Ahmadiyya 
Muslims or Jews in some nations that are suffering because of 
the persecution of religious minorities. And sadly, while the 
United States is an example of religious diversity, we see 
these persecution of minorities probably on the increase in the 
world.
    It is a core value of ours. We have such a good story to 
tell. That should not be a position that is vacant. I encourage 
the administration to send us a nominee promptly.
    With that, Mr. Chair, I have no more questions.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    I would like to focus on the role of energy resources in 
the conflict with ISIS and in the Iraqi leadership's struggle 
to maintain a workable political system. ISIS has taken over 
the oil fields near Mosul and Tikrit and continues to have its 
sights set on the Baiji oil refinery, Iraq's largest. The group 
continues to control oil fields in northeast Syria. Smuggling 
this oil into the black market has reportedly brought ISIS 
millions in revenues, perhaps a million dollars a day it is 
being reported.
    With the group's ambition to take on the trappings of an 
actual state, how does capturing energy resources and 
infrastructure fit into their broader strategy?
    Mr. McGurk. They need the resources to survive. One reason 
they are coming with everything they have at the Baiji refinery 
is because they need the energy resources that are stored in 
those tanks in order to keep Mosul running. The Baiji refinery 
battle has now been going on for a month. There is a unit of 
Iraq's Counterterrorism Service Forces there, people that we 
know and that we have trained, who have been fighting 
incredibly heroically.
    ISIL has sent waves of car bombs and suicide bombers at the 
refinery. So far the Iraqis continue to hold it, although it is 
a very desperate struggle. But strategically it desperately 
needs these resources to, as you said, be able to build----
    Senator Markey. What further steps need to be taken in 
order to protect against ISIS taking over the Baiji refinery? 
That is a critical moment in the whole struggle if they are 
successful in doing that, the largest single refinery in the 
country. What can 
be done, what needs to be done, in order to prevent that from 
happening?
    Mr. McGurk. Well, in fact, as I mentioned briefly in the 
answer to some of Senator McCain's questions, when we did get 
the Hellfire missiles into the country, one of the first places 
they were deployed was around the Baiji refinery, to begin to 
clear out some of the attacking ISL fighters. So that is one 
example.
    As we continue to assess the situation in Iraq, we have 
identified particular strategic sites that we are concerned 
about and that we want to make sure the Iraqis have whatever 
capabilities they might need to be able to defend them.
    Senator Markey. Let me move on to the Kurdish Regional 
Government in the north. The Kurds are sitting on an estimated 
reserve of 45 billion barrels of oil and have now captured the 
oil fields around Kirkuk as well. They appear to be more and 
more intent on selling their own oil abroad without 
coordinating those exports through the central authorities in 
Baghdad, and Baghdad seems unwilling to equitably distribute 
the country's oil resources.
    How can we help the Iraqi Government to better manage its 
energy resources and preserve a federal system that works for 
all Iraqis? Right now that seems to be collapsing and the 
collapse is over the oil revenue issue. How can we play a 
bigger role?
    Mr. McGurk. Well, this is something where we can play a 
direct role, and it is one reason we had to get through the 
election and start to get a new government formed, so we can 
get some traction on this issue. Again, the numbers really tell 
the story. The Kurds need about $14 billion in order to really 
sustain themselves. Their own exports right now, they approach 
a little less than half of that probably. That will change over 
the future.
    The budget that is pending in Baghdad, that is before the 
Parliament, is a $140 billion budget. The Kurdish share of that 
would be a little more than $17 billion. So the numbers really 
tell the story and the numbers give the trade space for how we 
can work out a deal.
    Again, there are new realities on the ground that we have 
to deal with, but it is in the interest of all Iraqis to export 
as much oil as possible under a revenue-sharing framework, 
particularly for the Sunni areas of Iraq, which do not have any 
of these natural resources. And that is the type of compact 
that I think a new Government, and particularly the new 
Parliament, which has proven to be very effective--and they 
just set up a committee to try to resolve this--can get some 
traction on.
    But we have to be actively engaged because we are the one 
neutral broker between all of these parties, and without us 
they will not get there.
    Senator Markey. Again, oil is always at the core of this? 
Cherchez the oil, that is pretty much what it is all about. 
That is why the British wanted the country constructed the way 
it was. They wanted those oil resources, especially up in the 
north, added, even though it was going to cause longer term 
instability. But that is what they were fighting for. That is 
what they were demanding in those negotiations 80 years ago, 90 
years ago. And we are still living with the consequences of 
those decisions.
    Let me just move on then and ask, what is the current 
relationship between ISIS and al-Qaeda? What has happened to 
that relationship in the course of especially the last 3 or 4 
months?
    Mr. McGurk. Well, it is my understanding Al Qaeda in Iraq, 
of course, was Zarqawi's group and it had pledged adherence and 
allegiance to al-Qaeda central in Pakistan and Afghanistan. 
When it moved into Syria it split into two groups, the al-Nusra 
Front and what has become the Islamic State of Iraq and the 
Levant.
    The Islamic State of Iraq and the Levant had ambitions 
across borders between Iraq and Syria and that is something 
that senior al-Qaeda leaders such as Zawahiri did not agree 
with and he issued an edict saying: I do not agree with that; 
you should all work as one, or ISIS should work in Iraq and 
Nusra works in Syria. And Abu Bakr al-Baghdadi said: I do not 
agree with you on that, so I am going to go my own way. And 
that is what led to the split.
    But ISIL is proving to be in many ways even more effective 
in terms of organizing and developing a state structure than 
even core al-Qaeda, and that is why it is more than just a 
terrorist organization. It certainly does not have the global 
reach in terms of terrorist capacity as core al-Qaeda, but it 
has the sophistication to develop what is really becoming a 
state-like sanctuary for a global jihadist movement. And 
Baghdadi has now made clear he is reaching for the mantle of 
the global jihad, and trying to recruit those who share that 
ideology from all around the world.
    Senator Markey. So what does that competitive dynamic 
between the leaders of both groups ultimately potentially lead 
to?
    Mr. McGurk. Well, the risk is that, in terms of that 
competition, they will look to external attack plotting in 
order to do spectacular type attacks to further draw worldwide 
recruits. That is the risk.
    Senator Markey. I think you have already answered the 
questions about recruiting. Let me just ask a final question 
and that is about Iraqi Forces' capacity to defend their own 
civilians. Could you just give us a brief summary of where you 
believe they are right now in accomplishing that goal?
    Mr. McGurk. Well, one reason I said in my testimony, we 
have a counterterrorism challenge; Iraq has a counterinsurgency 
challenge. A counterinsurgency challenge means they have to be 
able to control their own population and that is why they have 
to recruit locally and work with tribes that control local 
areas.
    Right now that has really broken apart, and it has broken 
apart for a number of reasons, but primarily the force that 
ISIL is able to bring to bear in some of the Sunni areas of 
Iraq. They go after anybody that disagrees with them. They have 
a bit of an alliance with the Naqshbandi and the Baath Party 
networks, but even 
that is starting to fray. So this is why we have to work with 
the Iraqis to be able to protect their population against the 
most violent groups and then work on the political compact to 
make sure that all areas of Iraq have the resources they need 
to sustain 
themselves.
    Senator Markey. Again, I want to commend you for your focus 
on diplomacy. I agree with Ryan Crocker that it is not too late 
for diplomacy, but we just have to be intervening in a very, 
very aggressive way to make sure that diplomacy is truly given 
a chance to be successful.
    Thank you so much. Thank you, Mr. Chairman.
    Senator Kaine [presiding]. Thank you, Senator Markey.
    Thank you to the witnesses. We will leave the record open 
until 5 o'clock tomorrow for the submission of questions. We 
would appreciate your prompt responses. Thank you for your 
testimony.
    We have a superb second panel and I would ask them to come 
forward now. As we are setting up for the second panel, let me 
just let all know who we will have. We are fortunate to have: 
former U.S. Ambassador to Iraq Jim Jeffrey, who is currently at 
the Washington Institute on Near East Policy; Lieutenant 
General Michael Barbero, who served nearly 4 years in Iraq over 
three tours. General Barbero has traveled to Iraq six times in 
the last year while serving as the Director of the Joint 
Improvised Explosive Device Defeat Organization. Finally, no 
stranger to the committee, Dr. Ken Pollack, who has been a 
respected voice on Iraq and the gulf from his time in the CIA, 
the National Security Council, now at the Brookings Institute.
    This is a superb panel and we are glad to have everyone 
here. Let me just, to the panel and the audience, I apologize. 
The challenge of being on the second panel, everybody comes and 
has a million questions and then about lunch time races off, 
and it is unfortunate that all will not be here to hear you 
live. But we really do appreciate you being here today because 
your experiences each give you something very important to add.
    Your written statements, which were very strong, will be 
obviously included in the entire record. We would like to ask 
each to take about 5 minutes to summarize, and I will have you 
speak in the order I introduced you, beginning with Ambassador 
Jeffrey and moving from my right to left. Ambassador Jeffrey, 
welcome.

      STATEMENT OF HON. JAMES F. JEFFREY, PHILIP SOLONDZ 
  DISTINGUISHED VISITING FELLOW, THE WASHINGTON INSTITUTE FOR 
                NEAR EAST POLICY, WASHINGTON, DC

    Ambassador Jeffrey. Thank you very much, Mr. Acting 
Chairman.
    To follow up on what we heard this morning, the 
establishment of the Islamic State by the ISIL in Iraq and in 
parts of Syria is changing the geostrategy of the entire Middle 
East and represents a dramatic setback to United States policy 
and interests and requires an immediate response from 
Washington. The situation is complicated by the fact that in 
the fix we are presently in in the Middle East we have not one, 
but two, hegemonic radical forces in the region, from Gaza to 
Iran, that are trying to upset the established order throughout 
the Middle East, and we have to deal with all of them in a 
comprehensive way.
    The President's plan to support a unified Iraq in this 
crisis as laid out on June 19 is reasonable, but over a month 
has gone by, as we discussed earlier today, and very little has 
happened. In government formation, we have had two important 
but secondary steps, the selection of the Speaker and the 
selection of a President from the Kurdish community. Those are 
important, but those are basically the preliminaries. The key 
issue is the selection of a Prime Minister and a new 
Government.
    Meanwhile, on the ground, while the initial ISIL drive on 
Baghdad and on the strategic areas has been slowed, we are 
seeing new offensive capabilities by that organization. The 
Institute for the Study of War came out yesterday with a survey 
of attacks, both suicide and what we call VBIEDs, vehicle 
bombs, inside Baghdad and efforts to try to cut off the city. 
Senator McCain was right that you cannot take Baghdad, but, as 
almost happened to us with over 100,000 troops in 2004, you can 
isolate the city, and they seem to be trying to do that.
    Meanwhile, they are pushing against the Kurds all along the 
400-mile front from the Iranian border to north of Mosul and 
they are trying to seize strategic infrastructure. Baiji we 
talked about, but also the Haditha Dam west of Ramadi and the 
Mosul Dam on the Tigris River to the northeast of Mosul. These 
are extraordinarily important infrastructure targets for them. 
So we do have an offensive threat from that organization.
    The President's plan is based upon, above all, a new 
inclusive government. As I said, while we have done the 
preliminaries with the Speaker and with the President, we have 
not gotten to the key issue of who is going to govern the 
country, because the Prime Minister essentially governs the 
country. In my view the inclusive government that the President 
has correctly said is a prerequisite to any real action cannot 
be a government headed by Prime Minister Maliki. He simply has 
not shown the ability to bring in the Kurdish and the Sunni 
communities, and that is needed right now because there is a 
huge division of both trust and geographic division in the 
country today.
    We also need to encourage the Kurds, as Mr. McGurk 
described in some detail, to remain within the republic and try 
to regain trust among the Sunnis. Again, I see this as only 
possible if we have a new Prime Minister and a new Government.
    Simultaneously, I think that, while the President is right 
that we cannot do a major campaign until we get an inclusive 
government that can provide essentially people on the ground, 
local forces, we need to do limited strikes. General Dempsey 
talked about some of the possibilities, going after key leaders 
and strategic infrastructure. We need to do a little bit of 
that now, in part to encourage everybody to come together.
    Mr. McGurk talked about the Sunni tribes that are trying to 
fight ISIS, but they are outgunned. Helping them would not be 
undercutting a new government. The Kurds are fighting all along 
the front and they need help. We heard about some of these 
highly trained, effective Iraqi units that are still in the 
fight, particularly north of Baghdad. They could benefit from 
help, too.
    We are striking al-Qaeda right now in Pakistan, Yemen, and 
with direct actions at times in Somalia and Libya. I see no 
reason why we could not--if we have the targets and we are 
getting the data now--start doing some strikes both in Iraq and 
in Syria.
    Meanwhile, we have to be ready, though. If this does not 
work out, if the Iranians remain influential in Baghdad, if Mr. 
Maliki remains in power, if the groups cannot come together, we 
have to start thinking about how are we going to deal if we do 
have three separate entities--a Kurdistan that will be a magnet 
for Kurds throughout the region; effectively a Taliban-like 
Islamic State in the middle of the Levant; and a rump Iraq that 
is ever more under the control or under the influence of Iran. 
That is a huge new problem for us if we do not act very, very 
quickly.
    So my bottom line here today, sir, is that we need to act 
as quickly as we can.
    [The prepared statement of Ambassador Jeffrey follows:]

        Prepared Statement of Ambassador James Franklin Jeffrey

    The establishment of the Islamic State (IS) by the Al Qaeda in Iraq 
offshoot group Islamic State of Iraq and Levant (ISIL) changes the 
geostrategy of the entire Middle East, represents a dramatic setback to 
U.S. policy and interests, and requires an immediate response from 
Washington. The creation of an extremist quasi-state, analogous to 
Afghanistan under the Taliban, carries the risk of further escalation 
including a regional Sunni-Shia conflict, and an irreparable loss in 
U.S. influence. But the rise of the ISIL first in Syria and now in Iraq 
reflects in part the nefarious effort by Iran to exploit sectarian 
divides to achieve regional hegemony. The U.S. Government must counter 
both the IS threat and Iran's quest for domination, bearing in mind 
that Iran is not our ally in the campaign against al-Qaeda terror. 
Above all, the U.S. must recognize that we are in a full blown crisis 
that requires action, even if politically risky.
                             the situation
    The rise of the IS, with control over up to 5 million people and 
massive military equipment and funding, in close proximity to some of 
the largest oil fields in the world, and bordering our NATO ally Turkey 
and security partners Jordan, Saudi Arabia, and Kuwait, threatens three 
of the four vital interests President Obama laid out in his U.N. 
General Assembly speech last September: threats to or allies and 
partners, rise of terrorist organizations, and threats to international 
flow of oil. The situation if it deteriorates further will likely 
threaten the fourth, development of weapons of mass destruction, as 
Iran, in part influenced by events in Iraq, is balking at a compromise 
outcome of the nuclear negotiations with the P5+1.
    A traditional approach to IS based on maintaining a unified Iraq, 
while building up the Iraqi Government, the Kurdistan Regional 
Government (KRG), and Sunni elements willing to resist ISIL, is the 
best option, but it may not long be attainable. Despite the election of 
a moderate Sunni Arab speaker of the Iraqi Parliament 2 weeks ago, 
there is no certainty that Iraqi political leaders and Parliament can 
overcome their deep divisions to create an inclusive new government as 
rightly demanded by the U.S. Government. For starters, any such 
government must not be headed by PM Maliki. He has lost the trust of 
many of his citizens, including a great many Shia Arabs, yet is still 
trying to hold on to power. In this uncertain situation, while pushing 
the traditional approach, we must simultaneously prepare to deal with 
an Iraq semipermanently split into three separate political entities, 
and to shape our approach to the Sunni Arab, Shia Arab, and Kurdish 
populations and to the central government on that basis.
    But with either the traditional or this possible new approach, 
American military force under certain circumstances must be used 
against ISIL, for political as well as military and counterterrorism 
reasons, and everyone in the U.S. must understand that we are in an 
emergency. The costs of doing little or nothing now are greater than 
the risks of most actions short of committing ground troops.
                  continuing our traditional policies
    The President's course of action outlined in his Iraq speech of 
June 19 is reasonable: protect our Baghdad Embassy, strengthen our 
intelligence and military presence in and around Iraq, increase 
assistance to the Iraqi military, and press the Iraqi political system 
to support a new, inclusive government which can reach out to estranged 
Sunni Arabs and Kurds and maintain the country's unity; only then with 
our help can it begin to retake areas held by the IS. This approach, 
reflecting our traditional policy toward a united Iraq, remains the 
best option, but over a month has passed since the President laid out 
this policy, and we have had little followthrough beyond better 
intelligence collection and on-the-ground coordination. That is 
important but not sufficient, and now it is not clear if we still have 
time to carry out this course of action.
    To maximize the chances of a unified, inclusive Iraq to which we 
can provide significant new military assistance including air strikes, 
the following needs to occur in the days ahead:

--The Iraqi Parliament, charged with forming a new government after the 
    March elections, must decide on a Prime Minister other than Nuri 
    al-Maliki. Few Sunni Arabs or Kurds will believe that any Iraqi 
    Government is inclusive and would consider their interests if 
    Maliki remains its leader. Promises to be inclusive and 
    nonsectarian are cheap in Baghdad, but followthrough usually 
    lacking. The most convincing proof that politicians have gotten the 
    ``be inclusive'' message is for Maliki to step down, or be forced 
    out by his own and other Shia parties. Removing Maliki is not a 
    direct U.S. responsibility, and too obvious a U.S. push would be 
    counterproductive. But we must make clear to all parties that 
    decisive American support can only come with an inclusive 
    government and buy-in by all major sectarian groups, and that this 
    is not possible with Maliki.
--The Kurdistan Regional Government must forgo its threats of 
    independence in return for a government that will consider their 
    interests. Finding a replacement for Maliki is necessary but not 
    sufficient to win the Kurds back. This will require compromises on 
    Kurdish oil exports building on a December 2013 agreement on 
    calculating oil shares, and renewed payment by Baghdad of the 
    Kurds' 17 percent share of southern oil exports. The Kurds in turn 
    will have to share their oil proceeds 17-83 percent between 
    themselves and Baghdad, which they claim they will do, and exercise 
    restraint on the status of the Kirkuk field, which they have not 
    committed to do. The U.S. should push for such a solution by 
    pressing both the Kurds directly and through their informal 
    partner, Turkey, to engage fully the central government. Kurdish 
    thirst for independence is understandable, but under current 
    circumstances it is a recipe for reduced hydrocarbons income to the 
    KRG for years, turmoil with the rest of Iraq, and resistance from 
    regional states. It is thus a last option, not a first choice.
--Any new Iraqi leadership must also win over Sunni Arabs. A commitment 
    to provide significant oil revenue earnings to individual provinces 
    (as has occurred already with the KRG, Basra, Najaf, and Kirkuk 
    provinces) would provide concrete evidence of outreach to Sunni 
    Arabs, and promote Iraq's federal system and probably government 
    efficiency at the same time.
--A new Defense Minister from the Sunni Arab community, with very 
    strong commitments by all parties to lead the military in fact, 
    must be quickly selected once a new Prime Minister is chosen.
--As noted above, the U.S. cannot consider decisive U.S. strikes until 
    Iraq has an inclusive government which will resonate with many 
    Sunni Arabs. The administration, in line with the President's June 
    19 remarks, clearly is using possible U.S. military action as 
    leverage to ensure such a government. That makes sense, but it is 
    not incompatible with limited U.S. strikes for objectives similar 
    to those General Dempsey spelled out recently--to protect 
    population centers and strategic infrastructure and target ISIL 
    leadership. Limited strikes now for such strategic purposes make 
    sense. Any day is a good day to strike an al-Qaeda offshoot as 
    dangerous as this one. People to whom we have given commitments, 
    not just the Iraqi military but many Sunni Arabs and the Kurdish 
    Peshmerga, are today locked in combat with ISIL, and need help. 
    Especially given the recent record of American reticence in using 
    force, limited strikes avoiding civilian areas now would increase, 
    not decrease, our political leverage.
--The U.S. should rapidly deploy its $500 million committed to train 
    and equip the Syrian opposition. The U.S. should also strike 
    against IS in Syria.
--Once these steps have been taken, the U.S. can plan with the Iraqi 
    Government, KRG, friendly Iraqi Sunni Arabs, and regional partners, 
    to retake those Iraqi areas now held by the IS. Such a 
    counterinsurgency plan would include aggressive U.S. training, 
    equipping, and coordinating, intelligence, and air strikes, along 
    with action by Sunni Arabs willing with our help to take on IS.
                            a divided iraq?
    While the above is aligned with administration policy, and in 
theory offers the best way forward, it may be too late to implement it, 
as the divisions between the various Iraqi groups deepen, sectarian 
slaughter especially of Sunni Arabs in and around Baghdad continues, 
and the KRG moves toward virtual independence, all with Maliki still in 
office.
    Were this to occur, the U.S. must deal with three separate 
entities, all posing significant problems for American interests: an IS 
threatening us, as well as our allies and partners, and a magnet for 
jihadist supporters world-wide; a KRG moving toward a de jure breakup 
with Baghdad, raising the specter of a Near East-wide quest for a 
Kurdish nation-state which would undermine existing borders; and a rump 
Iraq, dominated by Shia religious parties heavily influenced by Iran, 
and controlling what the International Energy Agency believes could 
well be exports of 6 million barrels of oil by 2020--almost two-thirds 
of Saudi Arabia's exports.
    If this materializes, the U.S. must de facto abandon a policy 
prioritizing Iraqi unity. The first priority rather should be to deter 
and if necessary defeat IS attacks on Jordan, the KRG, and other 
partners and allies. Policy coordination with Turkey, Jordan, Israel, 
the KRG, and the Gulf States, important in any scenario, would be vital 
in this one, first as a shield for vulnerable states and groups, and 
then as a platform to destroy the IS. Such coordination would require 
much greater U.S. support for the Syrian opposition, caution with 
outreach to the KRG, whose independent status is anathema not just to 
Baghdad but to Arab States, and continued containment of Iran. It would 
also require U.S. strikes against IS in both Iraq and Syria.
    In such a scenario, U.S. policy toward Baghdad would inevitably 
evolve. To the extent the rump central government is willing to 
cooperate with us, and avoid provoking the Kurds and the Sunni Arabs 
further, then limited U.S. military support under the FMS program 
should continue, as should direct U.S. military action against IS 
attacks against Shia population centers. This policy will require 
constant review depending upon how influential Iran is in Baghdad, and 
how Baghdad treats its Kurdish and Sunni Arab citizens. The experience 
with Maliki in the past several months gives little hope that such 
treatment would improve as long as he remains in power.
                                  iran
    The U.S. can talk with Iran about Iraq, emphasizing common 
interests such as unity of the state and the fight against IS, but we 
do not share common goals. In the fix we are presently in we have not 
one but two hegemonic Islamic radical forces intent on overthrowing the 
prevailing nation-state order in the region--al-Qaeda especially IS, 
and the Islamic Republic of Iran. And our allies in the common struggle 
for stability--Turkey, Israel, and the Sunni Arab States--see Iran as 
at least an equal threat to their survival as al-Qaeda.
    But we also must do everything possible to avoid a regional ``Sunni 
versus Shia'' conflict. Such a conflict would tear the region apart, 
and any U.S. involvement would have us violating our ``we fight for 
liberal principles, not sectarian interests'' policy that we have been 
able to maintain in the region and elsewhere, such as in the Balkans.

    Senator Kaine. Thank you, Ambassador Jeffrey.
    General Barbero.

STATEMENT OF MICHAEL D. BARBERO, LIEUTENANT GENERAL, U.S. ARMY 
                   [RETIRED], WASHINGTON, DC

    General Barbero. Thank you, Mr. Ranking Chairman, Ranking 
Member Corker. Thank you for the opportunity to discuss the 
situation in Iraq and some options moving forward. I will focus 
my comments on the security sector, the Iraqi Security Forces, 
and some recommendations therein.
    But first I would like to start with several observations 
on the current situation. Time accrues to the benefit of ISIS. 
While we assess, they maintain the momentum, they grow 
stronger, and their hold on the population intensifies. ISIS 
has established control across a contiguous area in both Syria 
and Iraq and, as we discussed in the previous panel, it must be 
considered as an Iraq-Syria front.
    ISIS poses a formidable regional threat. What is most 
frightening is as they swept into Iraq they continued their 
expansion into Syria. They did not have to thin the lines to do 
that.
    The Iraqi Security Forces have regrouped. However, these 
forces have serious fundamental flaws and will require 
significant assistance to be able to undertake 
counteroffensives to dislodge and roll back ISIS control.
    Finally, ISIS is an existential threat to both Baghdad and 
the Kurds. The Kurds have a 1,000-plus kilometer border or 
front with ISIS and they are largely on their own.
    Chairman Menendez asked at the outset, what is required to 
turn back the tide of ISIS? Well, it is clearly the Iraqi 
Security Forces. But my estimation is in their present state 
they cannot successfully meet this ISIS threat, let alone mount 
a major and effective counteroffensive without significant 
assistance. The capabilities necessary to counter ISIS do not 
exist today in Iraq and they will not likely materialize on 
their own.
    I am not talking in the future about ground combat forces 
from the United States. I am talking about advising and 
assisting in certain key areas. Let me cover those. The first 
is intelligence, and we have started that, developing tactical 
intelligence and targetable, actionable intelligence on the 
ground. We have started that. Now we need to turn that into 
action.
    But the second intelligence component is the ISIS network 
in Iraq, Syria, and their regional supporters must be a 
national collection and analysis priority for our entire 
intelligence community.
    Second, we should establish a training program for the ISF 
to develop sufficient combined arms capability in order to 
effectively conduct offensive operations to dislodge ISIS from 
the areas they now control. The ISF has been largely a 
checkpoint army. Since 2011 their operations have been 
defensive in nature, static in disposition, and disjointed in 
execution. They need training.
    Third, they need assistance in establishing an effective 
wartime sustainment structure and process. Their existing one 
is a peacetime system and they have experienced significant 
decline in equipment readiness over the years, and this will be 
a daunting process, but it can be done.
    Fourth, they require changes to their command and control 
network. As we know, the system now in place is one put in by 
Prime Minister Maliki of area commands directly reporting to 
him. As we have seen, there needs to be changes in commanders 
and changes to develop an effective combat command and control 
capability.
    Fifth, the ISF continues to need weapons and equipment. We 
have done some good work to rush some equipment there, but we 
need to do more. Just this week Iraq's Ambassador to the United 
States lamented the slow pace of our support when compared to 
the rapid support from Iran and Russia. We should quickly 
approve, ship, and enable material support to Iraq.
    Sixth, we should support the ISF with air strikes in order 
to degrade ISIS capabilities. But let me be clear. You cannot 
air strike or drone strike your way out of this. Air strikes 
must be part of a cohesive and coherent counteroffensive in 
order to attack ISIS.
    Seventh, we should support the Kurds and enable them to 
defend against this existential threat from ISIS. The Pesh 
Merga are an effective, determined, well-led force. However, 
they are lightly armed and underequipped. They are stretched 
very thin, and when ISIS turns on them they will be outgunned 
and overmatched.
    Now, there is a complex relationship between Baghdad and 
Erbil. I understand that. But why would we not, from a purely 
tactical and security perspective, why would we not rapidly 
enable the Kurds to defend northern Iraq from ISIS, prevent the 
oil-rich north from falling into ISIS hands, and force ISIS to 
fight on two fronts in Iraq?
    Finally, this all depends on two things: a willing partner 
in Baghdad that is willing to accept these changes and to help 
develop an effective ISF; and second, as we all discussed, 
there must be a political climate where the Sunni and Kurds 
feel accommodation for them and they could join in a unified 
military action.
    In conclusion, it is an existential threat to Iraq. The 
longer we wait to decide on our response to Iraq's request for 
support, the stronger they become. Finally, if the prevention 
of an ISIS-controlled Iraq is in the national interest of the 
United States, then we should act to aid and enable Iraq and 
the Kurds to defeat this threat as quickly as possible.
    Thank you, Mr. Chairman, for the opportunity.
    [The prepared statement of General Barbero follows:]

                  Statement of LTG Michael D. Barbero

    Chairman Menendez, Ranking Member Corker, and distinguished members 
of the committee, thank you for inviting me to appear before you today 
to discuss the situation in Iraq and options for U.S. policy there.
    One year ago I retired following 38 years of Active Duty, during 
which I spent three tours of duty in Iraq, spending a total of 46 
months in Iraq. Since my retirement, over the past year, I have been 
back to Iraq--in Erbil, Baghdad, and Basra--6 times, maintaining close 
contact with many Shia, Sunni, and Kurdish leaders. So, Iraq and its 
future is a subject of great personal importance to me.
    I am especially honored to appear with these two distinguished 
fellow panelists who are respected experts on the subject of today's 
hearing. And given the broad and deep expertise of Ambassador Jeffrey 
and Doctor Pollack, I will focus my remarks on the security sector--the 
current security situation and recommendations on options for our 
security policy moving forward.
    I would like begin with several overall observations on the current 
security situation; followed by an assessment of the ISIS threat, and 
finishing with recommendations on assistance to Iraq's security needs.
                 observations on the current situation
  <bullet> Time accrues to the benefit of ISIS; while we ``assess'' 
        they maintain the momentum, they grow stronger, and their hold 
        on the population intensifies. ISIS continues to exert its 
        control, consolidate gains, and build a state.
  <bullet> ISIS has established control across a contiguous area in 
        both Syria and Iraq and we must realize it is the Iraq-Syria 
        front, not just think in terms of Iraq.
  <bullet> ISIS poses a formidable regional threat. As it executed its 
        sweeping campaign in Iraq, ISIS simultaneously continued its 
        campaign expansion in Eastern Syria and has the strategy and 
        capabilities to continue the offensive.
  <bullet> The Iraqi Security Forces have regrouped and stopped the 
        ISIS advance. However these forces have serious, fundamental 
        flaws and will require significant assistance to be able to 
        undertake a counteroffensive to dislodge and roll back ISIS 
        control.
  <bullet> ISIS is an existential threat to both Baghdad and the Kurds. 
        The Kurds have a 1,000+ KM border/front with ISIS and they are 
        largely on their own. It is time to assist and enable the Kurds 
        in their fight with ISIS.

    Now, I would like to elaborate on these points and discuss the 
security situation in Iraq.
ISIS and the Syria-Iraq Front
    ISIS seeks to create an Islamic Caliphate extending across Syria 
and Iraq by first destroying the existing state boundaries of Iraq and 
Syria and expanding the territory under their control. It is a mistake 
to consider ISIS actions in Iraq in isolation. Rather, ISIS must be 
viewed in the new reality that it has established control over major, 
contiguous areas of Syria and Iraq.
    In Syria, following the declaration of a caliphate by ISIS leader 
Abu Bakr al-Baghdadi, a cascade of surrenders by rebel and tribal 
brigades in Syria's Deir ez-Zour province conferred large swaths of 
territorial control to ISIS. Beginning on July 2, these advances 
dramatically changed the balance of power within the 
province and provided ISIS the opportunity to achieve territorial 
continuity along the Euphrates River into Iraq's al-Anbar province. 
ISIS has successfully linked its territorial control between its ar-
Raqqa stronghold and Deir ez-Zour City, solidifying an ISIS control 
zone that stretches from ar-Raqqa into Iraq's al-Anbar province. ISIS 
seized control of eight towns located northwest of Deir ez-Zour city 
from the al-Bosarya tribe on July 18. This advance comes as Jabhat al-
Nusra (JN) and Ahrar al-Sham forces surrendered control of the towns of 
as-Shametia and Jabal Kabous to ISIS, abandoned their local 
headquarters and withdrawing from the province.
    The surrender of a large number of local rebel and tribal brigades 
to ISIS in Syria's Deir ez-Zour province was a reflection and result of 
ISIS success in Iraq. Driven by apprehension in the wake of ISIS's 
success in Iraq, a number of local leaders sought to avoid an armed 
takeover by reinvigorated ISIS forces and agreed to a set of ISIS-
imposed conditions for the peaceful surrender of rebel forces. These 
agreements allowed ISIS to quickly and efficiently assert full control 
over a large swath of territory whose armed takeover would have 
otherwise required a significant and costly ISIS ground offensive. 
Critically, further surrenders have occurred as ISIS began to 
consolidate. In addition to providing an additional windfall of 
weaponry, these surrenders have expanded ISIS's zones of control and 
sustained the current ISIS momentum within the province.
    According to some reports ISIS now controls 35 percent of Syrian 
territory and the Syrian regime has been unable to meaningfully 
challenge the ISIS advance.
    In Iraq, as evidence that actions in Syria and in Iraq are closely 
linked, ISIS completed its military operation to connect its line of 
communication between its strongholds in ar-Raqqa, Deir ez-Zour and 
Mosul, Iraq. For example, ISIS has extended its campaign against 
primarily Kurdish-protected areas by attacking in Sinjar. Sinjar, which 
has been quiet since Tal Afar fell, may become a more significant focus 
for ISIS.
    In Baghdad, ISIS's Vehicle-Born Improvised Explosive Devices 
(VBIED) campaign is active again, relaunching its signature wave of 
VBIEDs attacks. Multiple, near-simultaneous attacks are the signature 
strategy that ISIS pursued as it gained strength in 2012 and 2013. In 
the first significant use of VBIEDs since a wave of attacks occurred on 
May 13, 2014, last Saturday on 19 July, multiple VBIEDs detonated in 
Baghdad's Shia neighborhoods. I believe these actions portend an ISIS 
campaign to attack Baghdad as part of its strategic campaign the secure 
Baghdad. Spectacular attacks in the form of VBIED and indirect fire 
attacks against Shia and Government targets in Baghdad, including 
Baghdad International Airport will be accompanied by ``conventional'' 
ground attacks to turn Baghdad into a war zone.
    Across the Syria-Iraq front, ISIS possesses the momentum in all 
areas and will continue its operations to assert control over occupied 
territories, continue its assault in Iraq to secure its lines of 
communication and expand its control over strategic objectives.
Iraqi Security Forces
    Iraqi Security Forces (ISF), in their present state, cannot 
successfully meet this ISIS threat, let alone mount a major and 
effective counteroffensive, without significant assistance. Preparing 
ISF for an effective counteroffensive operation requires extensive 
preparation; it cannot be thrown together in days or weeks. The 
capabilities necessary to counter ISIS do not exist today in Iraq and 
they will not likely materialize on their own anytime soon.
    Let me be clear--I am not talking about a direct ground combat role 
for U.S. Forces. However, enabling the ISF to be successful against 
ISIS will require robust advising and enabling by American Forces, and 
this effort must be started immediately and executed simultaneously in 
several critical areas.
    First, the decisive way to defeat an ISIS force is to attack its 
entire network: its leaders, financiers, suppliers and key operators, 
combat capabilities and front line fighters. However, generating 
targetable intelligence to attack ISIS requires a deep understanding of 
the network, which is only gained through a robust and effective 
intelligence effort over time. This intelligence support has two 
components. First, this requires an investment of personnel and 
technical intelligence capabilities in Iraq to develop an intelligence 
system that integrates all types of intelligence from all sources. The 
ISF need support in tactical intelligence collection, analysis and 
dissemination in order to understand the ISIS structure and develop 
targets. In the absence of this actionable intelligence, independent 
ground operations or isolated airstrikes, as we have seen from the ISF 
in recent days and weeks, will remain ineffective in producing the 
desired effect of seriously degrading the ISIS network.
    To support operations in Iraq, there must be a second intelligence 
component--the collection and analysis effort of ISIS and their 
external support network must be made a priority for our National 
Intelligence Community. The ISIS network in Iraq, Syria, and the 
regional support network external to the Iraq-Syria front must be a 
national collection and analysis priority. And one of the prime 
objectives of this collection is to identify and target ISIS finances 
and financial support. While ISIS is reported to be very well resourced 
from their recent asset seizures in Iraq, these resources must be 
replenished. We must identify all sources of income and employ all of 
the Counter Threat Finance tools that our Interagency brings to this 
fight in order to target and limit the free flow of funding to ISIS. 
This targeting must include any regional government and nongovernment 
entities.
    Second, we should establish a training program for ISF to improve 
their basic combat skills to develop modest combined arms capability in 
order to effectively conduct offensive operations by conventional 
forces to dislodge ISIS from the occupied areas under ISIS control. The 
ISF are largely a ``checkpoint army.'' Since 2011 their operations have 
been defensive in nature, static in disposition and disjointed in 
execution. They need training to develop the skills required to fight 
this ISIS army, as recent tactical failures against ISIS clearly 
indicate. We also need to enhance the capabilities of ISF Special 
Operations Forces. While these are the most competent and most 
effective of the ISF, they will need to greatly improve their 
capabilities in order to conduct the unrelenting, precise strike 
operations against critical ISIS targets.
    Third, the ISF need assistance in establishing effective wartime 
sustainment structure and process. The existing sustainment system of 
the ISF is a peacetime system, designed to support fielding of military 
systems while dealing with a low-level insurgency. In 2010, we 
identified ISF sustainment as being a significant shortfall and that if 
it was not addressed, the readiness of ISF equipment would soon be in a 
``death spiral'' where the backlog of deferred maintenance would 
overwhelm their abilities to field effective, modern forces. Reversing 
years of decline in equipment readiness will be a daunting, but not 
impossible process.
    Fourth, The ISF require a decentralized command and control system 
that can rapidly process information and enable tactical decisions. The 
system that is in place in Iraq, one of Area Operations Commands 
emplaced by, and reporting directly to, Prime Minister Maliki, is a 
peacetime structure to ensure centralized control, with leaders chosen 
by the Prime Minister for loyalty over combat competence. The ISF 
require a command and control structure for sustained combat operations 
against a capable enemy.
    Fifth, the ISF need the weaponry and equipment necessary for 
sustained combat operations. We have rushed some weapons and armaments 
to Iraq, however we need to do more. Most of our military aid to Iraq 
is moving at the glacial pace of our Foreign Military Sales (FMS) 
process. Iraq's Ambassador to the United States has lamented that the 
slow pace of our support when compared to the rapid support from Iran 
and Russia. We should quickly approve, ship, and enable material 
support to Iraq.
    Sixth, we should support the ISF with airstrikes in order to 
degrade ISIS capabilities. But, let me be clear--isolated drone and air 
strikes in the absence of these other capabilities will be marginally 
effective. One cannot drone-strike or airstrike one's way out of this. 
These strikes will serve as an important part of a coordinated approach 
to this ISIS threat, but in isolation they will achieve fleeting 
effects. They must be integrated into the overall counteroffensive. 
Also, to produce effective airstrikes, especially against an enemy 
among the population, one needs to have air controllers on the ground 
to call in precise strikes and to control the effects. The Iraqis do 
not possess the capability to serve in this role. And no amount of 
isolated airstrikes will turn the current tactical situation in Iraq 
and produce decisive effects on their own.
    Seventh, we should support the Kurds and enable them to defend 
against this existential threat of ISIS. The Peshmerga are an 
effective, determined and well-led force. However, they are lightly 
armed, inadequately equipped and insufficiently trained to counter the 
better-equipped ISIS force. They are stretched very thin over their 
1,050-kilometer front with ISIS and, when ISIS turns on them, they will 
be outgunned and overmatched. The Kurds have proven to be loyal friends 
and allies to the United States and they have recently asked for 
material and nonmaterial support from us and we should expedite this 
support to them.
    Understanding the complex relationship between Erbil and Baghdad, 
our ``one Iraq'' policy, and the arguments against aiding the Kurdish 
Region apart from the central government, the realities on the ground 
make this an exigent requirement. From a purely tactical and security 
perspective, why wouldn't we enable the Kurds to defend northern Iraq 
from ISIS, prevent the oil-rich north from falling into ISIS hands, and 
force ISIS to fight on two fronts in Iraq?
Security Depends on a Political Arrangement That Includes Sunnis and 
        Kurds
    However, for this security support to succeed, we need two things 
from Baghdad. First, we need a willing partner, one that is committed 
to accepting this assistance and to making the systemic and structural 
changes necessary to the Iraqi security structure in order to build the 
ISF into an effective force. Second, underpinning these military 
operations is the most critical requirement, a political accommodation 
of the Sunnis and the Kurds. In order to separate ISIS from their 
greatest advantage, an acquiescent Sunni population, there needs to be 
a political arrangement in Baghdad that the Sunnis can broadly accept. 
This political arrangement must also accommodate the Kurds and create 
the proper conditions for the Kurds to participate. However, as the 
recent political activities in Baghdad prove, a political agreement 
that satisfies all parties of Iraq could be the toughest impediment to 
reversing this existential threat to Iraq. But, in order for any hope 
of success, there must be some sort of political accommodation and an 
acceptable arrangement, which allows the Sunnis and Kurds to join in a 
unified military action.
                               conclusion
    ISIS is an existential threat to Iraq and a significant threat to 
the region. Iraq and its security forces have proven unable to defeat 
this threat in their present condition and with their present 
capabilities. The longer we wait to decide on our response to Iraq's 
requests for support, the stronger ISIS becomes. If the prevention of 
an ISIS-controlled Iraq is in the interest of the United States, then 
we should act to aid and enable Iraq and the Kurds to defeat this 
threat as quickly as possible.
    Chairman Menendez, Ranking Member Corker, and distinguished members 
of the committee, again, thank you for the opportunity to appear before 
you today. I look forward to your questions.

    Senator Kaine. Thank you, General Barbero.
    Dr. Pollack.

 STATEMENT OF KENNETH M. POLLACK, SENIOR FELLOW, SABAN CENTER 
  FOR MIDDLE EAST POLICY, BROOKINGS INSTITUTE, WASHINGTON, DC

    Dr. Pollack. Mr. Chairman, Senator, it is always a great 
honor to appear before this committee.
    I want to start by talking a little bit about some of the 
realities that we face in Iraq, because I think they are 
critical in understanding where we are and what the 
possibilities are moving forward. I want to just talk about 
two. First, we need to recognize that American influence in 
Iraq has attenuated very significantly, to the point where I 
would argue that at this point the United States interests 
exceed our influence.
    Second, we need to come to grips with the fact that what we 
face in Iraq today is a civil war. Iraq is not on the brink, it 
is not sliding into it. It is a civil war, and the dynamics of 
intercommunal civil wars now apply, and those make intervention 
by third powers very difficult.
    With that in mind, I think that the current approach of the 
administration, with a few tweaks, is probably the best one 
plausible. It is the only one, and that is the idea of forging 
a new political leadership and reforming Iraq's political 
system. It is the only option that we have that does offer the 
prospect of ending Iraq's civil war in a matter of months 
rather than years, and of preserving American interests in a 
whole variety of other ways.
    But nevertheless, we need to recognize that it will be very 
difficult, and it goes well beyond merely replacing the current 
Iraqi political leadership. It is going to mean restructuring 
Iraq's politics in a way that will encompass the desires and 
aspirations and the fears of all of Iraq's communities, and 
that is not going to be easy.
    If it fails, Iraq's civil war is going to roll on and, as I 
have already suggested, the dynamics of an intercommunal civil 
war were to take hold and those are very hard to break.
    But we will have some options. Unfortunately, those options 
are all awful. I think the first one is to recognize, as any 
number of us and some of the Senators have made the point 
earlier, that Iraq and Syria are now a single civil war. And 
the problem that we will face in Iraq is that we will have a 
very complex situation. We will be looking to support both 
moderate Sunnis and moderate Shia against their extremists and 
hoping to forge a new peace between them. That is very hard.
    Syria offers a little bit of clarity, in that we hate the 
regime, are not looking to support them in any way, and that at 
least opens up the prospect of developing a Syria-first policy, 
by which we would build a new Syrian opposition army that might 
be able to defeat both the regime and the extremists, stabilize 
the country, and serve as both a bridge and a model to Sunni 
moderates inside Iraq.
    I see that option as entirely feasible, but it is not 
guaranteed to work and it is several steps beyond what the 
United States has been willing to consider so far. In fact, it 
will take years if it works at all and it will require a 
commitment of resources, probably including air power, that the 
United States has so far been unwilling to make.
    If we are not willing to commit that level of resources to 
actually bring the civil war to a close, another option is 
partition, something that has been talked about very 
frequently. I will say that I think that if we do not bring 
this to a rapid close we will find that partition is the de 
facto outcome in Iraq. It will be divided up into a Sunnistan 
and a Shiastan and the Kurds will undoubtedly go their own way.
    The question for us would be, can we find ways to turn de 
facto partition into de jure partition and somehow use it to 
bring about peace. Again, I think that is possible, but 
nevertheless it will be extremely difficult, far more difficult 
than I think many of its pundits and partisans around town are 
making it out to be. In fact, I would say that there is a 
dangerous mythology suggesting that partition of Iraq could be 
quick and easy and relatively bloodless.
    In fact, Iraq's communities remain deeply intermingled. The 
different militias have made claims on territory currently held 
by the others. The fear that overwhelms Iraqis will remain and, 
what is more, dividing up Iraq's water, oil, and other 
resources will be enormously difficult. So the likelihood is 
that trying to bring about partition will take years and 
hundreds of thousands of lives lost.
    The last alternative that we will have will be to follow a 
policy of containment, of trying to prevent the spillover from 
the Iraqi-Syrian civil war onto Iraq's other neighbors and from 
harming American interests in the region in that way. Again, 
this is certainly a possible alternative for the United States, 
but we need to remember that containment is exceptionally 
difficult. It has rarely succeeded in the past, and I think 
that the fall of Mosul is perhaps the most graphic illustration 
of just how hard it is to contain the spillover from one civil 
war from affecting another.
    The last point I would make is simply that to do nothing 
would be the worst choice of all.
    Thank you very much.
    [The prepared statement of Dr. Pollack follows:]

                Prepared Statement of Kenneth M. Pollack

    Mr. Chairman and distinguished Senators, I am honored to be able to 
appear before you to discuss possible options to address the grave 
situation in Iraq.
    I think it important to start any such conversation with an 
acknowledgement of the realities we face. First, it is painful, but 
necessary, to recognize that the United States has only very limited 
influence in Iraq today. The George W. Bush administration, by its many 
disastrous mistakes, squandered a great deal of the influence we once 
had there. The Obama administration, by its misguided neglect, 
surrendered most of what we had left. Indeed, Iraq now constitutes the 
hardest of situations for Americans to confront: it is a crisis in 
which our interests exceed our influence. Consequently, the options we 
consider moving forward must include methods to help increase U.S. 
influence to improve our ability to defend our interests.
    Second, it is equally critical that we accept the reality that Iraq 
has fallen once more into civil war. It is not ``on the brink of civil 
war.'' It is not ``sliding into civil war.'' It is not ``at risk of a 
new civil war.'' It is in a civil war. This is what civil war looks 
like. And civil wars have certain dynamics that need to be understood 
if they are to be ended, or even merely survived.
    Iraq's current situation is the recurrence of the civil war of 
2006-2008. In 2007-2008, the United States committed tremendous 
military and economic resources to pull Iraq out of that first instance 
of civil war. This time around, Washington has made clear that it will 
not devote anything like the same resources and there is no other 
country that can.
    This second point is important because intercommunal civil wars 
like Iraq's are difficult for external powers to end without either a 
significant commitment of resources or a terrible slaughter by one or 
more of the combatants. Given the American public's understandable 
unwillingness to recommit the kind of resources we did in 2007-2008, we 
are unlikely to bring the Iraqi civil war to a speedy end with minimal 
bloodshed and still safeguard the range of American interests engaged 
there. For those reasons, the hard truth we face is that, in the 
circumstances we currently find ourselves in, our options range from 
bad to awful.
    Nevertheless, doing nothing because all of the options are 
unpalatable would be the worst choice of all. Civil wars do not just go 
away if they are ignored. They burn on and on. They also have a bad 
habit of infecting neighboring states--just as the Syrian civil war has 
helped reignite the Iraqi civil war. If we try to turn our back on Iraq 
once again, it will affect its neighbors. It could easily affect the 
international oil market (and through it, the U.S. economy, which 
remains heavily dependent on the price of oil no matter how much we may 
frack). It will also generate terrorists who will seek to kill 
Americans. So our option may be awful, but we have no choice but to try 
to make them work.
              plan a: rebuilding a (somewhat) unified iraq
    Although I believe that the Obama administration's Iraq policy has 
been disastrous, and a critical factor in the rekindling of Iraq's 
civil war,\1\ I find myself largely in agreement with the approach they 
have adopted to deal with the revived civil war. Our first priority 
should be to try to engineer a new Iraqi Government that Kurds, Shia 
and moderate Sunnis can all embrace, so that they can then wage a 
unified military campaign (with American support) against ISIS and the 
other Sunni militant groups.\2\
    That needs to remain Washington's priority until it fails because 
it is the best outcome for all concerned, including the United States. 
Doing so would be the most likely way to dampen or eliminate the 
current conflict, and create the fewest causes for future violence. It 
could also succeed relatively quickly--in a matter of months rather 
than years like all of the other options. However, it will be extremely 
difficult to pull off.
    The keys to this strategy will be to convince the Kurds not to 
break from Iraq and convince moderate Sunnis to remain part of the 
Iraqi political process--and to turn on ISIS and the other Sunni 
militant groups. As I and other experts on Iraq have written, this will 
require both a new political leadership and a drastic overhaul of 
Iraq's political system. With regard to the former condition, at this 
point, it seems highly unlikely that Nuri al-Maliki can remain Prime 
Minister and retain either the Kurds or meaningful Sunni representation 
in his government. However, even if he were removed and new, more 
acceptable leaders chosen, there would still be a long way to go.\3\
    Even moderate Sunni leaders are not going to go back to the status 
quo ante. They now insist on decentralizing power from the center to 
the periphery, a redistribution of power within the Federal Government, 
and a thorough depoliticization of the Iraqi security services so that 
they cannot be used as a source of repression by what will inevitably 
be a Shia-dominated central government. They are likely to demand to be 
allowed to form a federal region like the Kurdistan Regional 
Government, complete with a separate budget and their own military 
forces akin to the Kurdish Peshmerga.
    For their part, the Kurds will want even more than that. At this 
point, given the extensive autonomy that the KRG already enjoys, 
coupled with the territorial and administrative gains it has won in the 
wake of the ISIS offensive, greater federalism probably won't be an 
adequate alternative to independence for the Kurds. If the Kurds can be 
prevented from seceding, it will probably require Baghdad to accept a 
confederal arrangement with Erbil.
    The difference here is that in a typical federal system, resources 
and authorities are generated from the center and delegated to the 
periphery for all but a limited number of constrained functions. 
However, keeping the Kurds on board will likely necessitate a shift to 
one in which resources and authority begin in the periphery and then 
are shared with the center for specific purposes and under specific 
constraints.
    The Kurds are likely to insist that the KRG maintain the current 
lines of control in disputed territories unchanged until a referendum 
can be conducted in accordance with article 140 of the Iraqi 
Constitution. Baghdad will have to recognize Erbil's right to develop 
and market the oil it produces as the new status quo. As for oil 
revenues, Erbil will demand that it be allowed to keep the Kirkuk oil 
fields it has now secured, and agree that Baghdad and Erbil each be 
allowed to pump as much oil as they like and pay all of their own 
expenses from those revenues.
    Assuming that moderate Sunnis, Kurds and moderate Shia can all 
agree on these various changes, we could see the resurrection of a 
unified Iraqi polity. It is reasonable to assume that in those happy 
circumstances, many Sunni tribes will be ready to fight ISIS and the 
other Sunni militant groups--and to accept assistance from the United 
States to do so. (Although they have made clear that they will not 
accept assistance from the Iraqi Security Forces until they have been 
thoroughly depoliticized.) Moreover, these are really the only 
circumstances in which the United States should be willing to provide 
large-scale military assistance to the Iraqi Government to fight ISIS 
and the other militant groups. Only in those circumstances will such 
assistance be seen as nonpartisan, meant to help all Iraqis and not 
just the Shia (and their Iranian allies).
    However, what is important to note about this scenario is that 
replacing Prime Minister Maliki, if that can be accomplished at all, is 
a necessary but not sufficient condition to end the conflict on the 
best terms imaginable for the United States (and Iraq). Even after 
Maliki is removed, the Iraqis will have to sort out far-reaching 
reforms and redistributions of power and wealth. As hard as all of that 
will be, there is the added danger that given the overwhelming distrust 
among all of the Iraqi parties, the Sunnis tribes will refuse to take 
any action against the Sunni militants until all of the political 
negotiations have been concluded. Having been burned so many times in 
the past, that will be a reasonable inclination on their part. However, 
if they do so, it could be months or years before they work things out 
and are ready to turn on ISIS and the other militants. By then it would 
be much harder to rid the country of the Sunni militants and those 
groups may well have done a great deal of damage already, including 
possibly mounting terrorist attacks abroad.
    One area in which I think that the Obama administration could be 
doing a better job to foster this approach to the revived Iraqi civil 
war would be to lean in, rather than leaning back. What I mean by this 
is that moderate Iraqis from across the political and ethnosectarian 
spectrum have complained that while the administration is loudly 
demanding a wide range of changes in Iraq's political leadership and 
reforms of the Iraqi political process, they have so far been vague and 
equivocal in describing what the United States would do to help a new 
and reformed Iraqi Government. Given how many Iraqis already believe 
that President Obama wants nothing to do with Iraq and will never 
provide meaningful assistance, such reserve only undercuts what little 
influence the United States has left in Iraq.
    Instead, the only way to increase American leverage with the Iraqis 
is to enumerate plainly the kinds of support that the United States 
would be willing to provide to a reformed, reunified Iraqi Government. 
This support should include drone strikes, the provision of weapons and 
reconnaissance assets, greater intelligence support and targeting 
assistance, improved and expanded training for Iraqi forces, and 
potentially even manned airstrikes. Better still, it could include a 
commitment to make the 2008 Strategic Framework Agreement into the kind 
of across-the-board bilateral assistance relationship always 
envisioned, but never actually implemented by the Obama administration. 
This would entail technical, administrative, and possibly even 
financial assistance for the full panoply of Iraqis needs--military, 
agriculture, education, energy, telecommunications, transportation, 
diplomatic, and virtually anything else the Iraqis might need. An 
American commitment to provide such assistance would be enormously 
popular among average Iraqis, and therefore would buy Washington 
considerable influence with their leaders. It would also galvanize 
Iraq's economy and help knit its fractured society back together--two 
more keys to preventing yet another outbreak of civil war.
                          plan b: syria first
    If the United States, working in conjunction with our regional 
allies, the Iraqis themselves and (necessarily) the Iranians cannot 
forge a new Iraqi national consensus and power-sharing arrangement, the 
civil war will worsen.
    Intercommunal civil wars like Iraq's share a number of unhelpful 
qualities. First, they tend to stalemate along the internal 
ethnosectarian dividing lines of the country. Those divides become the 
front lines, and they tend to be very, very bloody. Second, they tend 
to empower the worst elements in every society. It is the radicals who 
take advantage of the chaos and the fear, using it to kill off or drown 
out moderate rivals who are typically not ruthless enough to retain 
power. Of course, the radicals typically prosper from the conflict and 
have little interest in seeing it end except in complete victory.
    Third, in part for that reason, intercommunal civil wars tend to 
burn on for years, sometimes even decades. The Algerian civil war ran 
from 1991 to 2002. The Lebanese civil war lasted from 1975-1991 and 
ended only because of Syrian intervention. The Congolese civil war has 
been roiling on since 1994. Somalia since 1991. Afghanistan has 
arguably careened from civil war to civil war since 1979, or more 
conventionally since 1989.
    And fourth, they always produce spillover.\4\ Spillover typically 
takes six different forms: terrorism, refugees, secessionism, 
radicalization of neighboring populations, economic downturns, and 
intervention by neighboring states. At its worst, spillover from an 
intercommunal civil war can help cause a civil war in another state (as 
spillover from Lebanon caused the 1976-1982 Syrian civil war, and the 
current Syrian civil war helped reignite the Iraqi civil war). Or it 
can metastasize into a regional war as neighboring states intervene to 
halt the other manifestations of spillover and/or to secure their 
interests against the predations of other states. That's how Israel and 
Syria came to blows over Lebanon in the 1980s and why seven different 
African states intervened in Congo, producing what is often referred to 
as ``Africa's world war.'' For a variety of reasons, spillover from a 
protracted Iraqi civil war could be very bad, threatening U.S. allies 
like Turkey and Jordan and critical oil producers like Saudi Arabia, 
Kuwait, and Iran.
    For all of these reasons, I believe that even if the current gambit 
fails, the United States will have a strong interest in seeing the 
civil war there ended. The problem, once again, is that doing so will 
be even harder with the limited resources that the U.S. is willing to 
employ. It will mean finding ways to appeal to both moderate Shia and 
moderate Sunnis in Iraq, help them to defeat their own radicals and 
then convince them to make peace with one another--and ideally forge a 
new power-sharing arrangement that would preserve a relatively unified 
Iraq. (Or a relatively unified Arab Iraq since it is highly unlikely 
the Kurds will refrain from independence under conditions of all-out 
civil war in Arab Iraq.)
    Doing so in Iraq would probably mean starting in Syria. That may 
seem counterintuitive, but Syria offers an important clarity lacking in 
current Iraq. If Iraq is engulfed in full-scale civil war with no hope 
that political change in Baghdad could end the conflict, the United 
States will have a particularly problematic dilemma: we will have mixed 
feelings about both the Shia-dominated government and the Sunni-
dominated opposition. We will hate ISIS and the Sunni radicals, but not 
the Sunni tribes and moderates allied with them. We will hate the Shia 
radicals and mistrust their Iranian allies, but not the Shia moderates 
who will inevitably have to join their coreligionists. Supplying both 
sides in any civil war is a nonstarter, but in Iraq those circumstances 
will make it (or should make it) impossible to decide which side to 
back. In that one respect, Syria is much easier. There the United 
States unequivocally backs the Sunni-dominated opposition against the 
Shia-dominated regime.
    That situation would enable the United States to make a 
significantly greater effort to build a new, conventionally trained, 
armed, and organized Syrian
opposition army. One that could defeat the forces of both the regime 
and the Sunni Islamist radicals.\5\ Although such an effort would 
likely take anywhere from 2-5 years, it has a number of important 
advantages. First, it is entirely feasible--especially if coupled with 
Western air power. It would create the best conditions for a stable 
Syria, which would eliminate the spillover into Iraq, including the 
ability of ISIS and other radical groups to employ Syria as a base and 
recruiting ground to support operations in Iraq. Moreover, it would 
create a moderate, nonpartisan but largely Sunni force that could 
appeal to moderate Sunni tribesmen in Iraq. Indeed, a moderate, mostly 
Sunni, opposition army triumphing in Syria would be a tremendous draw 
for the Sunnis of Iraq--a model of what they might become if they rid 
themselves of ISIS, as well as an ally in that fight.
    Finally, if the United States were to help create such a new model 
Syrian opposition army, one that could then serve as a conduit for 
American assistance to Iraqi Sunnis as well, Washington would then be 
ideally placed to reach out to moderate Shia groups in Iraq. The defeat 
of the Assad regime in Syria would doubtless terrify many Iraqi Shia 
that the Syrian opposition army planned to turn on them as well. As 
their trainers, advisors, paymasters, and weapons suppliers, the United 
States could then offer to rein in the new Syrian Army and even to 
provide similar assistance to moderate Iraqi Shia groups to enable them 
to defeat their own radicals. If they accepted, and they would have 
strong incentives to do so, they too would be beholden to the United 
States, creating the best circumstances possible for the U.S. to broker 
a deal between the moderate Sunnis and the moderate Shia (of both Iraq 
and Syria).
                   plan c: seeking a stable partition
    Building a new Syrian Army and helping it to defeat both the Assad 
regime and the Sunni militants would be time-consuming and require more 
resources than the U.S. has so far committed there, but it is hardly 
impossible. If we succeeded, then using that force to help Iraqi Sunnis 
turn on their own militants would also be a realistic aspiration. And 
if that too succeeded, then it is reasonable to believe that those 
circumstances could then be employed to convince Iraq's Shia to do the 
same. Finally making possible a negotiated settlement in Iraq.
    Certainly there is no reason that any of this is impossible. But 
none of it will be easy. And each additional step adds degrees of time, 
cost, and difficulty. Even if we were willing to invest the time and 
resources to give this strategy the greatest likelihood of succeeding, 
it could take many years to seal the final deal. And there is no 
guarantee that every link in the chain would succeed enough to make the 
next link plausible.
    With that in mind, I believe that the U.S. should also consider a 
more straightforward alternative, namely to try to end the fighting by 
convincing all sides to recognize the de facto division of the country 
that is likely to take place. As noted, the battle lines between Sunni 
and Shia militias are likely to run roughly along the blurry dividing 
lines between their communities. Tragically, those lines are likely to 
sharpen as a result of the widespread ethnic cleansing that will 
accompany the fighting and that has already begun again. The Kurds, 
will almost certainly opt for independence under these circumstances, 
and even if they refrain from a formal declaration, they will be 
independent in all but name.
    In theory, a simpler alternative to trying to put Iraq back 
together again, would be to recognize its partition and convince the 
parties to accept that reality and stop fighting. Of course, what seems 
simple and obvious in theory often proves anything but that in 
practice.
    Indeed, there is a dangerous mythology taking hold in Washington 
that partition might be easy because Iraq has since been sorted out 
into neat, easily divided cantonments. That is simply false. While 
there are far fewer mixed towns and neighborhoods, they still exist, 
and even the homogeneous towns and neighborhoods remain heavily 
intermingled across central Iraq, including in Baghdad. Moreover, both 
the Sunni and the Shia militias are claiming territory largely 
inhabited by the sects of the other. All of that indicates that it 
would probably take years of horrible bloodshed to convince both the 
Sunni and Shia leaderships to agree to partition, let alone on where to 
divide the country.
    Thus, the challenge for the United States would be how to assist a 
process by which the various Iraqi factions recognized that continued 
fighting was fruitless and they should agree to a cease-fire and a 
functional division of the country to end the war altogether. That too 
will not be easy. Again, the key will be to empower moderates on both 
sides (Sunni and Shia) to enable them to defeat the radicals and then 
strike a workable deal with one another. (By definition, a moderate in 
an intercommunal civil war is someone willing to work with the other 
side.)
    In theory, (there's that phrase again), the United States might 
provide military support to both Sunni and Shia moderates to help them 
triumph over their respective extremists in their respective 
cantonments. In practice, they are just as likely to try to use that 
assistance against each other as against the extremists. And if 
military assistance is not the right way to influence such groups 
waging an all-out civil war, it is even harder to imagine that any 
other form of assistance would have greater sway with them. 
Historically, only the threat of punishment has carried that kind of 
weight in such circumstances, but that would require a willingness on 
the part of the United States to become very heavily involved in the 
Iraqi civil war, quite possibly including with combat troops, which 
makes it a nonstarter.
    Thus, the reality of a partition strategy is that, absent a 
willingness on the part of the U.S. to impose it by cracking heads, we 
will probably find ourselves on the sidelines, waiting and hoping that 
the Iraqi militia leaders will eventually recognize the futility of 
their combat and agree to accept Americans (or others) to step in as 
mediators and broker a disengagement and partition. That's not 
impossible. But typically, it is a long time coming, and in the 
meantime Iraqis will die while the region will suffer all of the 
effects of spillover. Partition may ultimately be the outcome in Iraq, 
but absent a plausible mechanism for the United States to convince the 
militias to agree to it in the near term, it will be difficult to adopt 
it is an actual strategy. As Colin Powell famously remarked, ``Hope is 
not a strategy,'' and hoping that Iraqi militia leaders recognize the 
error of their ways is not a good way to safeguard American interests 
in the region.
                          plan d: containment
    Inevitably, America's last option would be containment.\6\ We could 
simply opt to leave Iraq to its fate and try as best we might to block 
or mitigate the spillover onto its neighbors. In fact, unless and until 
we could find a way to convince the militias to stop fighting, the 
``partition'' approach described above would have to rely on 
containment. To some extent, so too would a strategy of remaking Iraqi 
politics by building a new Syrian opposition army that could stabilize 
Syria and then help stabilize Iraq since that would be a long time in 
the making if it succeeded at all. In short, the United States is 
probably going to rely on at least some aspects of a containment 
strategy toward Iraq under any circumstances unless we are able to help 
forge a new Iraqi political leadership and power-sharing agreement that 
stops the civil war in its tracks.
    The problem with containment is that it does not work very well. 
Historically, few nations have been able to stave off the worst aspects 
of spillover from an intercommunal civil war for very long. Most 
countries find themselves suffering worse and worse, and often getting 
drawn into the civil wars the longer they drag on. It is harder to find 
good cases of neighboring countries that successfully minimized the 
impact of spillover on themselves.
    In many cases states have simply tried to weather the storm and 
paid a heavy price for doing so. Others have been driven to do what 
they could to end the conflict instead. Syria spent at least 8 years 
trying to end the Lebanese civil war before the 1989 Ta'if accords and 
the 1990-91 Persian Gulf War gave it the opportunity to finally do so. 
Israel's 1982 invasion was also a bid to end the Lebanese civil war 
after its previous efforts to contain it had failed, and when this too 
failed Jerusalem tried to go back to managing spillover. By 2000, it 
was clear that this was again ineffective and so Israel simply pulled 
out of Lebanon altogether in a vain effort to prevent further 
spillover. Withdrawing from Lebanon was smart for Israel for many 
reasons, but it has not put an end to its Lebanon problem. In the 
Balkans, the United States and its NATO Allies realized that it was 
impossible to manage the Bosnian or Kosovar civil wars and so in both 
cases they employed coercion--including the deployment of massive 
ground forces--to bring them to an end. Pakistan opted to try to end 
the Afghan civil war by building and encouraging the Taliban, an effort 
that, 20 years later, has left Pakistan riven by internal conflict of 
its own.
    Nevertheless, we may well have nothing left but to try to contain 
the spillover from an Iraqi civil war. From America's perspective that 
will require pursuing a number of critical courses of action.
    Provide Whatever Assistance We Can to Iraqi Civilians and Refugees. 
In this scenario Iraq's civil war will rage on, fueled by its militias 
and, unfortunately, its neighbors. The biggest losers will be the 
people of Iraq themselves. Hundreds of thousands are likely to die. 
Millions will be forced to flee their homes and suffer other tragedies. 
Those people represent both a moral responsibility and a strategic 
threat since they constitute ideal recruitment pools for militias and 
terrorists. Especially if the United States opts not to do anything to 
try to bring the civil war to a rapid end, but also if we are merely 
forced to wait for other aspects of our strategy to gain traction, we 
should and must provide what support we can to the people of Iraq, both 
those who remain and those who flee. Undoubtedly various international 
NGOs and U.N. agencies will do what they can, but without the resources 
of nation-states, they will not be able to do much.
    Provide Support to Iraq's Neighbors. The historical evidence from 
other intercommunal civil war suggests that the United States should 
provide assistance to Iraq's neighbors to reduce the likelihood that 
their own deprivation will create sympathy for, or incite emulation of, 
the actions of their compatriots in Iraq. The more content the people 
of neighboring states, the less likely they will be to want to get 
involved in someone else's civil war. Aid also provides some leverage 
with the government in question, making them more likely to hesitate 
before going against U.S. wishes. Generous aid packages can be 
explicitly provided with the proviso that they will be stopped (and 
sanctions possibly applied instead) if the receiving country intervenes 
in the Iraqi conflict.
    That would mean continuing and even expanding the roughly $660 
million in aid the United States is providing Jordan this year. It will 
probably mean increased assistance to Turkey to help it deal with both 
refugees and terrorism emanating from the intertwined Iraqi-Syrian 
civil wars.
    The more difficult questions will be how to help Kuwait and Saudi 
Arabia. Neither Kuwait nor Saudi Arabia need American financial 
assistance, although both might need greater security cooperation to 
deal with terrorists and militiamen spilling over their borders in 
search of either targets or sanctuary.
    However, the bigger problem that both Kuwait and Saudi are likely 
to face will be the radicalization of their populations, a problem both 
were beginning to face in 2006 before the U.S. ``Surge'' shut down the 
first manifestation of civil war in Iraq. Saudi and Kuwaiti Shia 
minorities will doubtless sympathize with--and be galvanized by--the 
Shia of Iraq and Syria. Their Sunni majorities will side with the Sunni 
oppositions in both and will demand that their governments do ever more 
to support the Sunni fighters. It will almost certainly lead to 
widespread gulf covert support to the Sunni militias in Iraq and Syria, 
potentially including ISIS and the other militant groups. Historically, 
such covert support can backfire against the country providing the 
support, as Pakistani support for the Taliban, Jordanian support for 
the PLO, and Turkish support for the Syrian opposition has. It can also 
lead to conventional interventions into the civil war when the covert 
support proves inadequate to the task. That's how Syria and Israel got 
sucked into Lebanon.
    Dissuade Intervention. Consequently, the United States, hopefully 
along with its European and Asian allies, will have to make a major 
effort to convince Iraq's neighbors not to intervene in an Iraqi civil 
war. Given the extent of their involvement already, this will be 
difficult to do. Our efforts should include the economic aid described 
above, as well as specific benefits tailored to the needs of individual 
countries. For Jordan and Saudi Arabia it might be yet another quixotic 
tilt at an Israeli-Palestinian peace, thereby addressing another of 
their major concerns. For Turkey, it might be financial aid or NATO 
security assistance. Again, Saudi Arabia and Kuwait would be the 
biggest challenges and the best Washington might do would be merely to 
try to convince them that it would be counterproductive and unnecessary 
to intervene--unnecessary because the U.S. and its allies will make a 
major effort to keep Iran from intervening, which will be their 
greatest worry.
    Preventing Iran from intervening, especially given how much it is 
already involved in Iraqi affairs, is going to be the biggest headache 
of all. Given Iran's immense interests in Iraq, deepening Iranian 
intervention is likely to go hand in hand with a worsening civil war. 
And that is a foregone conclusion in a scenario of containment. For 
Tehran, the United States may have to lay down ``redlines'' regarding 
what is absolutely impermissible--like sending uniformed Iranian 
military units into Iraq or annexing Iraqi territory, both of which 
could prompt the Sunni Arab states to do the same. Of course, the U.S. 
and its allies would also have to lay out what they would do to Iran if 
it were to cross any of those redlines and that will inevitably be 
complicated by the status of nuclear negotiations with Tehran, 
regardless of the status of those negotiations.
    Direct Strikes at the Terrorist Infrastructure in Iraq. If the 
United States opts merely to contain an Iraqi civil war, we will have 
to accept some level of terrorist activity there. However, we would 
have to try to limit the ability of terrorists (Sunni and possibly Shia 
as well) to use Iraq as a haven for attacks outside the country. That 
will mean reliance on the kind of approach that Vice President Biden 
purportedly favored in Afghanistan rather than the ``surge'' of troops 
that President Obama opted for instead. It would mean employing air 
assets (manned and unmanned), special operations forces, and all manner 
of intelligence and reconnaissance systems to identify and strike key 
terrorists and their infrastructure (training camps, bomb factories, 
arms caches, etc.) before they could pose a danger to Americans. Thus, 
the U.S. would continue to make intelligence collection in Iraq a high 
priority, and whenever such a facility was identified, Shia or Sunni, 
American forces would move in quickly to destroy it.
    Of course, such an effort would need bases to operate. Jordan and 
Kuwait are obvious candidates. However, in this scenario, Iraqi 
Kurdistan would probably be the best of all. Indeed, the United States 
could tie its willingness to recognize an independent Kurdistan (and 
provide them with the kind of military support they will need to hold 
off Iran as well as ISIS and the Sunni Arab militant groups) to Erbil's 
willingness to host American counterterrorism (CT) forces. It seems 
highly likely that the Kurds would jump at that opportunity, making it 
far more palatable to run a discrete CT campaign from independent Iraqi 
Kurdistan than anywhere else.
                      learning the lesson of iraq
    Mr. Chairman, as I reflect on the list of options I have described 
above, I find myself deeply depressed. This is a miserable set of 
choices. But they reflect the reality of our circumstances in Iraq.
    Whatever options we choose to pursue there, I find myself hoping 
that at the very least, we will recognize that the best option of all 
was to have never allowed ourselves and the Iraqis to get to this 
point. They have been sucked into a civil war that feeds upon itself, 
and we are left with almost nothing we can do, either to save them or 
prevent that maelstrom from wrecking vital American interests. The 
mistakes of both the Bush '43 and Obama administrations led us to this 
point because neither was willing to acknowledge that we cannot break a 
country in a vital part of the world and then walk away from it. And 
neither was willing to practice the sage aphorism that an ounce of 
prevention is worth a pound of cure. Today we have but an ounce of cure 
for a malady raging out of control, one that could easily kill the 
patient and who knows what else. Perhaps the best that might come of it 
would be if we learn not to do so again.

----------------
Notes

    \1\ This should not be taken to imply that I believe Iraq's current 
problems are entirely the fault of the Obama administration. Quite the 
contrary. I believe that the George W. Bush administration is at least 
equally to blame, and arguably more so.
    \2\ Full disclosure: I proposed that the United States adopt this 
policy the day after Mosul fell and before the administration embraced 
it. See Kenneth M. Pollack, ``How to Pull Iraq Back from the Abyss,'' 
The Wall Street Journal, June 10, 2014.
    \3\ For a fuller description of the political reforms that would be 
required to make this scenario work, see Zalmay Khalilzad and Kenneth 
M. Pollack, ``How to Save Iraq,'' The New Republic Online, July 22, 
2014.
    \4\ On spillover from intercommunal civil wars, its causes, 
manifestations and efforts to stem it, see Daniel L. Byman and Kenneth 
M. Pollack, ``Things Fall Apart: Containing the Spillover from an Iraqi 
Civil War'' (Washington, DC: The Brookings Institution, 2006).
    \5\ For a fuller description of this strategy, see Kenneth M. 
Pollack, ``An Army to Defeat Assad: How to Turn Syria's Opposition into 
a Real Fighting Force,'' forthcoming, Foreign Affairs, Vol. 93, No. 5 
(September/October 2014). Also see, Daniel L. Byman, Michael Doran, 
Kenneth M. Pollack and Salman Shaikh, ``Saving Syria: Assessing Options 
for Regime Change,'' Middle East Memo No. 21, The Saban Center for 
Middle East Policy at the Brookings Institution, March 15, 2012.
    \6\ For more on the methodologies of containment, see Byman and 
Pollack, ``Things Fall Apart,'' op. cit.

    The Chairman [presiding]. Well, thank you all for your 
testimony. I am sorry I had to step out, but we had the benefit 
of having your testimony in advance.
    Let me ask you, Ambassador Jeffrey, if Maliki is the 
problem and Maliki somehow rises to be Prime Minister again, 
what is the course of events for us?
    Ambassador Jeffrey. First of all, it is not going to be 
easy for him to hang on as Prime Minister, because he will need 
the votes, as Mr. McGurk said, of at least part of the Sunni 
community and part of the Kurdish community to get above the 
165 that is needed. What I fear is that there will be a long 
delay, and that is what we had in 2010, where he will be the 
Acting Prime Minister for many months and people will get more 
discouraged.
    So I think the first thing is for us to press for this 
process to go forward, because I think that most Iraqis, 
including many of the Shia parties, do believe that they need a 
new leader. If he does stay in power, then our options are far 
more along the lines that Dr. Pollack has suggested at the end, 
of containing the problem and dealing with Iraq and Syria from 
Jordan, from Kurdistan, with Turkey to the extent that is 
possible, to try to both contain the danger and go after some 
of these ISIL elements that we think are threatening us or 
threatening the stability of the region.
    It will be very hard to work with a government in Baghdad 
that does not have the buy-in of the Sunnis and the Kurds, and 
it will not be possible to assist in any retakeover of those 
Sunni areas by an army that does not represent the people of 
the region.
    The Chairman. And if the flip side of that happens, that in 
fact he does not continue as Prime Minister, what are the 
immediate things that the next government will have to do in 
order to create the type of national unity that can fight ISIS 
and not have the country disintegrate?
    Ambassador Jeffrey. I have my own list. We all have lists, 
and frankly the Iraqis have their lists as well, Mr. Chairman. 
But a few things are crucial. First of all, to keep the Kurds 
in there has to be a deal. Brett McGurk--on oil. Brett McGurk 
talked about some of the options. He has negotiated a lot of 
them--they are ready, they are on the shelf--that would give 
them a bigger slice of overall resources while bringing them 
back into the system. That is very important.
    There needs to be real revenue-sharing. They already have 
tried this. Up until recently, the Kurds were getting 17 
percent. Some of the either oil-producing provinces--Basra, 
Kirkuk--or those with a lot of pilgrims--Najaf--were getting 
slices of the Iraqi central government budget to execute their 
own programs, and they were very, very successful, particularly 
in Najaf and Kirkuk. So there is a model also on the shelf to 
have more economic federalism.
    So it is not just lists of things. If you want 
inclusiveness you get rid of the guy who represents a lack of 
inclusiveness. That will do more than any action plan. If you 
want to have economic federalism, then you introduce financial 
and energy policies that will see to that. And if you want to 
have a security force that is capable of doing what General 
Barbero said, let us have a new Defense Minister who actually 
does have command and control over his forces, which is not the 
case now.
    The Chairman. Dr. Pollack, do you have anything to add?
    Dr. Pollack. I would just add one point to, I think, the 
excellent points that Ambassador Jeffrey just raised, which is 
that I think the United States needs to do a lot more to put on 
offer to the Iraqis, to make clear what we would do to help 
them if they actually took the steps that we are looking for. 
Right now my sense from Iraqis is we are demanding a great deal 
from them, but we are not actually letting them know what we 
would do for them if they took what are actually very difficult 
steps for them.
    That gets to Ambassador Jeffrey's point about how we need 
to be pressuring them, how we need to be pushing this process 
forward. Getting rid of Prime Minister Maliki is going to be 
very difficult and I think the Iraqis need to understand in 
much more concrete terms, rather than the more vague promises 
that they seem to be hearing, at least that they are hearing, 
from the administration about what they would get if they did 
it.
    The Chairman. General Barbero, I am really hesitant to 
continue to authorize sales or to approve sales--it is up to 
the administration to authorize them, but to approve sales--
when I have seen what has happened so far with some very 
critical armament that has fallen to the hands of ISIS as a 
result of it being abandoned on the battlefield. So how, in 
light of your comments that we need to respond to Iraqis' 
requests for help, which I assume in part is possibly air 
strikes, but also they are looking for equipment, how do we 
create the safeguards so that if we are going to help we do not 
end up having our weaponry fall in the hands of ISIS and used 
against the very forces that we want to defeat them?
    General Barbero. Mr. Chairman, as you look at every 
conflict there has been--it is not an antiseptic environment 
where--you will have loss of equipment. It just will happen.
    The Chairman. But not to the tune that----
    General Barbero. Not to the tune that we had, not with the 
rout in Mosul, I agree, and I share your concern and dismay 
over that. I think from this assessment we look at which are 
the good units of the Iraqi Security Forces and we invest 
heavily in them with advice, training, whatever they need, and 
then take a hard look at what they have asked for and what we 
are willing to share with them and make some decisions.
    But a senior Iraqi military leader last week said to me: 
Where is America? The Russians are performing and supporting 
us. The Iranians are here. We want the Americans. You are our 
friends.
    They are frustrated. We can ship all the Hellfires we want. 
They have three fixed-wing aircraft to fire Hellfires. It 
sounds great, briefs well. You cannot, as I said, air strike 
your way out of this.
    So I would pick the right units from this assessment and I 
would invest in them with the weapons and equipment that we 
feel that would help.
    The Chairman. Well, I would say to the Iraqis, billions of 
dollars, hundreds of lives, that is where America has been. And 
I would also remind them that they were unwilling to pursue a 
status of forces agreement which might have created the 
wherewithal to continue to solidify the Iraqi Security Forces. 
So I think they have to think about the decisions that they 
have made, not to relive them, but to instruct them moving 
forward.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Again, thank you for being here. I think a lot of times our 
second panels are actually better than the first, but by that 
time people have other business. You are more independent 
voices, and again we thank you so much for your help.
    Dr. Pollack, you responded, facially anyway, when Senator 
Menendez just mentioned that they were unwilling to pursue a 
status of forces agreement. I was just wondering what you were 
hoping to say, but did it instead with an expression?
    Dr. Pollack. I think that what was going through my head, 
Senator, was that that was a moment when I think both the 
United States and Iraq both failed each other and themselves. 
It was a moment when I think that Prime Minister Maliki was at 
best ambivalent about whether or not he wanted an American 
presence, which history has proven would have been beneficial 
to him. And I think that it was a time when the United States 
was ambivalent at best about whether or not it wanted to stay, 
and I think that history has once again proven that it would 
have been better had we done so.
    Senator Corker. I know our focus needs to be on the future, 
but I know Ambassador Jeffrey had sort of a give and take 
publicly in writing with folks regarding this. Is that your 
impression of what happened during that time, just very 
briefly? I want to move on to some other things.
    Ambassador Jeffrey. Very briefly, the administration, 
following the recommendation of its military leaders and my 
recommendation, in 2010 offered to keep troops on. In essence, 
the Maliki government and most of the political parties except 
the Sadrists agreed to have troops. We got hung up on the 
question of a status of forces agreement. Maliki was reluctant 
to do this. Iyad Allawi, who controlled the Sunnis in 
Parliament, said that he would not move any further than Maliki 
would move. That undercut how we had done the deal back in 2008 
when we had gotten the earlier agreement, and, frankly, time 
ran out.
    In terms of how enthusiastic the administration was about 
it, I had my instructions, which were to try to get an 
agreement.
    Senator Corker. I notice--thank you both for that 
clarification--that there has been sort of a discussion of the 
order of steps that need to take place, and there has been a 
heavy emphasis on getting the right political situation. I 
think all of you agree with that. Some of you would like to see 
us go ahead and take some steps now.
    Let me ask you, General, what do you think--what are some 
of the elements of debate that are taking place now relative 
to, if you were guessing--and my guess is you actually talk 
with some of these people from time to time--prior to us 
knowing if they are going to have an inclusive government, 
someone other than Maliki, what do you think are some of the 
elements of the debate that are taking place inside the 
administration relative to taking some small steps, not 
something sustained, but some of those small steps that I think 
you have mentioned might build morale at a minimum and maybe 
stave off some of the steps that ISIL is taking?
    General Barbero. I think there has been a reliance on this, 
as Ms. Slotkin said, a very deliberate process, in a very 
exigent situation. This process has in my view become a way to 
not take action, and we are in a situation where ISIS, as I 
said, is an existential threat to Baghdad, the Kurds, and in 
the region, and they are gaining strength.
    I think there has been discussion of air strikes, and you 
can take air strikes on targets without having precision if you 
see these entities out in the desert. That will only be for 
fleeting effects. It must be part of a sustained effort. So 
just doing air strikes or drone strikes can have some effect, 
but it will not be lasting or decisive.
    I think there is great reluctance to reintroduce American 
Forces. I get that. I understand. But if this is an existential 
threat, if, as we have heard, it is in the national interest of 
the United States, this situation, and if the Iraqi Security 
Forces are the way to deal with this, and these Iraqi Security 
Forces are not prepared or capable of dealing with it, then it 
is a dichotomous situation. You cannot close that circle 
without some external assistance to these forces.
    So I hope it is not a question of if we should support the 
Iraqi Security Forces and introduce the steps that I said; it 
is a question of when and, now that we have had this 
assessment, how quickly.
    Senator Corker. So the fear would be paralysis through 
purposeful long-term analysis. That would be the fear, just 
analyzing this forever and not taking action.
    I also agree with you there is some reticence to get back 
involved too militarily. But things are dissipating quickly.
    Let me ask you this. Maliki obviously, he may not have been 
a good Prime Minister, but he understands the debate that is 
taking place in our country and knows that him being gone, 
while we might not have laid out as clearly--and I think it is 
a great comment from you for us to share with them specifically 
what we would do if they had this inclusive government. I think 
that is a great point.
    But can you tell if there is any leveraging taking place by 
Maliki right now, knowing that we are not going to get involved 
in any kind of big way if he is still there? Is there any 
activity that is occurring there relative to him trying to 
leverage us in other ways?
    Ambassador Jeffrey. Dr. Pollack might have information as 
well. I think that, first of all, he points out correctly that 
he did very well in the last elections several months ago, 
winning personally 700,000 votes, which was even more than he 
did in 2010. His party came in first. Under the constitution, 
he should be given by the new President selected today within 
15 days an opportunity to form a government. And under the 
constitutional process, if he cannot form it--and I think it 
will be hard for him to form it--after 30 days the mandate has 
to pass to another party.
    Now, that is a lot of time to consume doing this. I think 
that as a minimum he is going to want to play this out. He also 
may feel that in the end the Americans, having sent, what was 
it, 775 additional forces to Iraq, are ready to help them out 
regardless of what happens. Again, I think I and many others 
have said under certain circumstances right now striking ISIL 
where they pose a danger is important, but we cannot provide 
the whole gamut, the whole breadth of support that they need 
absolutely unless we have an inclusive government that can 
bring in the Sunnis and bring in the Kurds, and it will not 
happen with him, sir.
    Senator Corker. Just one last question. I know my time is 
up and I know all of us probably have to be places. But I know 
there is discussion--and you have said this--about this being a 
regional approach and Syria and Iraq obviously having no border 
between them any more. What are some of the dynamics on the 
Syrian side that as we look at this regionally--I know you are 
just focused on Iraq now--that complicate, with Assad being in 
power there, complicate our ability to look at it regionally?
    Dr. Pollack. I am glad to start, Senator. I think one of 
the most obvious problems is the one that I have already 
mentioned, which is that when you look only at Syria we look at 
it and we say, we do not like the Assad regime, we want it 
gone, therefore the question is simply how best to help the 
opposition. When we look at Iraq we have a situation where you 
have a Shia group in charge of the government, they are likely 
to remain in charge of the government, and we are going to want 
to maintain good ties with them. Simultaneously, we have got a 
Sunni opposition that includes some people we really dislike--
ISIS and the militants--and others who we very much like. So 
there is a complexity that is involved, and therefore any 
support to one of these groups becomes complicated by the 
opposite effect that it has with the other.
    So if we are providing enormous support to Sunni 
oppositionists in Syria, inevitably some of that support is 
going to flow to opposition--to Sunni groups in Iraq, some of 
whom we may not like. The more that we are helping the Maliki 
government in Baghdad, the more it is going to be seen by folks 
in the region as supporting the wider Shia cause, which also 
encompasses the Assad government.
    Obviously, that is only the tip of the iceberg. There is a 
lot more to talk about. But we do need to recognize the 
complexity that has now been introduced into this situation by 
having simultaneously civil wars in Iraq and Syria that are by 
and large merged, which the region sees in a very simple way as 
a Sunni-Shia fight, but which we see in a much more complex 
way.
    Senator Corker. Would anybody like to add to that?
    General Barbero. If I could, Senator. As far as a regional 
approach, we know that ISIS is--they are awash in money. But 
the way to choke these organizations is to go after their 
financing. Now, for the near term they have got plenty of that. 
However, we know there are regional actors supporting them, 
supporting ISIS, and we should employ, as I said in my 
statement, our intelligence community to identify those actors 
and then use every tool we have in the interagency--Department 
of Commerce, Department of Treasury--to go after those actors 
and these sources of funding.
    We know, have a good idea, where it is coming from. Let us 
identify them and target them as part of a regional approach to 
this growing problem.
    Senator Corker. Thank you, Mr. Chairman.
    Thank you all for being here.
    The Chairman. One last set of questions. General, you 
served in Iraq. You led our mission to train and equip Iraqi 
Forces. When U.S. Forces left Iraq it seemed that Iraqi Forces 
were on their way to becoming a capable force. So that begs the 
question: What happened? Why did the ISF's capability and 
capacity erode so quickly?
    General Barbero. Senator, tough question, and it is tough 
to see what has happened, and it is tough to see what has been 
happening over the last few years. I have been back to Iraq 
many times over the last year since I left active duty.
    But the ISF was built to handle a low-level insurgency and 
our goal was to get them to a state where they were good 
enough. Frankly, when I was there in 2009 and 2010 and into 
2011, the assumption we had as we did our development plan, 
there would be a residual force of advisers and trainers to 
continue this development. I did an assessment in the summer of 
2010 for then-General Odierno, which we briefed to everyone in 
Iraq and every Iraqi leader, saying: Here is where your forces 
are going to be in December 2011. We wanted to convince them 
and show them the capabilities and the shortfalls of their 
forces.
    The shortfalls we identified, some were very obvious. They 
could not control their own air space nor defend it. But we 
said: You have a sustainment problem, your military readiness 
of your equipment is in a death spiral. Unless you do something 
very seriously, you will not be able to field an army. Your 
command and control structure is not workable. This peacetime 
for command and control of the population directly to the Prime 
Minister, it has to change. You do not have an NCO corps.
    What I think most fundamentally is, we told the Iraqis: You 
must invest in training. Good armies train continuously. And we 
did not see that before we left and I have not seen any 
evidence of that since then.
    So the short answer is the development that needed to take 
place with the Iraqi Security Forces from December 2011 to July 
2014 has not taken place. We can go back and forth about 
advisers and trainers, but they just have not developed as they 
should.
    The Chairman. So if that is the case, then what will 
advisers now be able to do at this stage that will make a 
difference on the ground with Iraqi Forces?
    General Barbero. Well, when we were on the ground with them 
and advising and training, it did make a difference. I think 
first we can stop the bleeding. They are under severe duress 
with the VBIED campaign that has started in Baghdad. Indirect 
fire is coming. ISIS is not going to let up. So if this is in 
our interest, then we need to get something in there to help 
them, A, stop the bleeding, and then start building these 
forces.
    But this will not take weeks or months. This is going to 
take a while to get them to a state--as I said in my comments, 
unless we have an Iraqi Government that is willing to accept 
these changes and willing to emplace these changes into their 
structure and the way they do business, then I would question 
whether we should 
do it.
    The Chairman. Two last questions. Can air strikes alone--I 
think you alluded to this in your answer to one of Senator 
Corker's questions. But can air strikes alone make a difference 
in pushing back ISIS, or would doing them now just be in 
essence giving the Iraqis a boost?
    General Barbero. Air strikes can make a difference, 
tactical 
difference. They can help enable Iraqi Forces. They can help 
relieve pressure. They can help degrade ISIS capabilities. But 
my point is we cannot think that just through air strikes and 
drone strikes we can solve this problem or, I would argue, even 
hold it in abey-
ance. They would make a difference. It would not be a decisive 
difference.
    The Chairman. So the flip, the other side of this, then is 
training and assisting Iraqi Forces, can they possibly recover 
the country, even with the training and assisting?
    General Barbero. I think they could.
    The Chairman. You think they could?
    General Barbero. I think they could.
    The Chairman. We are talking about what period of time?
    General Barbero. Months. It is not going to happen 
overnight.
    Ambassador Jeffrey. Senator, if I could support General 
Barbero. I have seen it myself. I was in Vietnam as an Army 
officer in 1972. The South Vietnamese Army, when the North 
Vietnamese regular army invaded for the first time, they 
started melting worse than Mosul. Millions, billions of dollars 
of U.S. equipment was lost within days. Then when we started 
air strikes it changed the psychology of those forces almost 
overnight, and within 3 months they had recovered almost the 
entire country.
    We saw in Libya, we saw in Kosovo, and we saw in Bosnia 
where air strikes can provide lightly equipped, sometimes not 
too well trained forces the difference in taking on better 
equipped forces. As Brett McGurk I think three times described 
earlier today, dealing with the Shamar Tribe up near Mosul, 
dealing with the people, and I know Governor Delami is still 
holding out in Ramadi, a Sunni governor, against ISIL, they are 
outgunned. He described how they had volunteers to go into 
northern Fallujah, but they lost in a battle to ISIL because 
the ISIL people were better equipped and better trained.
    So a combination of air strikes and advisers, not boots on 
the ground, can make a huge difference, sir.
    The Chairman. One last question for you, General. Are you 
surprised by the alarming reports of Iraqi Security Forces' 
abuses, infiltration by Shia militias, and lack of 
accountability? And how do we engage with the Iraqi Forces to 
deal with those challenges?
    General Barbero. Senator, I was in Erbil and Baghdad in 
late May, so the developments in Mosul and what has happened 
after that I think was a shock in Mosul and Baghdad and 
Washington. I was shocked by it.
    But as I drive around Baghdad or Basra or other places over 
the last year, it is a checkpoint army. I have said that. You 
cannot take on an ISIS if you have been in static positions on 
the defense and not trained for offensive operations.
    What is troubling is as you ride up to these army 
checkpoints there are Shia religious banners almost at every 
one across Baghdad, certainly in Basra. So there must be a 
fundamental change in the nature of these forces, not only the 
government, but the forces, to allow participation by Sunni and 
Kurds in this unified effort that it would require.
    The Chairman. Well, I appreciate your insights. I am not a 
military guy, but I will say that when an American soldier 
volunteers, he fights for a cause, for a principle, for a set 
of values, and he fights for his nation, he or she fights for 
their nation. If the job is just a job, then it does not turn 
out the same way. And it is difficult to get an Iraqi Army if 
you do not feel you are fighting for the totality of a 
country--Shia, Sunni, and Kurd. And that is a real problem.
    Anyhow, I appreciate all of your insights as we grapple 
with the choices we have to make.
    This record will remain open until the close of business 
tomorrow. With the thanks of the committee, this hearing is 
adjourned.
    [Whereupon, at 12:42 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Response of Brett McGurk to Question Submitted by Senator Tim Kaine

    Question. The Islamic State (formerly ISIS) is among the most well-
financed terrorist organizations in the world, with financial flows 
running into tens of millions of dollars. Please describe the status of 
Islamic State finances, including internal sources (oil revenue, taxes, 
smuggling) as well as any external flows and what the U.S is doing to 
counter IS financing.

    Answer. The Islamic State of Iraq and the Levant (ISIL) derives the 
majority of its financing from criminal activities including smuggling, 
robberies, extortion, and kidnapping for ransom, as well as raiding 
villages and towns. ISIL controls some smaller oil and gas fields, 
pipelines, and related infrastructure in Iraq, but not Iraq's major oil 
fields, which are in territory under the control of the Government of 
Iraq in the south and the Kurdish Regional Government forces in the 
north. ISIL receives some money from outside donors, but that pales in 
comparison to its self-funding through criminal and terrorist 
activities.
    The issue of preventing private financing of violent extremists 
remains an important priority in our discussions with all states in the 
region. We are working closely with our partners in the region to halt 
the sale of ISIL-sourced oil, and prevent external financial support 
for terrorists from crossing their borders.
    The United States and other key players in the international 
financial system pay extremely close attention to the risks associated 
with terrorist financing. We approach these issues with partners in the 
global financial system, such as the intergovernmental Financial Action 
Task Force, with financial regulators, and with financial institutions 
and their compliance officers.
                                 ______
                                 

                Responses of Brett McGurk to Questions 
                    Submitted by Senator Jeff Flake

    Question. The administration has blamed Baghdad for not heeding 
U.S. warnings about ISIL's impending advance into Mosul.

  <diamond> (a) Was it a surprise when ISIL took control over Fallujah 
        earlier this year?

    Answer. We have maintained a close watch on Iraq's security 
situation since the stand-up of the U.S. Embassy in Baghdad in 2004. 
The threat of the Islamic State of Iraq and the Levant (ISIL) and its 
effect on Iraq's overall security situation was neither a surprise nor 
a sudden event. We have watched and warned of ISIL's growing strength 
and its threat to Iraq and U.S. interests in the region--and now to 
Europe and the U.S. homeland--since the group's resurgence in 2012, 
largely due to the escalating conflict in Syria.

  <diamond> (b) Did the administration warn Baghdad or share 
        intelligence with officials there preceding the ISIL takeover 
        of Fallujah?

    Answer. The Government of Iraq has long been aware of the threat 
that ISIL poses, and during Prime Minister Maliki's meetings in 
Washington last fall the need to develop a holistic strategy to counter 
its rise was a topic of discussion at several of PM Maliki's meetings 
with USG officials. As the ISIL threat increased, we took several steps 
to increase counterterrorism assistance with Iraq and to build a 
foundation for future, expanded cooperation. We enhanced information-
sharing relationships, expanded training in Iraq and Jordan, provided 
military advice, and sought opportunities to increase border security. 
After the withdrawal of U.S. Forces in 2011, we maintained a close 
partnership with Iraq's military intelligence, Directorate General for 
Intelligence and Security, and other intelligence agencies across the 
government and Ministry of Defense. Information and intelligence-
sharing has been and remains crucial to the fight against ISIL.

  <diamond> (c) How long has ISIL been of concern to the 
        administration?

    Answer. From the moment this administration took office, ISIL--
formerly Al Qaeda in Iraq (AQI)--has been a concern. This organization 
has posed a threat since the Bush administration when it was known as 
Al Qaeda in Iraq under the direction of Zarqawi. Since the start of the 
Syrian conflict, we watched with growing concern as ISIL took advantage 
of the escalating war to establish a safe-haven in Syria's eastern 
desert. With ample resources, recruits, weapons, and training, ISIL 
slowly began to execute its strategy to create an Islamic caliphate 
across the Syrian border into Iraq. Violence in Iraq began to increase 
toward the end of 2012, but did not gain momentum until early 2013, 
with a marked rise in ISIL suicide bombings. Taking advantage of the 
instability it was causing, ISIL then seized parts of Anbar province, 
including the cities of Ramadi and Fallujah, in early January 2014. The 
Government of Iraq then initiated a concerted counterterrorism campaign 
against ISIL, which has continued to this day. Although ISIL has long 
operated in Mosul and northern Iraq, its sudden, large-scale offensive 
there in June escalated the fight, dramatically demonstrating the 
existential threat to Iraq posed by ISIL.

    Question. The United States has sat back and watched while ISIL 
took control of Fallujah, Mosul, Tikrit, and moved into Diyala 
province. The U.S. has sent 300 advisors to Iraq and air strikes remain 
an option still under review. According to CRS, ``U.S. officials 
express increasing confidence that the IS-led offensive will not be 
able to capture [Baghdad] outright, although the ISF might yet lose 
parts of the city.''

  <diamond> (a) What are the administration's goals in Iraq? What does 
        it hope to achieve with the sending of advisors to aid the ISF?
  <diamond> (b) Are we content with letting ISIL maintain control over 
        the territory it's already claimed?

    Answer. Our goals in Iraq remain promoting the emergence of a safe, 
peaceful, and politically inclusive state, which supports our approach 
for regional security. Iraq needs to move forward quickly to assemble a 
new government that will respect the rights, aspirations, and 
legitimate concerns of all Iraqis. We are in constant communication 
with Iraq's leaders, urging them to come together and take a united 
stand against violent extremism.
    We also are exploring more ways to assist the Iraqi Security Forces 
in the battle against ISIL. Over the last 6 months, we surged U.S. 
diplomatic, intelligence, and military resources to develop strategic 
options supported by real-time and accurate information. More recently, 
a team of U.S. military advisors conducted an assessment of the Iraqi 
Security Forces, which we will use to determine of how we can best 
assist the Iraqis in the ongoing fight.
    As Secretary Kerry remarked in June, supporting Iraq in its 
struggle against violent extremism supports our strategic interests and 
responsibilities, including providing security for the American people, 
fighting terrorism, and standing by our allies. We will do what is 
necessary and what is in our national interest to confront ISIL and the 
threat that it poses to the security of the region, to our allies in 
Europe, and to our own security here in the United States.

    Question. After the withdrawal from Iraq of U.S. forces at the end 
of 2011, sectarian strife grew stronger as Prime Minister Maliki 
targeted his Sunni adversaries who, in turn began talking about 
Maliki's ``power grab.'' President Obama has made it clear that he 
views the collapse of the Iraqi Security Forces as a failure of Iraqi 
leaders to build an inclusive government.

  <diamond> (a) How hard did the administration work after the 
        withdrawal of U.S. forces to help Maliki maintain an inclusive 
        government?

    Answer. Advancing Iraq's democracy is a key component of our 
relationship under the U.S.-Iraq Strategic Framework Agreement, and we 
continue to work with Iraqis across the political spectrum and civil 
society to advance that agenda. We have repeatedly urged the Iraqi 
Government to uphold its commitments to due process and the rule of law 
as enshrined in its constitution and to avoid any actions that 
exacerbate sectarian tensions.

  <diamond> (b) How long did this diplomatic effort remain a priority 
        for the administration?

    Answer. The need for inclusive government and political 
reconciliation has been a focus of our conversations with Prime 
Minister Maliki and other Iraqi leaders since PM Maliki's government 
was first formed, and we have used high-level meeting, including Prime 
Minister Maliki's visits to Washington in January 2012 and November 
2013, to reinforce that message.

  <diamond> (c) Who specifically is the administration working with now 
        in the Sunni community to restore credibility to the central 
        government?

    Answer. We believe that the only way to restore credibility to the 
central government in Iraq is through the formation of an inclusive 
government, and to this end we have been fully engaged with Iraqi 
officials, politicians, civil society leaders, and religious leaders 
from all components of Iraqi society. Following Iraq's successful 
parliamentary elections on April 30, our priority has been to ensure 
that the government formation process stays on track, especially in 
light of the threat that the Islamic State of Iraq and the Levant 
(ISIL) poses to Iraq. To support this goal, Vice President Biden and 
former Speaker Nujaifi spoke over the telephone in June about the 
continued need for political reconciliation and an inclusive 
government, and Deputy Assistant Secretary McGurk met repeatedly with 
Iraqi leaders in June and July to ensure that the government formation 
process followed the constitutionally mandated timeline.
    Within the Iraqi Sunni community we continue to engage with 
national and local Sunni officials and tribal leaders to promote the 
formation of an inclusive government that would address Sunni 
grievances. That message has been reinforced, in coordination with 
international partners, by encouraging Iraq's Sunni neighbors to 
support Iraqi Sunni participation in the government formation process.

    Question. The void created by the withdrawal of American troops at 
the end of 2011 was supposed to be filled by a robust diplomatic 
presence at our state-of-the-art Embassy in Baghdad, and two consulates 
in Basrah and Erbil. In 2012, personnel numbered above 12,000. In 2013, 
we were at 10,500, and current reports suggest that there are 5,500 
personnel there, including contractors, though the State Department has 
apparently declined to disclose the official numbers of diplomatic 
personnel in Iraq.

  <diamond> (a) What are the official numbers of diplomatic personnel--
        including contractors--in Iraq for 2012, 2013 and at present?

    Answer. In January 2012, at the time of the transition, the number 
of all personnel (U.S., third country national, and local staff--both 
direct hire and contractor) under Chief of Mission authority was about 
16,000. This decreased to about 10,500 by September 2013 and further to 
about 5,500 in May 2014. After the relocation of personnel from Baghdad 
over the past 6 weeks, as of July 24 our on-the-ground staffing for 
Chief of Mission personnel countrywide is about 4,700, including 740 
direct hires and 3,960 contractors. Of these 4,700, about 1,860 are 
Americans.

  <diamond> (b) What effort was made by this diplomatic corps to work 
        with the central government to remain an inclusive body?

    Answer. Our mission is fully engaged with Iraqi officials, 
politicians, and religious and social leaders at all levels and across 
the political spectrum. U.S. engagement remains focused on supporting 
the constitutional system and strengthening institutions which 
transcend the interests of individuals, political parties, or sectarian 
components of Iraqi society. Despite the dangers, over the past few 
months our diplomatic staff on the ground in Iraq have been focused on 
first ensuring that the April elections were timely, transparent, and 
secure, and now continue to play a crucial role in keeping the process 
for forming a new, inclusive Iraqi Government on track. I personally 
spent 7 weeks on the ground during the early stages of the ISIL 
incursion into Ninewah province and worked with leaders on all sides to 
ensure swift and inclusive government formation. As a result of our 
collective efforts, the Iraqi Government remains on track to choose a 
Prime Minister and continue the constitutionally driven government 
formation process.
    More broadly, the United States continues to play an important role 
by encouraging direct dialogue between Iraq's leaders and political 
parties. Our political role in Iraq is as a trusted party that provides 
advice, facilitates communication within and between the various 
factions, and urges all sides to work together for constructive change. 
Under the U.S.-Iraq Strategic Framework Agreement, we cooperate with 
Iraqis across a broad range of issues, including security and defense, 
economics/trade, and education/culture.

  <diamond> (c) Why did the numbers of personnel in Iraq decline so 
        quickly, particularly after the amount of money that was spent 
        to construct our diplomatic facilities there?

    Answer. From January 2012 to January 2014, we made significant 
strides in reducing Chief of Mission personnel throughout Iraq. We 
reduced our footprint from 13 sites, including those for Office of 
Security Cooperation and Foreign Military Sales operations, to 4. We 
streamlined programs and right-sized our staff. In the summer of 2013, 
we switched from a DOD-legacy life support contractor to a State-
sponsored contractor, significantly reducing the number of contractors 
countrywide. Although we have significantly reduced overall numbers of 
personnel, all of our diplomatic facilities remain fully utilized since 
we have pulled personnel in to operate from these sites as peripheral 
sites have been closed.
                                 ______
                                 

               Responses of Elissa Slotkin to Questions 
                    Submitted by Senator Jeff Flake

                        isil advance into mosul
    Question. The administration has blamed Baghdad for not heeding 
U.S. warnings about ISIL's impending advance into Mosul.

  <diamond> Was it a surprise when ISIL took control over Fallujah 
        earlier this year?
  <diamond> Did the administration warn Baghdad or share intelligence 
        with officials there preceding the ISIL takeover of Fallujah?
  <diamond> How long has ISIL been of concern to the administration?

    Answer. We were surprised by the speed at which four Iraqi 
divisions melted away in some areas, and some areas where they simply 
did not fight, in contrast to western Iraq where Iraqi Security Forces 
(ISF) put up a serious fight. Rather than a lack of capability, these 
actions revealed that some units within the ISF lack either the will or 
the direction to fight. Understanding these matters better is critical 
in deciding on any future plans to pursue in Iraq. That is why we have 
U.S. Forces on the ground right now trying to figure that out. 
Regarding whether we shared intelligence with Baghdad, I defer to my 
State colleague. We have long considered ISIL a concern, and we began 
working with the Government of Iraq in early January to bolster their 
ability to counter ISIL through increased security cooperation and 
expedited sales of defense articles.
                           u.s. goals in iraq
    Question. The United States has sat back and watched while ISIL 
took control of Fallujah, Mosul, Tikrit, and moved into Diyala 
province. The U.S. has sent 300 advisors to Iraq and air strikes remain 
an option still under review. According to CRS, ``U.S. officials 
express increasing confidence that the IS-led offensive will not be 
able to capture [Baghdad] outright, although the ISF might yet lose 
parts of the city.''

  <diamond> What are the administration's goals in Iraq?
  <diamond> What does it hope to achieve with the sending of advisors 
        to aid the ISF?
  <diamond> Are we content with letting ISIL maintain control over the 
        territory it's already claimed?

    Answer. As the President said on July 19, the administration is 
focused on maintaining and ensuring the security of the U.S. Embassy 
and U.S. personnel operating inside of Iraq; increasing the U.S. 
intelligence picture of the situation in Iraq; and setting up the 
infrastructure to support the Iraqis through shared intelligence and 
coordinating planning to counter ISIL. The U.S. Central Command 
assessment team is working to identify and evaluate viable partners 
within the Iraqi Security Forces. The assessment team will identify 
viable partners for the United States to support in their fight against 
this threat.
    The intelligence community has assessed that ISIL currently poses a 
threat to our regional interests and allies. If left unchecked, ISIL 
may eventually threaten the homeland. It is not in the interest of the 
United States to allow ISIL to maintain the territory it seized. A safe 
haven will allow ISIL to consolidate further and continue to threaten 
the United States and its allies.
                       u.s. withdrawal from iraq
    Question. After the withdrawal from Iraq of U.S. forces at the end 
of 2011, sectarian strife grew stronger as Prime Minister Maliki 
targeted his Sunni adversaries who, in turn began talking about 
Maliki's ``power grab.'' President Obama has made it clear that he 
views the collapse of the Iraqi Security Forces as a failure of Iraqi 
leaders to build an inclusive government.

  <diamond> How hard did the administration work after the withdrawal 
        of U.S. forces to help Maliki maintain an inclusive government?
  <diamond> For how long did this diplomatic effort remain a priority 
        for the administration?
  <diamond> Who specifically is the administration working with now in 
        the Sunni community to restore credibility to the central 
        government?

    Answer. These are primarily diplomatic matters, and I defer to my 
State Department colleagues to provide more information.

    Question. The void created by the withdrawal of American troops at 
the end of 2011 was supposed to be filled by a robust diplomatic 
presence at our state-of-the-art Embassy in Baghdad, and two consulates 
in Basrah and Erbil. In 2012, personnel numbered above 12,000. In 2013, 
we were at 10,500, and current reports suggest that there are 5,500 
personnel there, including contractors, though the State Department has 
apparently declined to disclose the official numbers of diplomatic 
personnel in Iraq.

  <diamond> What are the official numbers of diplomatic personnel--
        including contractors--in Iraq for 2012, 2013, and at present?
  <diamond> What effort was made by this diplomatic corps to work with 
        the central government to remain an inclusive body?
  <diamond> Why did the numbers of personnel in Iraq decline so 
        quickly, particularly after the amount of money that was spent 
        to construct our diplomatic facilities there?

    Answer. These are primarily diplomatic matters, and I defer to my 
State Department colleagues to provide more information.
                                 ______
                                 

                Responses of Brett McGurk to Questions 
                   Submitted by Senator John Barrasso

                          political situation
    On July 15, the Iraqi Parliament elected a moderate Sunni to the 
Speaker of Parliament.
    In the coming days, we expect the Parliament to elect a President 
that will replace Talibani.
    It appears to me that the security situation in Iraq will not 
improve until a new Prime Minister is elected.
    The Iraq Constitution requires the Parliament to pick a Prime 
Minister within 75 days from when date of when it convenes.
    The last time Parliament met to pick a Prime Minister, it took 
nearly 10 months.

    Question. What timeline are we looking at for a new Prime Minister?

    Answer. Iraq's Constitution lays out a brisk set of timeline for 
the country's government formation process, including selection of a 
new Prime Minister. Those constitutional were not adhered too closely 
by Iraqi leaders following Iraq's general elections in 2010. In 
contrast with 2010 and in part reflecting our robust diplomatic 
engagement with top leaders across Iraq's political spectrum, Iraq's 
new Council of Representatives (COR) has been meeting its 
constitutional timelines--for example, by convening its first session 
on July 1 and electing new COR Speaker Salim al-Jabouri, a widely 
respected Sunni leader, on July 16.
    On July 24, the same day as this hearing and well within 
constitutional timelines, the COR elected senior Kurdish political 
leader Fuad Masum to succeed Jelal Talabani as President of Iraq. 
Masum's election represents another key milestone in Iraq's Government 
formation process and an important compromise among Iraq's 
ethnosectarian political blocs. We fully expect President Masum to 
execute his constitutional responsibilities by directing the largest 
bloc in the COR to form a new Cabinet, including a new Prime Minister, 
for the COR's approval by September 8 in accordance with Iraq's 
constitutional timelines.

    Question. As long as President al-Maliki is in power, what is your 
assessment of the chances to reconstitute the Iraqi Security Forces 
(ISF)?

    Answer. There continues to be significant opposition to electing 
Nuri al-Maliki for a third term as Prime Minister, which could 
complicate efforts to build broad-based political support for the ISF's 
reconstitution. However, Maliki will remain Iraq's Prime Minister until 
newly elected President of Iraq Fuad Masum directs the largest bloc in 
Iraq's Council of Representatives (COR) to nominate a new Prime 
Minister for the COR's approval, under Iraq's Constitution by September 
8, and the COR confirms the nominee. We continue to engage with Iraqi 
leaders from all ethnoreligious blocs to come together around a 
candidate for Prime Minister who can unify Iraq against the Islamic 
State in Iraq and the Levant (ISIL). Until a new Prime Minister is 
elected, we must and will continue working with Prime Minister Maliki 
to ensure the ISF's swift reconstitution, which is supported by all 
major political parties inside and outside Prime Minister Maliki's 
coalition.

    Question. In your assessment, what are the chances of Maliki 
stepping down?

    Answer. Nuri al-Maliki will remain Iraq's Prime Minister until 
newly elected President of Iraq Fuad Massum directs the largest bloc in 
Iraq's Council of Representatives (COR) to nominate a new Prime 
Minister for the COR's approval, by September 8 under Iraq's 
Constitution, and the COR confirms that nominee. Buoyed by a record 
721,000 personal votes in Iraq's historic general elections on April 
30, Prime Minister Maliki continues to insist publicly that he will 
seek another term as Prime Minister. Meanwhile, there appears to be 
growing sentiment within all of Iraq's societal components that Iraq 
would be more unified with new leadership--a sentiment Maliki at times 
seems to acknowledge to some extent.
    We continue to engage with top Iraqi political, civic, and 
religious leaders from all blocs to come together around a candidate 
for Prime Minister who can unify Iraq against the Islamic State in Iraq 
and the Levant (ISIL). Until a new Prime Minister is elected, we must 
and will continue working with Prime Minister Maliki in aiding the 
Government of Iraq in defending Iraq's territorial integrity against 
ISIL, which is supported by all major political parties inside and 
outside Prime Minister Maliki's coalition. If Iraqis' duly elected 
representatives choose another Prime Minister, the United States will 
continue its support for Iraq to that same end.

    Question. Are we seeing any efforts within Iraq and the Shiite 
population to pressure the President Maliki to step down?

    Answer. There appears to be growing sentiment within all of Iraq's 
societal components, including Iraq's Shia population, that Iraq would 
be more unified with new leadership. For example, Grand Ayatollah Ali 
Husayni al-Sistani, Iraq's most senior Shia cleric, has repeatedly 
called for the formation of a new Iraqi Government and in a recent 
sermon admonished Iraqi leaders against sacrificing the country's 
future for their own political interests--sentiments echoed in a 
statement from Maliki's Islamic Dawa Party that same day. Despite 
pressure from many in Iraq's Shia community, Maliki seemingly remains 
buoyed by his record 721,000 personal votes in Iraq's historic general 
elections on April 30 and continues to insist publicly that he will 
seek another term as Prime Minister.
    We continue to engage with top Iraqi political, civic, and 
religious leaders from all blocs, including Iraq's Shia community, to 
come together around a candidate for Prime Minister who can unify Iraq 
against the Islamic State in Iraq and the Levant (ISIL). However, that 
decision must be made by Iraqi lawmakers. Until a new Prime Minister is 
elected, we must and will continue working with Prime Minister Maliki 
in aiding the Government of Iraq in defending Iraq's territorial 
integrity against ISIL.

    Question. Should Maliki step down, who are the likely successors to 
take over?

    Answer. When newly elected President of Iraq Fuad Masum directs the 
largest bloc within Iraq's Council of Representatives (COR) to form a 
new Cabinet, that bloc will almost certainly be composed of primarily 
Shia parties, which can be expected to nominate a Shia leader for the 
COR to confirm as Iraq's Prime Minister. Should current Prime Minister 
Maliki decline his renomination or the largest COR bloc identifies 
another candidate, there a number of frequently mentioned 
alternatives--including several senior leaders within Prime Minister 
Maliki's State of Law coalition--which performed well in Iraq's 
historic general elections on April 30.
    Regardless of party or ethnoreligious affiliation, we will continue 
to press all political blocs to support a candidate for Prime Minister 
who can govern inclusively and thereby unify all Iraqis against the 
Islamic State in Iraq and the Levant.
                              air strikes
    Question. For years the Iraqis have been asking for our assistance 
in providing military aircraft to combat al-Qaeda and ISIS fighters 
throughout Iraq. This year and reportedly in 2013, the Iraqis have 
requested our assistance to launch air strikes against ISIS.
    Recently, Mr. McGurk stated before House Foreign Affairs Committee 
that Iraq did not formally request air support until May 2013.

  <diamond> Did the Iraqis request air support to combat ISIS forces in 
        2013?
  <diamond> Can you please differentiate between formal and informal 
        requests for air support?
  <diamond> What are the current options for airstrikes on ISIS forces?
  <diamond> How do we plan on differentiating Iraq Security Forces, 
        Kurdish Security Forces, and Iran Security Forces from the 
        ISIS?
  <diamond> With the United States, Iraq, Iran, and Russia currently 
        operating in Iraq airspace, how are we currently deconflicting 
        our Intelligence, Surveillance and Reconnaissance (ISR) 
        operations?

    Answer. The Iraqis formally requested air support in May 2014. 
Prior to the formal requests, Iraqi officials made informal inquiries 
regarding capabilities, to include airstrikes, but these conversations 
never escalated to the requisite level of coordination necessary within 
the GOI. With the formal request, airspace permissions, coordination 
and GOI political support, the President authorized prompt action, to 
include combat operations by U.S. aircraft, and CENTCOM surged ISR 
flights over the region.
    Since that time, President Obama has made it clear that he will 
take action, including military action, at a time and place of our 
choosing, if and when it is necessary to defend our national security 
interests. We are continuing to improve our intelligence picture of the 
situation on the ground so we can assess potential options. The two 
Joint Operations Centers in Baghdad and Erbil are augmenting this 
effort as they enhance information-sharing relationships. Airstrikes 
without the necessary intelligence would be irresponsible and would not 
make any operational impact on the ground.
    We would defer to DOD for specifics for airspace deconfliction.
                                 ______
                                 

               Responses of Elissa Slotkin to Questions 
                   Submitted by Senator John Barrasso

                   assessment of iraq security forces
    Question. How long do we assess that it will take to recruit, 
train, and equip new forces to reconstitute the four divisions that 
have been reduced?

    Answer. The U.S. Central Command assessment team is still in the 
process of identifying and assessing potential partners within the 
Iraqi Security Forces. We continue to update the initial assessment 
that the team provided the week of July 14, and developing options, but 
it is too early in that process to provide more detail.

    Question. Please outline President al Maliki's actions that led to 
the crumbling of the Iraqi Security Forces under his leadership?

    Answer. The Iraq Security Forces' (ISF) losses are the result of 
Iraqi political divisions and leadership challenges. As the President 
said on June 19, it's not any secret that there are deep divisions 
between Sunni, Shia, and Kurdish leaders, and those divisions made it 
difficult for the Government of Iraq (GOI) to command the ISF directly 
in its efforts to combat ISIL. We are focused now on encouraging the 
GOI to move forward with the government formation process, and in 
ensuring that competent military leaders are put in place in key posts.

    Question. Does the Pentagon have a timeline on when it will make 
its recommendations to the President on how to proceed in Iraq?

    Answer. The Secretary of Defense has provided his views regularly 
to the President on how to proceed in Iraq. The Chairman of the Joint 
Chiefs of Staff has provided his best military advice. This advice 
informs the options available to the President on future action in 
Iraq. The National Security Council will make recommendations to the 
President.
                              air strikes

    Question. For years the Iraqis have been asking for our assistance 
in providing military aircraft to combat al-Qaeda and ISIS fighters 
throughout Iraq. This year and reportedly in 2013, the Iraqis have 
requested our assistance to launch air strikes against ISIS. Recently, 
Mr. McGurk stated before House Foreign Affairs Committee that Iraq did 
not formally request air support until May 2013.

  <diamond> Did the Iraqis request air support to combat ISIS forces in 
        2013?
  <diamond> Can you please differentiate between formal and informal 
        requests for air support?
  <diamond> What are the current options for airstrikes on ISIS forces?
  <diamond> How do we plan on differentiating Iraq Security Forces, 
        Kurdish Security Forces, and Iran Security Forces from the 
        ISIS?
  <diamond> With the U.S., Iraq, Iran, and Russia currently operating 
        in Iraq airspace, how we are currently de-conflicting our 
        Intelligence, Surveillance, and Reconnaissance (ISR) 
        operations?
    Answer. The Iraqis did not request air support in 2013. U.S. 
Government representatives had regular conversations with GOI 
counterparts on how best to counter ISIL. As the security situation in 
Iraq deteriorated, the Government of Iraq (GOI) requested expedited 
defense equipment and increased training, which the United States 
provided.
    But the GOI did not formally request air strikes until recently. As 
directed by the President, we are looking at the full range of options 
on future action in Iraq, to include air support.
    We are in continuous contact with the Iraqis to ensure close 
coordination on our activities. But to be clear, we are not 
coordinating military activity with Iran or Russia.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
